<html>
<title> - THE FUTURE OF U.S. POLICY TOWARDS RUSSIA</title>
<body><pre>[Senate Hearing 116-184]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-184
 
                THE FUTURE OF U.S. POLICY TOWARDS RUSSIA

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            DECEMBER 3, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     




                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         

               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-423 PDF              WASHINGTON : 2020                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                               (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Hale, Hon. David, Under Secretary of State for Political Affairs, 
  U.S. Department of State, Washington, DC.......................     5
    Prepared statement...........................................     6

Ford, Hon. Christopher A., Assistant Secretary for International 
  Security and Nonproliferation, U.S. Department of State, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Responses of Hon. David Hale to Questions Submitted by Senator 
  Robert Menendez................................................    55

Responses of Christopher A. Ford to Questions Submitted by 
  Senator Robert Menendez........................................    60

Responses of David Hale to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    62

Responses of David Hale to Questions Submitted by Senator Tom 
  Udall..........................................................    73

Responses of David Hale to Questions Submitted by Senator Ted 
  Cruz...........................................................    77

Responses of Christopher A. Ford to Questions Submitted by 
  Senator Ted Cruz...............................................    78

Letter to Hon. James E. Risch and Hon. Robert Menendez From Mike 
  Sommers........................................................    80

U.S. Chamber of Commerce Article Submitted by Senator James E. 
  Risch..........................................................    82


                               (iii)        


                       THE FUTURE OF U.S. POLICY 
                             TOWARDS RUSSIA

                              ----------                              


                       TUESDAY, DECEMBER 3, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:48 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Gardner, Romney, Isakson, Barrasso, Portman, Paul, Young, Cruz, 
Menendez, Cardin, Shaheen, Coons, Udall, Murphy, Kaine, Markey, 
and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order.
    Thank you all for coming today, and thank you to our 
witnesses for joining us today as we examine the current state 
of the U.S.-Russia relationship and our strategy to deal with 
the Russian Federation.
    It is timely to assess our relationship with Russia as we 
have recently celebrated the 30th anniversary of events that 
led to the collapse of the Soviet Union: the fall of the Berlin 
Wall, Solidarity's election victory in Poland, and the Baltic 
Way demonstrations, among others. Many former Soviet states 
have become prosperous democracies with memberships in NATO and 
the EU.
    But Mr. Putin has taken Russia down another, much darker 
path. Today, many Russians suffer, while oligarchs enrich 
themselves through control of major industries. Russia rigs its 
elections to ensure only Kremlin-approved politicians make the 
cut. Russia has targeted and expelled humanitarian 
organizations and free media outlets, labeling them ``foreign 
agents.'' And the Russian people are inhumanely imprisoned and 
tortured for daring to disagree with the government.
    Not only does the Russian Federation make life at home 
painful for the average Russian, but Putin is also making life 
hard for people around world. He has meddled in American and 
European elections, sowing political chaos. He has propped up 
the murderous regime of Syrian President al-Assad. He sells 
arms to human rights abusers in Africa and missile defense 
systems to U.S. allies and adversaries alike. And in Venezuela, 
Maduro continues to hang on to power as people suffer, thanks 
in large part to Russian assistance.
    Of course, we all know about the invasions of Georgia and 
Ukraine over the years and about the poisoning of Russian 
people in London, on other sovereign soil. The world today is 
more dangerous and less free because of the Russian Federation.
    As a result, the U.S. relationship with Russia is at a low 
point. During the height of the Cold War, our leaders had a 
lifeline to ensure that neither side made a disastrous 
miscalculation, the famous red phone. Today, our engagements 
with Russia are few, and there is a growing risk of a strategic 
miscalculation on the seas, the ground, or in the skies.
    To be clear, our problems are with Putin and his cronies. 
To date, the U.S. and our allies have been pretty tough on the 
Putin regime. Since 2014, we have imposed sanctions on dozens 
of Russian nationals and companies that have been involved in 
the illegal takeover of Crimea, the war in the east of Ukraine, 
the downing of Flight MH17, as well as human rights abuses in 
Russia.
    In 2018, after Russia used chemical weapons on the 
territory of a NATO ally, we closed two Russian consulates and 
helped coordinate a 20-country expulsion of undeclared Russian 
spies. The U.S. now rotates troops through Poland, and through 
the Enhanced Forward Presence, NATO has stationed troops in the 
Baltics. And America has provided lethal and nonlethal 
defensive weapons to help Ukraine defend itself from Russian-
backed separatists.
    Each of these sanctions is important to countering Russia's 
malign global influence. However, they do not form a cohesive 
U.S. strategy. To successfully deter future aggression, 
America, including Congress, must think strategically about 
Russia now and in the future.
    I encourage today's witnesses to discuss the 
administration's current strategy towards Russia and what it is 
intended to accomplish. But I must also urge caution to the 
administration and Congress about focusing our strategy on 
sanctions. Sanctions are not a strategy for dealing with 
Russia. They are simply a tool.
    While U.S. financial preeminence makes sanctions an easy 
and somewhat effective tool, I have serious concerns about the 
consequences of their overuse, particularly in the absence of a 
larger strategy. More sanctions do not necessarily make us 
tougher on Russia.
    And I am concerned about the rush to sanction in the 
absence of concrete policy goals. The Nord Stream 2 bill from 
Senators Cruz and Shaheen was a well-targeted sanctions bill 
with a clear policy goal in mind. But more general sanctions 
actions, when not connected to specific goals, can be 
counterproductive. And sanctions not done in coordination with 
our European allies, who are far closer to Russia in both 
distance and connectivity, is a dangerous action that can 
undermine our alliances.
    In some cases, when insufficiently vetted, sanctions have 
inadvertently helped advance Putin's goals of economic 
consolidation and reinvigoration of Russian industry. These 
cannot be the outcomes we want. I assume these are outcomes we 
actually oppose.
    So, with that, I will yield to Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Thanks for 
calling this very important hearing, which we have been seeking 
for some time. I appreciate you doing that.
    Secretaries Hale and Ford, thank you for joining us today 
to talk about the administration's policy with respect to the 
Russian Federation.
    Before we hear from our witnesses, I would like to outline 
five essential elements that I believe should comprise our 
policy on the Russian Federation.
    First, we must make very clear that so many examples of 
Kremlin aggression since invasion of Georgia in 2008 are simply 
unacceptable and cannot become the norm in international 
affairs. The invasion of Ukraine, the illegal occupation of 
Crimea, the attempted assassination of regime opponents with 
chemical weapons on foreign soil, committing war crimes in 
Syria, the attack on our 2016 election, these are just some.
    Russia is clearly not a country that belongs in the G7, 
despite whatever President Trump might believe. It is still 
mystifying that President Trump refuses to stand up to this 
behavior. To this day, he says that the Kremlin attack on our 
election was a hoax. Repeating lies from Kremlin propaganda, he 
says that it was Ukraine that actually interfered in the 
election.
    During the Cold War, those who unwittingly broadcast Soviet 
propaganda were called ``useful idiots.'' I do not know what 
you call those today in the administration or here in Congress 
who knowingly spout Kremlin lies. Whatever it is, it does a lot 
of damage.
    Second, we must implement a clear sanctions regime to 
change Kremlin behavior. Sanctions on Russia today have clearly 
not had the desired effect. Why? Because the administration has 
not been serious in their implementation.
    Several mandatory provisions of CAATSA to this day still go 
ignored. I will not go through the whole list, although I 
could, other than to point out the most egregious example. It 
has been 144 days since Turkey took delivery of the Russian S-
400 air defense system. Clearly, a significant transaction 
under CAATSA.
    And just last week, Turkey tested the system against an 
American-produced F-16. An American-produced F-16. Enough is 
enough. CAATSA sanctions must be imposed without further delay. 
Any new Russian sanctions legislation must make clear our 
ultimate policy goals, what kind of behavior we are trying to 
change and how sanctions can be lifted in the event that that 
behavioral change takes place.
    If we are going to increase pressure on Moscow, we must 
also be honest that it could have spillover effects. Under an 
enhanced sanctions regime, U.S. companies may no longer be able 
to benefit from the Russian economy. American investors may no 
longer benefit from the Russian sovereign debt market. The 
energy market may be impacted. The banking sector could be 
impacted.
    We, of course, should seek to minimize these effects. But 
our ultimate measure must always be how continued Kremlin 
aggression impacts our national security. At the end of the 
day, that is the ultimate measure that matters.
    Third, on arms control, the negative consequences for the 
United States of abandoning New START, when Russia is in 
compliance with the treaty and is seeking to extend it, would 
be grave in the short and long term. Without New START in 
place, Russia would be able to upload hundreds of nuclear 
weapons onto its current strategic nuclear platforms.
    This rapid expansion of Russia's strategic nuclear arsenal 
would place the United States at a strategic disadvantage, 
necessitating a fundamental reconsideration of our force 
posture. I look forward to hearing your views on this today.
    Fourth, we need to remember the plight of the Russian 
people, who continue to live under endemic corruption and 
relentless propaganda. The administration has strayed far from 
traditional American support for the democratic process, human 
rights, and universal values. These must be at the center of 
U.S. policy, especially with respect to Russia.
    And fifth, we need to support our friends in Europe, 
especially those on the front line of Russian aggression. 
European Deterrence Initiative funding should be increased. 
Recently, the administration decided to redirect EDI money to 
the President's border wall. So instead of Mexico paying for 
the wall as the President promised, our closest allies in 
Europe will bear the cost. What a deal.
    Finally, I want to close on a note about Paul Whelan, the 
American citizen who has been detained in Russia since last 
December. If the Russian authorities have evidence, they should 
charge Mr. Whelan. I, for one, am skeptical that such evidence 
exists. And if they do not, they should let him go.
    In closing, Mr. Chairman, I am under no illusion that 
President Trump shares my views on these five elements of 
Russia policy. He has abdicated responsibility for defending 
this country from the threats posed by the Russian Federation. 
He is simply either not interested or compromised.
    We, in Congress, need to step up to defend our security and 
our institutions. And next week, I look forward to working with 
you and others on the committee to vote on legislation towards 
that end.
    The Chairman. Thank you, Senator Menendez.
    We will now turn to our witnesses. First of all, we will 
hear from David Hale, who has been Ambassador to Pakistan, 
Lebanon, and Jordan, as well as special envoy for Middle East 
peace. In Washington, Mr. Hale was Deputy Assistant Secretary 
of State for Israel, Egypt, and the Levant, and Director for 
Israel-Palestinian Affairs. He held several staff posts, 
including Executive Assistant to Secretary of State Albright. A 
member of the Foreign Service since 1984, he holds the rank of 
career Ambassador and is a native of Senator Menendez's home 
State of New Jersey.
    So, Ambassador Hale, please. The floor is yours.
    Senator Menendez. Mr. Chairman, that is why he is such an 
exceptional public servant.

  STATEMENT OF HON. DAVID HALE, UNDER SECRETARY OF STATE FOR 
  POLITICAL AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Hale. Well, thank you very much for that, and 
good morning, Chairman Risch and Ranking Member Menendez and 
members of the committee.
    I welcome the opportunity to be here today with Assistant 
Secretary Ford to discuss U.S. policy toward Russia. Under 
President Trump, the United States has taken consistent action 
against Moscow's attempts to undermine American interests and 
those of our allies and partners around the world. The United 
States will continue to use all appropriate tools of national 
power, including diplomacy, to address and deter any further 
such threatening actions from Moscow and to advance and protect 
the interests of America and our allies and partners as they 
relate to Russia.
    As articulated in the President's National Security 
Strategy, America is in a period of great power competition. We 
must structure our policies accordingly. The administration's 
Russia policy takes a realistic approach. Russia is a 
determined and resourceful competitor of the United States, 
although one with significant systemic and economic weaknesses. 
Those weaknesses hinder its ambitions.
    We do not seek an adversarial relationship with Russia. We 
are open to cooperation with Moscow when it aligns with our and 
our allies' interests. However, this administration will 
protect our national security and that of our allies when 
Moscow attempts to threaten them.
    To be effective, American diplomacy toward Russia must be 
backed by military power that is second to none and fully 
integrated with our allies and all of our instruments of power. 
The administration has increased the defense budget to $716 
billion in Fiscal Year 2019 and prioritized nuclear 
infrastructure investments to maintain a robust nuclear 
deterrent.
    Russia's systemic weakness is reflected in President 
Putin's aggressive foreign policy, which is driven in part by 
insecurity and a fear of internal change. This oligarchic 
regime relies on repression to stifle public discontent, as 
illustrated by its harsh response to this summer's protests, 
the largest since 2011. The Russian people increasingly realize 
that the corrupt Putin regime is either incapable of addressing 
their problems or, in many cases, is the source of them.
    Russia seeks to dominate its immediate neighborhood. In 
Ukraine, Russia must end its belligerence and implement its 
Minsk agreement obligations. We are encouraged by the positive 
steps Ukrainian President Zelensky has taken to resolve the 
Russia-instigated conflict in Eastern Ukraine. Thus far, we are 
disappointed by Moscow's response.
    The threat from Russia is not just an external or military 
one. Moscow utilizes digital technologies to target us and our 
democratic allies from within. These actions include election 
meddling and complex well-resourced influence operations 
directed by the highest levels of the Russian government in the 
very heart of the Western world.
    We provide significant foreign assistance in Europe and 
Eurasia, almost all of which supports building resilience to 
and increasing pressure on Russian malign influence, in 
accordance with the Countering Russia Influence Fund. The 
Department has also increased its support for the Global 
Engagement Center through additional funding and staffing.
    We have degraded Putin's ability to conduct aggression by 
imposing costs on the Russian state and the oligarchy that 
sustains it. The administration has sanctioned 321 Russia-
related individuals and entities since January 2017. These 
sanctions and related actions serve as a warning to the Russian 
government that we will not tolerate any activity aimed at 
undermining or manipulating our 2020 election. I confronted 
Deputy Foreign Minister Ryabkov on Russian interference in our 
elections in July and have raised the matter with Russian 
Ambassador Antonov several times.
    We have likewise taken firm action against Russia's 
diplomatic presence in America. In response to Russia's 
imposition of a staffing cap on U.S. diplomatic personnel in 
Russia, we closed four Russian facilities. When Russia attacked 
U.K. citizen Sergei Skripal with a military-grade nerve agent, 
we closed Russian facilities in Seattle and expelled 48 Russian 
intelligence officials from the Russian embassy.
    Our diplomats counter Russian adventurism in other regions, 
including the Middle East, South America, and Africa, where 
Russia's actions exacerbate instability and undermine U.S. 
interests. In Syria, Russian military support to the Assad 
regime and its attacks against civilians have exacerbated the 
humanitarian crisis there. In Venezuela, we are pressing Russia 
to withdraw its diplomatic, military, and economic support for 
the former Maduro regime. In Africa, we have called out 
Russia's destabilizing policies, including support for 
mercenaries.
    Russia's serial disregard for its international security 
and arms control commitments represents another significant 
challenge for our policy, and therefore, the President has 
charged us to pursue a new era of arms control agreements.
    We know that Congress has a critical role to play in 
providing the tools and resources to implement our Russia 
strategy, and we are committed to working with you in this 
regard.
    Mr. Chairman, thank you again for inviting me today, and I 
look forward to the questions of the committee.
    [The prepared statement of Ambassador Hale follows:]

                    Prepared Statement of David Hale

    Good morning Chairman Risch, Ranking Member Menendez, and members 
of the committee. It is a pleasure to be here today with the Assistant 
Secretary of State for International Security and Nonproliferation to 
discuss the future of U.S. policy toward Russia.
    Under President Trump, the United States has taken consistent 
action against Moscow's attempts to undermine American interests and 
those of our allies and partners around the world. The United States 
will continue to use all appropriate tools of national power, including 
diplomacy, to address and deter any further such threatening actions 
from Moscow and to advance and protect the interests of America and our 
allies and partners, as they relate to Russia.
    As articulated in the President's National Security Strategy or 
NSS, America is in a period of great-power competition. We must 
structure our policies accordingly. The administration's Russia policy 
is part of the broader NSS and takes a realistic approach to Russia as 
a determined and resourceful competitor of the United States--although 
a competitor with significant systemic and economic weaknesses that 
hinder its ambitions to restore its great power status and re-impose 
its archaic notions regarding spheres of influence. To advance broader 
American interests, we fundamentally do not seek an adversarial 
relationship with Russia. We remain open to cooperation with Moscow 
when it aligns with our and our allies' interests. However, there 
should be no doubt that this administration will protect our national 
security, and that of our allies, when Moscow attempts to threaten us.
    Russia's systemic weakness is reflected in President Putin's 
aggressive foreign policy, which is driven, in part, by insecurity and 
a fear of internal change. This oligarchic regime increasingly relies 
on repression to stifle public discontent, as illustrated by its harsh 
response to this summer's protests in Moscow and other Russian cities, 
the largest since 2011. The Russian people increasingly realize that 
the corrupt Putin regime is either incapable of addressing their 
problems or, in many cases, is the source of them. Putin's approval 
ratings have dropped since early 2018. A November survey by the 
independent Levada Center showed that 53 percent of young Russians 
would like to ``vote with their feet,'' and emigrate from Russia, the 
highest percentage in the survey since 2009.
    The regime's latest steps to quash dissent contradict Russia's 
international commitments to protect the fundamental freedoms of its 
citizens, and include new laws tightening control of the internet and 
labelling individuals, not just organizations, as ``foreign agents.'' 
Russian security services launched a parallel clampdown on independent 
human rights NGOs and increased persecution of minority religious 
groups. Targets have included the Jehovah's Witnesses, eight of whom 
were sentenced to long prison terms for peacefully practicing their 
faith. These latest steps further extend Putin's systematic efforts to 
stifle civil society since he returned to the Russian presidency in 
2012.
    The pattern of Russian repression at home, aggression against its 
neighbors in Eastern and Central Europe, attacks on democratic 
institutions against our allies and here in the United States, and 
adventurism in the Middle East, Africa, and South America, all spring 
from this relative weakness and insecurity. At least for the short 
term, this dynamic will likely continue, with the regime miscasting 
America as the cause of Russia's domestic woes and using foreign 
adventures in an effort to distract Russians from reality.
    The administration's Russia policy is designed to confront Russian 
aggression globally by strengthening the diplomatic, military, 
economic, and political foundations of American power. Diplomacy is a 
tool of national security, and the day to day work of our diplomats in 
European and other capitals is critical to the success of every aspect 
of the administration's Russia policy. The Department of State's 
diplomatic efforts reflect this administration's commitment to bolster 
our alliances and partnerships to deter or reject Russian aggressive 
actions. The Department also supports bilateral engagement with Russia 
when it is in our interest to do so, including to stabilize our 
relationship so that the United States can address key American 
national security priorities. We maintain channels of communications 
with Russia on Syria, Afghanistan, Ukraine, North Korea, arms control, 
counterterrorism, and other bilateral matters.
    The National Security Strategy recognizes that, to be effective, 
American diplomacy toward Russia must be backed by ``military power 
that is second to none and fully integrated with our allies and all of 
our instruments of power.'' To this end, the administration has:

   Increased the defense budget to $716 billion in FY19;

   Prioritized infrastructure investments in the U.S. nuclear arsenal 
        to maintain a robust nuclear deterrent;

   Increased funding for the European Deterrence Initiative (EDI) by 
        close to $15 billion from FY17-19, with an additional $5.9 
        billion requested for EDI in FY2020; and

   Worked with NATO allies to enact the largest defense spending 
        increase since the Cold War. By the end of 2020, our NATO 
        allies will have increased defense expenditures by an 
        additional $100 billion.

    In its immediate neighborhood, Russia seeks to dominate, as 
demonstrated by its ongoing aggression against Ukraine and Georgia. In 
Ukraine, Russia must end its belligerence and implement its Minsk 
agreement obligations. We are encouraged by the positive steps 
Ukrainian President Zelensky has taken to resolve the Russia-instigated 
conflict in eastern Ukraine; thus far, we are disappointed by Moscow's 
response. The December 9 Normandy format summit provides an opportunity 
to test Russia's willingness to reverse its harmful behavior. We 
condemn Russia's continued militarization of Crimea and in July 2018, 
the Secretary of State issued a Crimea declaration stating that the 
United States will never recognize Russia's attempted annexation of the 
peninsula. The construction of the Nord Stream 2 pipeline and Moscow's 
unhelpful approach to trilateral gas negotiations with the EU and 
Ukraine give Russia a new instrument for its strategy of using energy 
as a political weapon.
    To increase the resiliency of our Ukrainian and Georgian partners, 
we have obligated over $1.6 billion in state and DoD military 
assistance to Ukraine. This assistance is enhancing Ukrainian defense 
capabilities including to monitor and secure its borders, deploy its 
forces more safely and effectively, and improve interoperability with 
NATO forces. Our assistance has saved lives while helping to build 
Ukraine's long-term defense capacity. We have likewise provided Georgia 
over $170 million in Foreign Military Financing since 2014, including 
$94.5 million in FY2018-2019, to improve its resilience to Russian 
aggression, enhance its territorial defense, and support its military 
transformation efforts and interoperability with NATO.
    NATO is establishing two new NATO Commands, one in the United 
States focused on securing critical transatlantic sea lines of 
communication, and one in Germany to enhance logistics support. These 
NATO Commands will create support teams to help our allies confront new 
and evolving threats such as cyber-attacks. They also will launch 
major, multi-year initiatives to bolster the Alliance's mobility, 
readiness, and decision-making capabilities. The Alliance is also 
strengthened by the inclusion of additional members. In June 2017, 
Montenegro joined NATO. Thanks to the work of this Committee and the 
whole Senate, North Macedonia is on track to become NATO's newest 
member once the remaining NATO member state consents to the treaty, as 
the Senate did in October.
    The threat from Russia is not just an external or military one. 
Moscow utilizes digital technologies to target us and our democratic 
allies from within. These actions include election meddling and 
complex, well-resourced influence operations--directed by the highest 
levels of the Russian government--in the very heart of the western 
world. Russia does not discriminate along political ideology or party 
lines. It aims to undermine democratic institutions--including in 
places like Chile--by exacerbating the divisions inherent in a 
democratic, pluralistic society. Understanding this threat is essential 
for developing a long-term response.
    The Department of State is working closely with interagency 
counterparts and our allies to counter Russian influence operations, 
both domestically and abroad. We have provided significant foreign 
assistance in Europe and Eurasia to build resilience to and increase 
pressure on Russian malign influence in accordance with the goals of 
the Countering Russian Influence Fund established by Congress. The 
Department has also increased its support for the Global Engagement 
Center (GEC) through additional funding and staffing; the FY2020 State 
Department Budget requested $76.5 million for the GEC, a $23 million 
increase over the FY2019 request.
    We support the U.S. Agency for International Development (USAID) in 
its efforts to advance the development of USAID's partner nations in 
Europe and Eurasia through the Countering Malign Kremlin Influence 
Development Framework (CMKI). The CMKI Development Framework responds 
to the challenge of malign Kremlin influence by strengthening the 
economic and democratic self-reliance of these countries. The Framework 
focuses on key sectors for development in Europe and Eurasia, including 
democracy and the rule of law, the news and information space, and the 
economic and energy sectors. While the Kremlin seeks to weaken and 
strong-arm its neighbors, the administration via USAID seeks to enable 
governments, civil society, and the private sector to make their own 
choices and build self-reliance by strengthening institutions and 
creating new economic opportunities.
    These tools are making a difference. This summer, the Department 
executed a successful campaign to counter Russian disinformation that 
sought to undermine the ``Baltic Way'' and the commemoration of the 
thirtieth anniversary of the human chain created by two million 
Latvians, Lithuanians, and Estonians to stand up for freedom from the 
Soviet Union. The GEC, working with allies across Europe, coordinated a 
series of live events, social media campaigns, and news broadcasts 
across these countries. The campaign, which spread throughout social 
media, was an exercise in shared messaging to strengthen transatlantic 
ties and counter disinformation. Showcasing the success of the three 
Baltic countries since the 1989 revolutions and the fall of the Berlin 
Wall directly counters false Russian disinformation narratives about 
the Baltics as ``failed states.''
    As another element of this integrated response, we have degraded 
Putin's ability to conduct aggression by imposing costs on the Russian 
state and the oligarchy that sustains it. The administration has 
sanctioned 321 Russia-related individuals and entities since January 
2017. For example, on September 30, the United States increased our 
sanctions on Russian oligarch Yevgeniy Prigozhin by targeting his 
assets, and other actors associated with the Internet Research Agency 
for their efforts to influence the 2018 midterm elections. These 
sanctions, and other corresponding actions, serve as a warning to the 
Russian government ahead of the 2020 elections that we will not 
tolerate any activity by Moscow or its proxies aimed at undermining or 
manipulating our democratic processes. I confronted Deputy Foreign 
Minister Ryabkov on Russian interference in our elections during our 
July meeting in Helsinki, and have raised the matter with Russia 
Ambassador Antonov several times.
    We have likewise taken firm action against Russia's intelligence 
presence in America in response to Russia's bad behavior, including its 
actions to undermine our diplomatic presence in Russia. In response to 
Russia's imposition of a staffing cap on U.S. diplomatic personnel in 
Russia, we closed the Russian Consulate General and consul general's 
residence in San Francisco; an embassy annex in Washington, DC; and a 
consular annex in New York. When Russia brazenly attacked U.K. citizen 
Sergey Skripal in March 2018 with a military-grade nerve agent, we 
closed the Russian Consulate General and consul general's residence in 
Seattle, eliminating Russia's diplomatic presence on the west coast of 
the United States, and expelled 48 Russian intelligence officials from 
the Russian Embassy in Washington. We also expelled 12 intelligence 
officers from the Russian Mission to the United Nations. These combined 
actions in March 2018 constituted the largest expulsion of Russian 
officials since the Cold War.
    I mentioned earlier the valuable role American diplomats play in 
advancing the administration's Russia policy--our personnel in Moscow, 
Yekaterinburg, and Vladivostok are the forefront of this effort. Even 
as Russia has cut the size of our diplomatic staffing in Russia, the 
critical work requirements of our diplomatic mission to Russia have not 
changed. Our diplomats in Russia represent the very best the Department 
has to offer. They have taken on far more responsibilities and kept 
pace on one of the administration's top foreign policy priorities, even 
as the environment in which they operate has steadily become worse. We 
all should give credit to their service.
    Elsewhere, our diplomats are seized with countering Russian 
adventurism in other regions--including the Middle East, South America, 
and Africa--where Russia's actions exacerbate instability and undermine 
U.S. interests. In Syria, Russian military support to the Asad regime 
and its attacks against civilians and civilian infrastructure are 
destabilizing and have exacerbated the humanitarian crisis in that 
country. We continue to stress to Moscow that the only way to resolve 
the conflict is through the U.N. facilitated political process in line 
with UNSC Resolution 2254. In Venezuela, we are pressing Russia to 
withdraw its diplomatic protection and military and economic support, 
through Rosneft, for the former Maduro regime, which has created a 
humanitarian disaster that radiates into neighboring countries.In 
Africa, we have called out Russia's destabilizing policies, including 
support for mercenaries like the U.S.-sanctioned Wagner Group--an 
outfit also active in Libya, Ukraine, and Syria. Furthermore, the 
Wagner Group and similar actors have advanced disinformation campaigns 
and election meddling schemes, weakening already fragile states 
throughout the continent.
    As the Assistant Secretary of International Security and 
Nonproliferation will describe in more detail, Russia's serial 
disregard for its international security and arms control commitments 
represents another significant challenge for our policy. To address 
this challenge, the President has charged us to pursue a new era of 
arms-control agreements. We have not ruled out an extension of New 
START, but our priority is to promote arms control that goes beyond the 
confines of a narrow, bilateral approach by incorporating other 
countries--including China--and a broader range of weapons--including 
non-strategic nuclear weapons.
    We fully appreciate that Congress has a critical role to play in 
providing the tools and resources needed to address and implement all 
aspects of our Russia strategy. We are committed to working with all of 
you to counter the threats and challenges posed by Russia.
    Mr. Chairman, thank you again for inviting me today to discuss our 
policy towards Russia. I look forward to your questions.

    The Chairman. Thank you, Ambassador Hale.
    We now have Dr. Christopher Ford. He is Assistant Secretary 
for International Security and Nonproliferation. He has also 
been delegated the authorities and functions of the office of 
the Under Secretary for Arms Control and International 
Security. Dr. Ford previously served as Senior Director for 
Weapons of Mass Destruction and Counter-proliferation at the 
National Security Council.
    Dr. Ford began his public service in 1996 as assistant 
counsel to the Intelligence Oversight Board and then served on 
several congressional staffs. He has served as Principal Deputy 
Assistant Secretary in the State Department's Bureau of 
Verification and Compliance and as U.S. Special Representative 
for Nuclear Nonproliferation.
    From 2008 to 2013, he was a senior fellow at the Hudson 
Institute. A native of Cincinnati, he is the author of three 
books and holds both a doctorate and a law degree.
    Dr. Ford, welcome. The floor is yours.

       STATEMENT OF HON. CHRISTOPHER A. FORD, ASSISTANT 
SECRETARY FOR INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Dr. Ford. Thank you, Chairman Risch, Ranking Member 
Menendez, and members of the committee for having us here.
    In his remarks, Under Secretary Hale has summarized the 
broad sweep of our strategy to approach the challenges that 
Russia presents us with today. In my own testimony, I would 
like to address these questions from the perspective where I 
am, exercising delegated authorities of the Under Secretary, as 
you mentioned.
    I will abbreviate my remarks for oral delivery, and I would 
respectfully request that the full version be entered into the 
record.
    The Chairman. They will be entered.
    Dr. Ford. Thank you, sir.
    From the perspective of arms control and the ongoing 
challenges of managing our relationship and in a strategic 
sense with Moscow, Mr. Chairman, I think it is important to 
remember that we come to all of these tasks out of a long 
background not just of tensions and problems, but also of some 
notable successes over time. The changes in the strategic 
environment that were occasioned by the waning and then the end 
of the Cold War made possible an enormous lessening of nuclear 
tensions and in a strategic arms reduction that has seen both 
countries' nuclear arsenals come down to small fractions of 
what they once were.
    I mention this because I think it is important to remember 
this background. It reminds us that it is possible to make 
progress in reducing nuclear tensions and the intensity of our 
strategic standoff with Moscow when the circumstances of the 
security environment are conducive to such movement. We hope to 
get back to such an environment, Mr. Chairman, and our policies 
are designed to help make this possible, as well as to protect 
the security of the American people and that of our allies 
until that point.
    For now, however, of course the security environment is, 
indeed, very challenging. Russia is presently developing an 
extraordinary new bestiary of nuclear delivery systems for 
which there are no U.S. counterparts and most of which seem 
likely to fall outside existing arms control frameworks. Russia 
also has a large arsenal of nonstrategic nuclear weapons, up to 
2,000 of them, a vastly larger stockpile than we have, and it 
is projected to expand this number of weapons considerably over 
the next decade.
    Most observers, Mr. Chairman, will, of course, be familiar 
with the Russian 9M729 ground-launched cruise missile, which we 
call the SSC-8. Production and deployment of that system placed 
Russia in material breach of the INF Treaty, and Russian 
unwillingness to change course in that regard forced us into 
the unhappy position of having to withdraw from the treaty in 
the wake of those Russian violations.
    But that SSC-8 is only one of a broad range of new Russian 
ground-, sea-, and air-based nuclear or dual-capable delivery 
systems. These systems have more accuracy, longer ranges, and 
lower yields than before, and they are coming online in support 
of a Russian nuclear doctrine and strategy that emphasizes, and 
periodically demonstrates in exercises, both coercive and 
military uses of nuclear weaponry.
    We assess that Russia does still remain in compliance with 
its New START obligations, but its behavior in connection with 
most other arms control agreements and not merely the ill-fated 
INF has been nothing short of appalling. As indicated in Under 
Secretary Hale's statement, Russia remains in chronic 
noncompliance with its conventional arms control obligations, 
and it is only selectively fulfilling others.
    There is also the problem, of course, of chemical weapons, 
where Russia condones and seeks to ensure impunity for 
continued violations of the Chemical Weapons Convention by its 
Syrian client state. Further alarming is that Russia has itself 
used chemical weapons in violation of the Chemical Weapons 
Convention by developing and using a so-called ``novichok'' 
military-grade nerve agent on the territory, as Chairman Risch 
indicated, of a NATO ally, United Kingdom, in 2018.
    Moscow is also up to no good in new and emerging domains of 
actual or potential future conflict, such as cyberspace and 
outer space. It has been developing capabilities in all these 
respects, and even as it has been trying to promote hollow and 
disingenuous arms control proposals that would not address the 
challenges that Russia itself is working very hard to create. 
So this track record is a miserable one.
    I would refer you to my written statement for some of the 
details of how our responses are being directed, but I would 
stress that we are working to address these challenges on 
multiple fronts. They are robust, and they are extensive.
    These efforts in the Department of State are being 
approached increasingly systematically as we coordinate them 
into an integrated strategy for pushing back against Russian 
mischief. The U.S. National Security Strategy makes very clear 
that it is our duty to take great power competition seriously, 
and we are doing so.
    It is this kind of resolution and focus, Mr. Chairman, in 
the face of national security threats that I think we very much 
need and that can be our ticket to getting through this phase 
of geopolitical competition. We need to stay on course, 
maintaining our solid deterrence strategy, completing our own 
nuclear and military modernization, continuing to reassure our 
allies not just of our capacity, but of our enduring 
willingness to side with them against intimidation and 
aggression and keeping of all these initiatives on track while 
still seeking good faith negotiation to advance shared 
interests where it is possible.
    If we can do that, I think we can stabilize the situation 
and, indeed, turn things around, and that is what our policy is 
devoted to.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Ford follows:]

               Prepared Statement of Christopher A. Ford

 countering russian intimidation and aggression and building a better 
                          security environment
    Chairman Risch, Ranking Member Menendez, and members of the 
Committee, thank you for inviting me.
    I am pleased to join Under Secretary of State for Political Affairs 
in briefing you on the various ways in which we are working at the 
Department, under the Secretary of State's leadership, to meet the 
challenges of competitive strategy that have been forced upon us by 
Russia's continuing efforts to be--as the Under Secretary has 
described--a determined and resourceful strategic rival of the United 
States.
    In his remarks, the Under Secretary has summarized the broad sweep 
of our strategy to approach these challenges. In my own testimony, I 
will address these questions from the perspective of my current duties 
exercising delegated authorities of the Under Secretary of State for 
Arms Control and International Security across the so-called ``T'' 
family of bureaus at the Department. I will abbreviate my comments for 
oral delivery today, but I respectfully request that my full prepared 
remarks be entered into the record.
                        i. a background of hope
    From the perspective of arms control and the ongoing challenges of 
managing our strategic relationship with Moscow, Mr. Chairman, it is 
worth remembering that we come to these tasks out of a long background 
not just of tensions and problems but also of some notable successes. 
The changes in the strategic environment that were occasioned by the 
waning and then end of the Cold War made possible an enormous lessening 
in nuclear tensions and in strategic arms reductions that have seen 
both countries' nuclear arsenals come down to small fractions of what 
they once were--in the U.S. case, a reduction of an extraordinary 88 
percent or so.
    It's important to remember this background, because it reminds one 
that it is possible to make progress in reducing nuclear tensions and 
the intensity of our strategic standoff with Moscow when the 
circumstances of the security environment are conducive to such 
movement. We hope to get back to that kind of environment, of course, 
and to contribute to this--as I will mention in a moment--we seek a new 
arms control relationship with Moscow to forestall the destabilizing 
global arms race that Russia's policies and posture today threaten to 
create.
                   ii. an array of russian challenges
    For now, however, the security environment is indeed challenging, 
thanks in large part to Russia's destabilizing actions. Even leaving 
aside the broader aggression and revisionism in Russian behavior under 
the Putin regime, the diversification and expansion of Russia's nuclear 
arsenal--and the increasing salience of such weapons in its strategy 
and doctrine--are troubling and destabilizing.
    Russia is presently developing an extraordinary new bestiary of 
nuclear delivery systems for which there are no U.S. counterparts. 
These include not merely the new Sarmat intercontinental ballistic 
missile (ICBM), but also hypersonic delivery vehicles, a nuclear-
powered underwater drone, and the madly reckless ``flying Chernobyl'' 
of the Burevestnik nuclear-powered cruise missile--a flying, nuclear 
reactor which recently experienced a flash meltdown that killed several 
Russian technicians and released radioactive contamination while the 
Russians were trying to recover it after having left it sitting on the 
bottom of the White Sea for a year, a mere 30 kilometers from the city 
of Severodvinsk.
    Russia also has a large arsenal of non-strategic nuclear weapons: 
up to 2,000 of them, a vastly larger stockpile than we have. This 
Russian arsenal was already a source of concern in Washington when the 
New START agreement was before the Senate in 2010--so much so that the 
Senate at the time made clear that addressing Russia's non-strategic 
nuclear weapons needed to be a high priority for any future arms 
control agreement--but the problem is getting worse. Russia is 
projected to expand its number of non-strategic weapons considerably 
over the next decade.
    Mr. Chairman, most observers will be familiar with the Russian 
9M729 ground-launched cruise missile (GLCM), which we call the SSC-8. 
Production and deployment of that system placed Russia in material 
breach of the Intermediate-Range Nuclear Forces (INF) Treaty. Russian 
unwillingness to return to full compliance led the United States to 
suspend, and eventually withdraw, from the INF Treaty. Yet the SSC-8 is 
only one of a broad range of new Russian ground-, sea-, and air-based 
nuclear or dual-capable delivery systems. These systems have more 
accuracy, longer ranges, and lower nuclear yields than before, and they 
are coming on line in support of a Russian nuclear doctrine and 
strategy that emphasizes--and periodically demonstrates, in large-scale 
exercises--both coercive and military uses of nuclear weaponry.
    We assess that Russia does still remain in compliance with its New 
START obligations, but its behavior in connection with most other arms 
control agreements--and not merely the ill-fated INF Treaty--has been 
nothing short of appalling. As indicated in the Under Secretary's 
statement, Russia remains in chronic noncompliance with its 
conventional arms control obligations in the Conventional Armed Forces 
in Europe (CFE) Treaty, and it is only selectively fulfilling its 
commitments under the Vienna Document.
    And then there is the problem of chemical weapons, where Russia 
condones and seeks to ensure impunity for continued violations of the 
Chemical Weapons Convention (CWC) by its Syrian client state. Further 
alarming is that Russia has violated the CWC itself--most dramatically, 
by developing and using a ``novichok'' nerve agent on the territory of 
a NATO ally, the United Kingdom, in 2018. This violation underscores 
that Russia failed to completely declare and destroy its complete 
chemical weapons program in contravention of the CWC. As the Under 
Secretary noted, Russia also implements the Open Skies Treaty only 
selectively; this causes concern because such selectivity risks 
undermining the Treaty's confidence-building benefits, which are rooted 
in the demonstrable openness of being willing to allow overflights 
anywhere (and not merely over what one does not care to conceal). 
Furthermore, Russia's decision to leave the International Partnership 
for Nuclear Disarmament Verification (IPNDV), ultimately taking China 
with it, was also a blow to international efforts to make continued 
progress on disarmament.
    Moscow is also up to no good in new and emerging domains of actual 
or potential future conflict. In cyberspace, even while using malicious 
cyber behavior to meddle with democratic processes and intimidate 
leaderships abroad, Russia is working with China to co-opt and subvert 
discourse on international stability between states in cyberspace by 
turning it into a tool to help authoritarian governments exert so-
called ``sovereign'' control over the information their populations are 
permitted to see and express.
    Russia has also been developing capabilities that have turned space 
into a warfighting domain. It openly brags of having a ground-based 
laser system designed to ``fight satellites in orbit,'' for instance, 
and it is developing a ground-launched anti-satellite (ASAT) missile 
and conducting sophisticated on-orbit activities in support of its 
counterspace capabilities. And it has been doing this while advocating 
hollow and hypocritical arms control proposals for the ``prevention of 
placement of weapons in outer space.''
    Mr. Chairman, this is obviously a miserable record. And that is 
even before taking into account persistent questions that remain about 
Russia's compliance with the Biological and Toxin Weapons Convention 
(BTWC) in light of the fact that Russia shows no sign of ever having 
rid itself of the secret and illegal biological weapons program that 
President Yeltsin actually admitted Russia possessed--and which 
President Putin has gone back to denying.
    Nor have I yet mentioned Russia's troubling diplomatic campaigns to 
undermine institutions of transparency and accountability in 
controlling weapons of mass destruction at the Organization for the 
Prohibition of Chemical Weapons (OPCW), the International Atomic Energy 
Agency (IAEA), and the United Nations. All of this would add up to a 
very grim picture even if Russia were not continuing its aggression and 
territorial seizures against Ukraine and Georgia, undertaking 
expeditionary warfare on behalf of the murderous regime in Damascus, 
and working to subvert democratic processes in the United States, 
Europe, and elsewhere.
                    iii. a robust american response
    As the Under Secretary outlined, however, we are certainly not 
taking all of this sitting down. From the perspective of the State 
Department's ``T'' bureaus alone, we are working to address these 
challenges on multiple fronts.
    Since 2014, in response to Russian aggression in Ukraine and 
Georgia, the United States has dramatically increased security 
assistance across the region, which signifies our steadfast commitment 
to collective defense under the North Atlantic Treaty and our continued 
support to European Allies and partners to counter Russian aggression 
and malign influence.
    For example, as the Under Secretary highlighted, State and DoD have 
provided over $1.6 billion in security assistance to Ukraine alone, in 
addition to significant assistance to key allies who are menaced by 
Russia's aggressive behavior. State, in particular, is using Foreign 
Military Financing (FMF)--through such programs as the Countering 
Russian Influence Fund (CRIF), the Black Sea Maritime Domain Awareness 
Program, and the European Recapitalization Incentive Program (ERIP)--to 
build defensive military capabilities, enhance territorial national 
defense to include border and maritime security, increase cyber 
security defenses, improve NATO-interoperability, and reduce partners' 
dependency on Russian-legacy equipment.
    As the diplomatic interface between the U.S. defense sector and 
such recipients, the Political-Military Affairs (PM) Bureau has been 
instrumental in helping preserve the security and political autonomy of 
multiple U.S. allies, partners, and friends, and ensures State and 
Department of Defense funding and programs are closely coordinated to 
further our diplomatic and military objectives. Further from 2015-2018, 
the State Department authorized a total of $1.75 billion in nationally-
funded Foreign Military Sales and $603 million in Direct Commercial 
Sales to Eastern Europe.
    Nor is that all. The Bureau of International Security and 
Nonproliferation (ISN) continues to provide several million dollars in 
capacity-building programming to support Ukraine, helping its export 
control system prevent smuggling of nuclear materials originating in 
Russia and helping its Maritime Border Guards rebuild themselves in 
order to be able to police the new maritime border they face as a 
result of Russia's invasion and attempted occupation of Crimea.
    ISN has also been very active all around the world for the last 2 
years in diplomatic outreach leveraging the threat of sanctions under 
Section 231 of the Countering America's Adversaries Through Sanctions 
Act of 2017 (CAATSA). CAATSA is a potent tool that Congress has given 
us, and we have been using it to cut back the revenue streams the 
Kremlin derives from overseas arms sales and to undermine the malign 
strategic relationships and geopolitical dependencies that Moscow 
builds through its arms trade. Even though we have only invoked Section 
231 sanctions once--against China last year for taking delivery of 
Sukhoi fighter aircraft and S-400 missiles from Russia--we have so far 
managed to shut down billions in Russian arms sales that would likely 
otherwise have taken place. In conjunction with our PM colleagues, who 
seek to help U.S. friends and partners find alternatives to Russian 
equipment, we will be vigorously continuing this CAATSA diplomacy in 
2020.
    We have also been imposing costs on Russia for some of its more 
egregious behavior--specifically, through sanctions on Russia under the 
Chemical and Biological Warfare (CBW) Act of 1991 in response to 
Russia's novichok attack in Britain. And we have continued to impose 
sanctions against Russian entities that supply weapons to programs of 
concern under the Iran, North Korea, and Syria Nonproliferation Act 
(INKSNA), as we announced most recently in May 2019.
    Meanwhile, the State Department's Office of the Coordinator for 
Cyber Issues (S/CCI) has been working to blunt Russian efforts to 
weaponize discourse on state behavior in cyberspace. As our answer to 
such disingenuous and dangerous Russian (and Chinese) efforts, we are 
working with likeminded foreign partners to promote norms and standards 
of responsible behavior that we hope will become ``best practices'' for 
all nations in cyberspace, and to build international cooperation to 
hold states such as Russia accountable when they transgress those 
norms.
    For its part, the Arms Control, Verification, and Compliance (AVC) 
Bureau continues efforts to bring Russia back into compliance with its 
arms control agreements and norms, and works to draw attention to 
Russia's destabilizing pursuit of exotic nuclear weapons and new 
domains of warfare. One example of this is the ongoing engagements with 
foreign counterparts to advance effective and non-legally binding 
transparency and confidence building measures and guidelines that 
promote responsible behavior in outer space.
    I would like to stress, Mr. Chairman, that these State Department 
efforts are being approached increasingly systematically, as we 
coordinate them into an integrated strategy for pushing back against 
Russian mischief. The U.S. National Security Strategy makes clear that 
it is our duty to take great power competition seriously after many 
years of post-Cold War neglect, and we are doing so. At the ISN Bureau, 
for instance, we have been working to posture ourselves better in this 
regard, including by leveraging nonproliferation-derived tools and 
skills--such as in using export controls, sanctions, and interdiction 
to keep dangerous technologies out of dangerous hands--into the 
competitive strategy arena. Indeed, we are working to replicate this 
intensity of focus across the whole ``T''-family space in support of 
broader State Department and U.S. Government efforts.
    In that respect, Mr. Chairman, though they are not State Department 
lines of effort in themselves, I would be remiss if I did not at least 
mention some of the ways in which other parts of the Government are 
responding to the Russian challenge as well. This administration is 
firmly committed to keeping the United States' own nuclear 
modernization on track--including through replacing legacy delivery 
systems in order to prevent block obsolescence of our nuclear 
``Triad,'' developing a new sea-launched cruise missile to replace the 
one scrapped by the Obama administration, developing a lower-yield 
ballistic missile warhead to help us meet the threat of Russia's 
extensive and growing array of analogous devices, deploying the 
modernized version of our B61 nuclear gravity bomb and ensuring that 
our allies maintain dual-capable aircraft in order to keep NATO nuclear 
deterrence relevant in the years ahead, and building the kind of 
responsive nuclear production infrastructure we need to support defense 
and deterrence on an ongoing basis.
    Similarly, in the wake of the INF treaty's demise as a result of 
Russian violations, the United States is now growing the seeds planted 
by the administration's INF Response Strategy in 2017. As you will 
recall, Mr. Chairman, that strategy started the process of exploring, 
in a treaty-compliant manner, potential U.S. development of INF-class 
delivery systems as a way to give Moscow a concrete incentive to change 
course and abandon its illegal SSC-8 program. As it turned out, of 
course, Moscow refused to come back into compliance, thus killing the 
INF Treaty. Nevertheless, we are increasingly well prepared to meet 
U.S. defense needs in the post-INF era. At present, the Department of 
Defense has begun research, development, and testing of conventionally-
armed ground-launched INF-range systems to provide us and potentially 
our allies with more options when confronted with the dangerous 
proliferation of dual-use Russian (and Chinese) missiles worldwide.
           iv. building a new, improved security environment
    It is this kind of resolution and focus in the face of national 
security threats, Mr. Chairman, that can be our ticket to getting 
through this troubling phase of geopolitical competition. If we can 
stay on course--maintaining our solid deterrence strategy, completing 
our own nuclear and military modernization, continuing to reassure our 
allies not just of our capacity but of our enduring willingness to 
stand with them against intimidation and aggression, and keeping all 
these various responsive initiatives on track, while seeking good faith 
negotiation to advance shared interests wherever possible--I believe we 
can stabilize the situation.
    Here is where it is again important to recall our Cold War history. 
Even during some of the most dangerous days of that perilous rivalry, 
it was usually possible to communicate and even negotiate with the 
USSR. It was still possible to find, and to pursue, shared interests--
not only in preserving strategic security and using arms control and 
confidence-building diplomacy to help keep that bilateral arms race 
from precipitating into chaos, but also in signal accomplishments such 
as negotiating the Nuclear Nonproliferation Treaty together.
    Such engagement, Mr. Chairman, we can yet do. There remain signs of 
life for constructive dialogue with Moscow, upon which I believe we can 
build. Russia works with us constructively, for instance, in co-
chairing the Global Initiative to Combat Nuclear Terrorism (GICNT), and 
Russian diplomats have been willing to participate in the pathbreaking 
new initiative on Creating an Environment for Nuclear Disarmament 
(CEND). This administration has already had two engagements with Russia 
in our Strategic Security Dialogue--the first in Helsinki in 2017, in 
which I had the honor of participating when serving on the National 
Security Council Staff, and the second last summer with the Deputy 
Secretary and the Under Secretary for Arms Control and International 
Security--and we hope to re-engage on this soon, as we build out our 
vision of a future for arms control.
    We made clear in the 2018 Nuclear Posture Review that we seek arms 
control where it contributes to the security of the United States and 
our allies, and when it is verifiable and other parties comply with 
their obligations. In fact, the President has made his personal 
commitment to effective arms control very clear--and, in particular, to 
limiting the dangerous Russian and Chinese nuclear ambitions. He has 
publicly called for us to engage both Moscow and Beijing in a new 
project of trilateral arms control to help effectively manage strategic 
competition and build towards a better, safer, and more prosperous 
future together.
    As the Secretary of State has made clear, we have convened teams of 
experts to explore the way forward, including the question of possibly 
extending New START, which would otherwise expire in early 2021 but 
could be extended for up to 5 years by agreement with Russia. We are 
hard at work on these issues, and hope to have more to say about this 
soon. Let me say, Mr. Chairman, that I am personally excited about the 
prospect of building out our new arms control initiative. I look 
forward to keeping this Committee informed of these developments, and 
to working with you and your colleagues closely.
                             v. conclusion
    Clearly, Mr. Chairman, we face formidable challenges in the current 
security environment--many of them specifically the result of Russian 
behavior. I would submit, however, that there are also grounds for 
hope. Even as we work resolutely to counter Russian intimidation and 
aggression everywhere it raises its head, I can assure you that we at 
the State Department are keenly focused upon turning such hope into 
reality, while continuing to protect the national security interests of 
the American people.

    The Chairman. Thank you. I am going to ask a question to 
start with. Then we will do a 5-minute round.
    Mr. Ford, for you, give me your thoughts, if you would. As 
you know, I was one of the strong opponents of New START. New 
START now has been in place as long as it has, and obviously, 
we cannot talk about--in this setting, we cannot talk about 
absolute compliance by the Russians. But from a general 
standpoint, I think we can say that they are substantially more 
in compliance with the New START, with their major weapons, 
than they ever were with the more intermediate weapons that 
were covered by the INF.
    Why the disparity there? Why were they so far out of whack 
on INF and ignored us as far as the pressing we did to get them 
to comply? Why the difference between the two treaties and the 
two agreements and the difference in the weaponry systems?
    Dr. Ford. Well, Mr. Chairman, I would hesitate to try to 
get into Mr. Putin's head in this respect. But they clearly 
made a decision that they felt they wanted to have the 
capabilities that the INF Treaty did not allow them to have. 
They seem to have assumed that we would remain compliant with 
the treaty, even if we found out----
    The Chairman. And they were right in that regard?
    Dr. Ford. They were absolutely correct, sir. We were 
scrupulously compliant for the entirety of our period in the 
treaty. That certainly--that is something we are now working to 
try to address the challenge of meeting those Russian threats 
with the development of new conventionally armed intermediate 
range systems, such as the ground-launched cruise missile that 
was successfully flight tested last August.
    But, yes, they assumed we would remain in compliance and 
that they--and indeed, they were correct for a while that they 
would be able to get away with not just testing, but developing 
and deploying a treaty-prohibited system in the hope that we 
would not respond to it. Why they did not do something like 
that with New START is something that I would not be in a 
position to hazard a guess about, but they do not seem to have 
decided they needed to.
    But I would point out, Mr. Chairman, that Russia is 
developing today and, indeed, openly brags about the 
development of new strategic delivery systems, most of which it 
is very difficult to imagine would ever be brought within the 
New START arms control framework. We have seen President Putin 
brag about his development of a new super heavy ICBM, about 
development of a nuclear-powered and nuclear-armed underwater 
drone.
    We are now all familiar with the sort of ``flying 
Chernobyl'' disaster of their nuclear-powered cruise missile 
that had such a catastrophic--or criticality incident, I should 
say, up in the White Sea area just last August. They are 
developing a whole range of systems, including an air-launched 
ballistic missile. Most of these are not likely to fall within 
New START, and these are things on which the Russians are 
already working very hard today.
    So, and that is leaving aside the issue of their 
development of nonstrategic weapons. As I indicated, they 
already have a large arsenal, and it is projected to grow 
dramatically over the next decade or so as well. So these are 
things Russia is already deciding to do and moving out upon 
outside of the framework of current arms control, and that is 
something that we need to make sure that our policy is in a 
position to address.
    The Chairman. Thank you, Dr. Ford.
    Senator Menendez.
    Senator Menendez. Thank you.
    Secretary Hale, did Russia interfere in the 2016 election 
in favor of Donald Trump? Could you put your microphone on, 
please?
    Ambassador Hale. Yes, the intelligence community assessed 
that Russian President Vladimir Putin ordered an influence 
campaign in 2016 aimed at our presidential election.
    Senator Menendez. Was the Kremlin's interference in our 
2016 election a hoax?
    Ambassador Hale. No.
    Senator Menendez. Are you aware of any evidence that 
Ukraine interfered in the 2016 U.S. election?
    Ambassador Hale. I am not.
    Senator Menendez. You know, I appreciate Dr. Fiona Hill's 
testimony before the House, the former National Security 
Council Director for Europe and Russia, who said that that 
theory is a fictional narrative that is being perpetrated and 
propagated by the Russian security services themselves. Do you 
have any reason to disagree with Dr. Hill?
    Ambassador Hale. I do not.
    Senator Menendez. In February of 2017, at a press 
conference with Hungarian Prime Minister Viktor Orban, 
President Putin himself suggested that Ukraine interfered in 
the 2016 U.S. election, did he not?
    Ambassador Hale. I do not recall that myself, but I do not 
doubt that.
    Senator Menendez. Okay. He said at a 2017 press conference, 
``As we all know, during the presidential campaign in the 
United States, the Ukrainian government adopted a unilateral 
position in favor of one candidate. More than that, certain 
oligarchs, certainly with the approval of the political 
leadership, funded this candidate--or female candidate, to be 
more precise.''
    Has this been a regular Russian propaganda point since 
then?
    Ambassador Hale. I have not followed that that has been a 
regular point, but I do not follow that on a day-to-day basis.
    Senator Menendez. Would it be in Putin's interest to push 
such a narrative?
    Ambassador Hale. Possibly.
    Senator Menendez. Possibly. Well, let me ask you. You are 
the Under Secretary here. How is it that on something as 
critical as Russia, vis-a-vis the United States and our 
national security interests, you would think that it would only 
possibly be in Putin's interest to push a narrative? What would 
be the other possibilities?
    Ambassador Hale. I will say yes to your question, sir.
    Senator Menendez. Did President Putin make this point to 
President Trump when they met in Helsinki last year in any of 
their conversations?
    Ambassador Hale. I do not know.
    Senator Menendez. That is the problem. Neither do we. It is 
a big problem, and especially when the President meets alone 
with Putin and even confiscates the notes of his interpreter. 
But it is curious that Ukrainian interference in the 2016 
election does not appear to be the position of senior diplomats 
like yourself or any intelligence official. Yet this lie makes 
it somehow, somehow into the President's talking points.
    Is our national security made stronger or weaker when 
members of the administration or Members of Congress insist on 
repeating debunked Russian lies?
    Ambassador Hale. That does not serve our interests.
    Senator Menendez. Now let me turn to sanctions. Does the 
administration have authority under Section 232 of CAATSA to 
impose sanctions against Russian pipelines?
    Ambassador Hale. I do not know that we have that exact 
authority. I am not an expert when it comes to pipelines.
    Senator Menendez. Well, let me offer to you that the answer 
is yes, as one of the authors of CAATSA. The administration has 
the authority under Section 232 of CAATSA to impose sanctions 
against, among other things, Russian pipelines. Then why has 
the administration not imposed sanctions on Nord Stream 2? The 
President talks tough about this pipeline, but the 
administration has not lifted a finger to prevent its 
construction.
    This committee passed legislation to require Nord Stream 2 
sanctions. They will likely be included in the NDAA. Senator 
Shaheen, Senator Cruz are the authors of that. But every day 
that ticks by is one more where another pipe is laid, and you 
could act today. Do you have any idea why you have not acted in 
this regard?
    Ambassador Hale. Well, I will say that we, like you, oppose 
the Nord Stream 2 pipeline, and we have made our opposition----
    Senator Menendez. If you oppose it, you have the power to 
do something about it. Why--I am trying to get a sense, is 
there a policy reason why you have not actually pursued the 
sanctionable authority you have under the law to be able to 
stop what the administration opposes?
    Ambassador Hale. We have been so far using--trying to use 
other tools to stop the Nord Stream 2 pipeline from going 
forward by working with our allies in the EU in particular in 
that regard. I know that the----
    Senator Menendez. The most powerful opportunity would be to 
create a huge problem for the companies involved that would lay 
the pipeline knowing that they would be sanctioned, and that 
would be the most powerful tool. You have it, and you have not 
used it.
    Let me ask Secretary Ford. Are CAATSA sanctions mandatory?
    Dr. Ford. Depends which section of CAATSA you are referring 
to, but I believe if you are talking about Section 231, 
Senator, I think that it is a ``yes,'' sir.
    Senator Menendez. And what is the trigger for Section 231 
sanctions?
    Dr. Ford. The trigger for Section 231 sanctions is a 
determination by the Secretary of State that a significant 
transaction, as it is called, has occurred with a--well, with 
someone on a list of specified persons relating to the Russian 
defense or intelligence sector.
    Senator Menendez. Did Turkey begin to take delivery of the 
S-400 system on July 12th of 2019?
    Dr. Ford. I do not recall the specific date, but that 
sounds correct, sir.
    Senator Menendez. They took possession. There is no 
question about that?
    Dr. Ford. I believe they are in possession.
    Senator Menendez. Did Turkey pay for the system?
    Dr. Ford. To my knowledge.
    Senator Menendez. Public reports suggest anywhere between 
$1.5 billion to $2.5 billion. So a transaction took place. 
Russia delivered the system, and Turkey paid for it. Is that 
fair to say?
    Dr. Ford. I believe that is correct, sir.
    Senator Menendez. Does the presence of the S-400 in Turkey 
have an impact on U.S. security interests?
    Dr. Ford. We believe it does. That is why we have begun 
unwinding Turkey from its participation in the F-35 fighter 
program.
    Senator Menendez. Does it present a challenge to NATO 
operations in the region?
    Dr. Ford. That is why Secretary of Defense Esper and 
Secretary Pompeo have made very clear that the F-35 and the S-
400 cannot coexist.
    Senator Menendez. Now you, in fact, have sanctioned China 
for purchasing the S-400 from Russia, which I applaud. But you 
have sanctioned China for the very exact system that is clearly 
a significant transaction, but Turkey, 144 days later, with 
delivery, payment, and just recently tested it against an F-16, 
which I am sure made your negotiations a hell of a lot better 
to try to get to the conclusion you want, and we still have not 
sanctioned them.
    So you send a global message that, in fact, we are not 
serious about uniformly enforcing the sanctions that the 
Congress passed 98 to 2 and that are mandatory. And that is a 
challenge because other countries will say, well, Turkey got a 
pass. Why can I not? And the consequences of that undermine the 
very essence of one of the major sanctions against Russia, 
which is to undermine its military procurement sales throughout 
the world.
    So this needs to be asked, and I appreciate the chairman, 
who is soon having a markup to try to move forward. But when 
you do not ultimately pursue mandatory sanctions, then the 
discretion that you seek--and other administrations have 
sought, I acknowledge that--but the discretion that you seek is 
very tough for some of us to accept because if you do not do it 
when you are mandatory, how are we ever going to believe that 
when you have discretion, you are not going to consistently use 
the discretion? So this is a problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    And you are quite right regarding the issue with Turkey, a 
NATO ally by law. But you are going to have the opportunity, we 
are all going to have the opportunity to speak on this next 
week and to help out the administration in that regard. We do 
intend to have a markup next week on the Turkey bill.
    So, with that, Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Assistant Secretary Ford, let me just follow up on that and 
give you the opportunity. What is the reluctance to impose the 
mandatory sanctions on a NATO ally?
    Dr. Ford. Secretary Pompeo has made it very clear that he 
will comply--we will comply with the CAATSA law. This is a 
deliberative process that is still currently under way. Ranking 
Member Menendez is quite correct. We did sanction China for 
taking possession actually not just of S-400s, but of Sukhoi 
fighters as well, flankers.
    We--they took possession in January of 2018, and it was 
approximately 8 months later in September that we issued our 
sanctions determination with respect to the Chinese procurement 
entity, known as EDD, as well as its director. So that--as the 
nature of these things go, that was a deliberative process that 
we needed to work through in order to make sure that we 
understood the implications and had done our homework with 
regard to the sanctions that we did impose upon the Chinese 
procurement entity.
    So that is, indeed, the precedent here. It took about 8 
months to do that, rather longer than 144 days. The 
deliberative process with respect to Turkey is still under way, 
and that is where we presently are, sir.
    Senator Johnson. Okay. I wanted to give you an opportunity 
to explain that.
    Under Secretary Hale, I want to talk a little bit about the 
Broadcasting Board of Governors and the capability that has 
been appropriated before but just has not been particularly 
used to try and circumvent the firewalls around the Internet 
into countries like Russia, China, and Iran. They have not used 
the appropriations. They seem reluctant to do so.
    We had the confirmation hearing of Michael Pack, the 
Director--the nominee to be Director of the Broadcasting Board 
of Governors. That nomination seems to be a little bit snagged. 
Hopefully, we can get that individual confirmed.
    Can you--is it the administration's policy to aggressively 
pursue those type of technologies that can circumvent the 
Internet firewalls imposed by countries like Russia and China 
and Iran?
    Ambassador Hale. Yes, it is.
    Senator Johnson. Can you expand on that a little bit more? 
Why have we not done it? There seems to be a real reluctance 
and to spend more of the money of the Broadcasting Board of 
Governors, Voice of America, those types of things, Radio Free 
Europe, on broadcast programs as opposed to technology that 
opens up the free Internet to repressed citizens.
    Ambassador Hale. I agree with the thrust of your concern, 
and unfortunately, that is not an area of my direct 
responsibility. So I will have to get back some answers for you 
on this.
    Senator Johnson. But that makes sense to you. Correct?
    Ambassador Hale. Yes.
    Senator Johnson. Okay. Again, hopefully, this committee can 
pass Michael--or recommend his confirmation to the Senate as 
soon as possible.
    Mr. Hale, I would also just kind of like to get your 
evaluation of Russia's current relationship with--you only have 
2 minutes, so pick and choose. I would like to understand 
China's thinking--or Russia's thinking right now, their 
relationship to China, to Iran, and to Turkey.
    Ambassador Hale. Well, I think that in general Russian 
behavior is characterized by opportunism. They look for 
opportunities in order to deflect attention to their internal 
problems, and they use aggressive tactics to try to undermine 
U.S. interests and those of our allies in the West.
    So I think in that context and the context of great power 
competition, Russia and China are finding some congruencies of 
interests. Both want to sort of subvert our values. Both want 
to harm our economies. Both want to interfere with our 
democratic practices.
    So I would put that in that context. There are also 
differences, frankly, of interest between China and Russia, but 
we need to watch very closely what is happening between those 
two countries.
    When it comes to Turkey, again, I would characterize it as 
opportunism. Turkey is seeking to promote its own interests in 
various ways, at times in congruence with us. At other times, 
we have had to work out our differences. I think Russia seeks 
to exploit those openings when they can.
    With Iran, I say that Russia probably plays a less 
prominent role in Iran today than in other periods of history. 
We continue to consult with Russia, by the way, on all of these 
topics. We would like to find areas where we can find 
commonalities of interest, but it has been difficult to do 
that.
    But when it comes to North Korea, to Syria, to Iran, to 
Ukraine, to Venezuela, to Libya, arms control issues, 
counterterrorism, we do have dialogues to try to find common 
ground.
    Senator Johnson. So going back to my original question in 
terms of the mandatory sanctions under CAATSA, is part of the 
deliberative process, is part of the concern that in imposing 
those we are going to basically push Turkey right into the 
welcoming arms of Russia?
    Ambassador Hale. Well, we are obviously not interested in 
doing that. We want to make sure that Turkey is anchored fully 
in NATO, as it is today. That is a long-term U.S. strategic 
objective.
    We are trying to, of course, in addition to the points that 
the Assistant Secretary made, we are in discussions with the 
Turks on the disposition of the S-400s in a manner that will 
protect U.S. national security interests and counter Russia's 
malign influence.
    Senator Johnson. Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, let me thank both of our witnesses 
and thank the chair and ranking member for this hearing.
    Secretary, I want to follow up on the questions on the 
meddling in the elections by Russia. You have indicated you 
have had conversations with the Russians about the interference 
in the coming election. Administrator Wray, FBI Director Wray, 
testified in July before the Senate Judiciary Committee that 
Russia absolutely intends on trying to interfere with our 
elections.
    So have we just been ineffective in our relationship with 
Russia to prevent them from trying again in 2020 elections? Has 
diplomacy failed? Have the sanctions not been used effectively? 
Has the messaging of this administration not been effective? Or 
do you disagree with Director Wray?
    Ambassador Hale. I agree that Russians are seeking to 
influence the 2020 elections. Of course, Russian behavior is 
not just about influencing elections. They also use social 
media and other cyber tools to try to sow division in our 
country on a whole host of issues. So we have to have continual 
focus on this problem.
    Another concern, of course, is that there is a deniability 
element that the Russians hide behind. Now we are able----
    Senator Cardin. So in your conversations with the Russians, 
is that what they are doing? I am trying----
    Ambassador Hale. Yes.
    Senator Cardin. You said you have had conversations. But 
according to Director Wray, we have not been successful in 
stopping them from trying to interfere in 2020, at least as of 
July of this year.
    Ambassador Hale. I have been in frequent engagement with my 
Russian counterpart and with the Russian Ambassador here to 
expose the information that we have that demonstrates Russian 
interference, to warn them of the potential consequences if 
they repeat that performance in 2020.
    Senator Cardin. And that is our strategy? Are we taking any 
other steps to prevent Russia's interference?
    Ambassador Hale. Well, that is our diplomatic message to 
the Russians. We also have a whole of government approach to 
defend and deter our Nation from this kind of interference.
    Senator Cardin. You mentioned misinformation. In the Fiscal 
Year 2017 budget, Congress appropriated $625 million to the 
Countering Russian Influence Fund. Can you tell us how 
effectively that was used in trying to counter the propaganda 
that you are talking about?
    Ambassador Hale. Well, I do not have measurable data with 
me today, but we are very pleased to have that kind of support 
so we can, on a global basis, work with our allies and directly 
to counter Russia's propaganda. They are not just trying to 
influence our elections. They have been trying to influence 
elections all along their border, within the EU, particularly 
those countries that are relatively new democracies.
    Senator Cardin. If my recollection is correct, the 
administration held up the use of that money for a period of 
time. Additional congressional pressure was exerted, 
bipartisan, to utilize that money. You are saying it was very 
helpful.
    Is there a strategy in this administration to seek 
additional resources in order to counter Russia's propaganda 
influence?
    Ambassador Hale. Yes, I mean, for example, the Global 
Engagement Center's budget last year--or for the first 2 years 
was $30 million. We would like--we are asking for $76.5 
million----
    Senator Cardin. Congress gave you $600-some million that 
you did not ask for and did not spend, or at least initially.
    Ambassador Hale. I can tell you from where I sit that that 
kind of support is very helpful.
    Senator Cardin. I want to get to the chairman's point about 
a strategy. Our foreign policy is always best when it is 
wrapped within the values of America, what we stand for. And we 
talked about sanctions working, being strategic. And the 
Magnitsky sanctions, I would say, are probably the most 
targeted sanctions for those who are specifically involved in 
human rights violations.
    It is the 10th anniversary of Sergei Magnitsky's death. It 
was in November. We know that Russia has upped its activities 
against NGOs, against those defenders of human rights, 
imprisoning people who dissent with Putin. What is our strategy 
to make sure that they know they have the support of America 
and in what they are trying to do in reforming their own 
country? Do we have a strategy to up the game against Russia in 
regards to these imprisonments?
    Ambassador Hale. Yes, the most powerful thing we can do is 
speak out, and we do so. And I hope that we will have an 
Ambassador in Moscow, very grateful for the work of this 
committee to move that nomination forward because the people on 
the ground in Russia are hard-working and hard-pressed team at 
the embassy in Moscow as the first line for speaking out and 
meeting with and engaging these individuals.
    Senator Cardin. Are you aware there has been a bipartisan 
letter sent by members of this committee, including--authored 
by Senator Rubio and myself, suggesting that you look at 
Magnitsky sanctions in regards to the----
    Ambassador Hale. Yes, I am aware of that.
    Senator Cardin. And what is the status of that?
    Ambassador Hale. I would have to look into it. Obviously, 
we have not responded yet, but we certainly intend to.
    Senator Cardin. That letter I think was sent in July. So it 
has been a while.
    Ambassador Hale. Yes.
    Senator Cardin. And the protests, the people that are 
protesting are still being arrested and imprisoned. I 
appreciate your words. Actions speak louder than words.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    I applaud the fact that the President looked at China and 
said, look, we have been asleep at the switch here for far too 
long. China has been aggressively pursuing their national 
interests, and we have recognized those interests and have 
taken action appropriately to push back against them. And while 
I think there is a lot more to be done in developing a strategy 
that pushes back against China, I applaud the fact that we 
finally recognized that we had not been aware of the--or 
recognized their malevolent intent.
    I wonder whether the same is occurring today with regards 
to Russia on the part of the administration. And I say that 
because what you have described is a series of actions by 
Russia that are really extraordinarily alarming, and I just--
they are investing aggressively in the Middle East with 
military personnel, in North Africa, in Latin America, 
supporting some of the world's worst actors.
    They are violating--did violate the INF. And Mr. Ford, you 
indicated they are about to make a massive investment in 
increasing the number of nuclear missiles of an intermediate 
range. They are making a--have made a major investment 
upgrading their nuclear arsenal. They are developing new 
technologies, new weaponry.
    And of course, the invasions of Georgia and Ukraine. They 
are interfering in elections around the world and particularly 
here in the United States.
    And so I wonder, what is their ambition? What is their 
strategy? What is their goal? What are they hoping to achieve? 
Why are they doing these things that a country that has a 
declining population, a weak industrial base, really ought to 
be focusing domestically, given our perspectives, they would be 
trying to find ways to help their people, to improve their 
economy. But instead, they are investing massively in weapon 
systems, in interference around the world. What is their 
objective?
    From our standpoint, from the standpoint of our State 
Department, what is Russia's strategy? What is their objective? 
And I will let either of you or both respond to that.
    Ambassador Hale. Well, I can start, sir. Thank you for the 
question.
    I agree with so much of what you said about Russian 
behavior. That is why we have to impose costs, and we 
appreciate the support of the Senate in helping us get the 
legislation right so we can do that, but as part of a broader 
diplomatic strategy with intelligence pieces, with law 
enforcement pieces, with financial pieces, and military 
elements as well.
    You ask about the motivations. Russia seems to be striking 
out in order to distract attention from its internal problems. 
Russia seems to want to dominate states around it as some kind 
of a buffer perhaps. And they look for opportunities in order 
to try to demonstrate that America is weak. So they seek 
openings in places where there are conflicts and where states 
may not be as strong as they could be.
    Senator Romney. Those are tactics, and I recognize those 
tactics. But what is their ambition? Is it to re-establish the 
Russian empire? Is it to become a superpower on par with the 
United States? What are they--I mean, are they looking to 
invade other neighbors?
    I mean, their population is shrinking. Are they looking to 
grab population from other former Soviet states to rebuild 
their population and to become more of an industrial power, 
economic power? But what are they hoping to accomplish?
    Ambassador Hale. I think that they want to restore their 
self-image and global image as a superpower.
    Senator Romney. Mr. Ford.
    Dr. Ford. I certainly do not disagree with that at all. I 
think it is actually quite significant that the National 
Security Strategy of this administration expressly calls out 
both China and Russia as revisionist powers who are engaged in 
a great power competition with the United States, that it is 
our obligation as stewards of the national security interests 
of the American people to pursue and to make sure that we 
protect those interests.
    You are quite right about a shift in China policy, Senator. 
And I think very much the same thing can, indeed, be said about 
Russia, that our National Security Strategy and all that we 
have been doing since its issuance I think speaks to. It turns 
out, unfortunately, that the end of the Cold War did not, as 
many of our policy community seemed to have assumed, it did not 
usher in an enduringly benign security environment in which we 
got to relax and worry about other things.
    It turns out that during that very period in which we took 
a somewhat complacent approach to great power competition, 
Moscow and Beijing were working very hard at their own 
strategies to build their influence, to--as we described them 
in the National Security Strategy, to take a revisionist 
approach to the current system of global order. It is now our 
challenge to make up for that time and to adopt policies that 
will help stabilize a deteriorating security environment and 
try to turn that around so that we can find a stable and safe 
and mutually prosperous way to coexist with them after putting 
all of these acting's out back in line.
    Senator Romney. Yes, I would suggest that the goal of 
having a collaborative coexistence with Russia is not something 
that they are pursuing and that they have very different intent 
and that we need to be very clear-eyed about what their intent 
is and to make sure that we develop a comprehensive strategy, 
as opposed to ad hoc sanctions here and there against 
individuals or against various actions that they take.
    But that we need to have a very dramatic strategy. I go 
back to the George Kennan strategy in the days of the Cold War. 
I am not suggesting we return to the Cold War, but I am 
suggesting we develop a comprehensive strategy that gets them 
to be diverted from the course that they are on. Because they 
are continuing in an activity that is extraordinary malign and 
not in the interest of a peaceful world, and that gives me 
great concern.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to both of you for your tremendous public 
service.
    There is, of course, no way to unwind our policy towards 
Russia with our policy towards Ukraine, and we are going to 
have plenty of opportunities in the House and the Senate to 
litigate what our policy has been in the past towards Ukraine. 
But I thought it might be appropriate to level set and just 
clarify what our policy is currently towards Ukraine.
    And so, Ambassador Hale, just a few quick questions. Is it 
currently our policy with respect to Ukraine to request 
investigations into an entity called CrowdStrike?
    Ambassador Hale. No.
    Senator Murphy. Is it currently our policy towards Ukraine 
to request investigations into the connection between the 
former Vice President's family and a company called Burisma?
    Ambassador Hale. Not that I am aware of.
    Senator Murphy. Is Rudy Giuliani involved today in any 
diplomatic conversations with Ukraine?
    Ambassador Hale. Not that I am aware of, sir.
    Senator Murphy. I think it is important to acknowledge 
those facts because part of the defense of the President's 
actions will be that those requests were, in fact, appropriate, 
and I think it is relevant that since the uncovering of those 
demands have been made, they are no longer part of official 
U.S. policy query whether or not if those actions were 
appropriate, they would have been dropped after these 
investigations began.
    On another topic, one of the sort of ways to talk about our 
competition with Russia is through a prism of what is called 
``asymmetric warfare.'' They have capabilities that we do not 
have. And it has always struck me that that is a choice. It is 
not an inevitability.
    There are some things that they are willing to do that we 
just are not willing to do from a moral standpoint, from a 
standpoint of conscience. But there are also capabilities that 
they have that we choose not to utilize, in particular the way 
in which they use their energy resources to bully nations 
around them and to win friends and influence adversaries.
    We have chosen not to use our energy resources in the same 
way, but there are appropriate means by which we could provide 
more direct assistance to countries in and around Russia's 
periphery to make them energy independent. A bunch of us--
Senator Johnson, Senator Rubio, myself, and others--have a 
piece of legislation that would set up a billion-dollar 
financing capacity in the Federal Government to help actually 
finance energy independence projects in and around the Russia 
periphery.
    It strikes me as a way to sort of close this gap that 
exists without asking our private sector energy companies to 
throw their weight around in a way that is completely 
integrated with U.S. security interests. Do you agree that 
there are ways in which we could increase the support that we 
give countries around Russia to try to end this asymmetry that 
exists today in the way that they leverage their energy 
resources and we leverage ours?
    Ambassador Hale. Yes, I agree very much with the thrust of 
your comments, and it is also--I mean, part of that is making 
sure that our allies have alternate sources of energy. That has 
been a major thrust of our strategy on Nord Stream 2 is because 
we do not want Germany and others in Europe to be even more 
dependent on Russian energy sources.
    I, myself, have had multiple conversations in my travels in 
Ukraine and Belarus and Eastern Europe on this very theme. The 
private sector, of course, would have to be, hopefully, a very 
prominent partner in that enterprise.
    Dr. Ford. If I might, Senator, add to that?
    Senator Murphy. Please.
    Dr. Ford. I think the Under Secretary is quite right and 
you are quite right about the importance of manipulated energy 
relationships and Russia's strategic policy. And one of the 
things that we are also doing to try to meet this challenge is 
through not just promoting any particular type of energy 
alternative, but also focusing upon civil nuclear cooperation. 
We are working very hard, for example, in my corner of the 
State Department to promote improved relationships with 
partners and friends around the world in order to help provide 
them with alternatives in the form of carbon-free nuclear 
energy from U.S. suppliers, which serves our nonproliferation 
interests. It serves our strategic interests.
    And in promoting those kinds of things and trying to find 
alternatives to Russian relationships and Chinese 
relationships, which often come with very elaborate and too 
good to be true debt bondage sort of financing terms, at 
least--I am not familiar with your particular bill--but in 
principle on being able to offer more financing alternatives to 
our partners in the civil nuclear business would be--it would 
be very helpful.
    Senator Murphy. My continued hope is that we get that bill 
before this committee as soon as possible. I think it enjoys 
support in the administration and on both sides of this 
committee.
    My time is up. I will end there. Thanks, Mr. Chairman.
    The Chairman. Thank you. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And let me start by thanking both of you for your service, 
and to our native Cincinnatian, like me, I am going to start 
with you because you are from Cincinnati.
    [Laughter.]
    Senator Portman. Ukraine. After the Revolution of Dignity 
in 2014, I had the opportunity to go over shortly after that 
and see what was going on. And incredible. Here, you have a 
country that was dominated by Russia, chose to take a different 
direction to encourage economic and political freedom, joining 
with us in the EU, and we needed to stand by them. And to a 
certain extent we did, but for the first couple of years, we 
refused to give them the assistance they needed to defend 
themselves against the Russian aggression.
    I have also been to the line of contact. I have seen where 
3,000 Ukrainian soldiers have been killed. It is a hot 
conflict. I do not care what people say. And they needed the 
opportunity, at least to try to defend themselves. They were 
not asking for U.S. troops. They were asking for help.
    In 2017, 2018, 2019, the Trump administration did that, and 
I think that should be noted. It was a bipartisan effort up 
here on the Hill, by the way, starting in 2014, and I 
appreciate the fact you raise that in your written testimony.
    My question for you is, where do we go from here? One, I 
think it is important that we re-establish the fact that we 
are, indeed, allies of Ukraine and that we want to help them. 
And as, again, this administration has done, without precedent, 
we have been helpful to them.
    But what do they need now? Talk a little about anti-
aircraft weaponry, among other things. What can we do to be 
more helpful in addition to the Javelin missiles and to the 
ships that we have now provided?
    Dr. Ford. Well, Senator, I would actually add that not only 
am I a Cincinnatian, I grew up in your old House district, if I 
recall correctly. But----
    Senator Portman. Even better. Who did you vote for is the 
question.
    [Laughter.]
    Dr. Ford. That does not get me a pass to the question, 
though, does it, sir?
    Senator Portman. No.
    Dr. Ford. I actually am not in a position to speak to the 
specific operational needs of the Ukrainian armed forces. We 
have certainly gone to enormous trouble, as you quite correctly 
point out, to try to help them in the very difficult situation 
that Russian aggression has put them in. I believe we have 
given something on the order of $1.6 billion or so in various 
State and DOD assistance for their armed forces.
    That does include, as you indicate, the Javelin anti-tank 
systems. I believe there are more Javelins in the pipeline. I 
think Congress has been notified of an additional move in that 
respect.
    I am not in a position to speak too precisely what it is 
that they need next, but I can certainly----
    Senator Portman. One thing that would be helpful, I think, 
to the committee, I saw that in your testimony, $1.6 billion. 
If you could provide us with a list of what has been provided, 
because there has been some information out there I think that 
has not been accurate. And again, if you could, in talking to 
the appropriate people, give us a sense of what is needed.
    Under Secretary Hale, in talking about Ukraine, as you 
know, President Zelensky has chosen to take the initiative in 
terms of a peaceful settlement of what is going on the eastern 
border of Ukraine and Crimea. And in fact, there is a meeting 
of the so-called ``Normandy Format,'' which is France, Germany, 
and Russia--not us--in Paris coming up shortly to talk about 
this. It is happening next week, as I understand it.
    What is our position? What is the U.S. Government position 
on his initiative to try to resolve the issues on his eastern 
border in Ukraine?
    Ambassador Hale. We strongly support him. The Secretary of 
State put out a statement, I think last night, in this regard. 
And looking forward to the Normandy meeting, we think he has 
done some considerable steps that have helped move toward a 
resolution of the problems.
    We have seen a reinforced truce, although, as you said, the 
war is still hot. We have seen an exchange of prisoners, which 
was very welcome. The Russians returned a vessel that they had 
seized from the Straits last year, and they repaired a bridge, 
pedestrian bridge that is very important for local 
communications.
    So we strongly support this, and we have--we definitely 
back the president and the people of Ukraine in this regard.
    Senator Portman. I have always thought we should be part of 
the Normandy group. Why are we not, and should we be?
    Ambassador Hale. It is a historical development as to why 
we are not there. I do not--frankly, I was not involved at the 
time. I do not have an answer for you. But we are very, very 
closely lashed up with the Germans and the French in this 
regard. We also talked to the U.K., and we will be very present 
during this process.
    There are discussions about trying to expand it. We will 
keep you posted on that.
    Senator Portman. Yes, I would hope that that could happen.
    On the Global Engagement Center, you mentioned earlier in 
response to a question from Senator Cardin that you are 
supportive of it. In fact, you look at your proposal, you are 
saying you are looking for additional funding. I think that is 
really important. And I know Senator Murphy agrees. We have 
worked on this over the years to try to ensure that we have the 
ability to push back on the disinformation, the propaganda.
    Could you tell us a little about that? You have a new 
leader there, Lea Gabrielle. I met with her several times. I 
think she is taking the center in the right direction. What 
kind of capabilities do we need that we do not have, and why 
are you asking for additional funding?
    Ambassador Hale. Well, thank you for the vote of support 
for Lea Gabrielle. We are also very impressed by her 
leadership.
    The GEC, as I understand it, provides primarily a 
coordination role. So while $75 million is a lot of money, 
there is even more--there are even more resources across our 
Government, across our agencies to promote this messaging 
strategy. So if you look at each of those budgets, you will see 
components of it which the GEC will be responsible for helping 
to coordinate and make sure that we are doing everything we can 
to counter Russia's propaganda.
    Senator Portman. Well, thank you. My time has expired. Just 
to make the point, this is largely countries like the countries 
in the Baltics that are under enormous pressure.
    Ambassador Hale. Correct.
    Senator Portman. And so we are helping some of our allies.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    The New START Treaty with Russia is due to expire in just 
over 1 year. Fortunately, Presidents Trump and Putin can extend 
the treaty by an additional 5 years by mutual agreement. Russia 
has recently said that New START will additionally cover 
Russia's only two new strategic nuclear systems that are 
reported to be deployable prior to 2026, a hypersonic glide 
vehicle and a new heavy ICBM.
    Secretary Ford, why would we not extend a treaty with which 
Russia is complying and which will continue to cap existing and 
new types of strategic forces?
    Dr. Ford. Well, Senator, I certainly have not said that we 
would not. That is a decision that has not yet been made. It is 
currently under consideration.
    As you indicated, there may be some systems that the 
Russians are developing now that will or could be brought under 
New START. And depending upon whether and to what degree it is 
extended, I would qualify your statement slightly in the sense 
that it can be extended by agreement between the two powers for 
up to 5 years, but it could be extended for shorter periods of 
time as well.
    What we are doing in approaching New START extension as a 
policy question is to look at it through the prism of our 
broader objectives on arms control and, in particular, the 
President's objective of some kind of a trilateral framework 
that will help us nip in the bud the potential emerging arms 
race that is being triggered by not just Russian, but also 
Chinese nuclear developments.
    China, of course, being, in addition to all of the problems 
I mentioned with Russia, China being on track to at least 
double the size of its arsenal over the next decade or so. And 
so our hope is to find a framework that will provide an 
enduring future for the arms control enterprise and bringing 
those threats under control, and we are approaching New START 
extension through the prism of how we can most effectively 
contribute to that broader long-term goal.
    Senator Markey. So China has a fraction of the warheads and 
the strategic delivery systems which the United States and 
Russia have, and we have an existing agreement, which can be 
extended, which would then serve as a basis to, in turn, begin 
to negotiate with the Chinese. But if we cannot realistically 
bring China within an extension of START within a year, does it 
really make any sense for us to give up on the START extension 
so that, you know, we lose the benefits?
    Dr. Ford. As I indicated, Senator, I am not suggesting that 
we are or would necessarily give up on New START extension. The 
question is how we can best approach these questions in a way--
--
    Senator Markey. Are you saying that you will--are you 
saying flat out you will not extend START if the Chinese are 
not included? Are you saying that?
    Dr. Ford. A decision on these questions has not yet been 
made, sir. What we are trying to do is find a way to bring both 
Russia and China into some kind of an arms control framework 
that meets the challenges that are presented by their ongoing 
modernization and their buildup of their nuclear forces, as 
well as the pressures that their conventional military buildup 
and regional adventurism are placing proliferation upon our 
friends and allies around the world.
    Senator Markey. I appreciate that, but it is just highly 
unlikely, as a time, energy, you know, logistical matter, which 
we are going to be able to bring in the Chinese during that 
period of time. And if New START expires, will U.S. inspectors 
be able to conduct on-the-ground inspections of Russian 
deployed and non-deployed strategic systems, and will they have 
access to thousands of notifications on the movement of such 
systems?
    Dr. Ford. I would think that if New START were to expire, 
with it would go the verification protocols and onsite 
inspection procedures that are associated with that treaty, 
sir.
    Senator Markey. Yes. So we would lose that, which is a huge 
breakthrough which was made in terms of that on-the-ground 
inspections of Russian deployed and non-deployed strategic 
systems. I do not think that would be a step that would be 
advancing our national security.
    If New START expires, will U.S. Strategic Command be able 
to as easily predict the future shape and size of Russian 
strategic forces to inform how the United States configures its 
own nuclear force posture?
    Dr. Ford. Well, our hope, Senator, is that it will be 
possible to put some kind of arms control base limits upon not 
just Chinese, but also Russian forces designed to cover some of 
the things that they are building that are not likely to be 
covered by New START, such as the nuclear-powered cruise 
missile.
    Senator Markey. No, I am talking about if we do not reach--
I am talking about if we do not reach an agreement to extend. 
If we do not reach an agreement to extend, will we lose our 
ability to see what is going on inside of the--inside of Russia 
and, as a result, not be able to as accurately anticipate the 
shape and the size of the Russian strategic force so that our 
own research, development, and ultimate deployment reflects the 
threat that they could be posing?
    Dr. Ford. There is certainly visibility into Russian 
posture that is afforded by the treaty, that if the treaty--
when the treaty goes away, whether it is extended or not, we 
would lose. But what we are also interested in trying to keep 
our eyes upon is the long game of what happens beyond those 5 
years.
    In some sense for the future of this potential emerging 
arms race that Russian and Chinese actions are on the verge of 
triggering, the even more important question is what happens 
after those 5 years? We are on track with our plan of record 
and our modernization program to cover the next 5 years and 
then quite a bit more. What is in some sense more important for 
the future of arms control and the future of the strategic 
relationship between these three powers is what happens after 
that, whether it is in 2 years' time or 6 years' time.
    Senator Markey. No, I appreciate that. My concern, amongst 
other things, is that if we mishandle this, we could wind up 
with a new nuclear arms race that could cause--cost us 
trillions of unnecessary dollars because we missed the 
opportunity to have a negotiated resolution of the issue, first 
with the Russians, which is obviously something that the 
Chinese deal with. And if we do not miss that--if we do not 
take that opportunity, I just think we are going to wind up 
with a deficit that is going to be ballooning because of a 
nuclear arms race that was avoidable.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Young.
    Senator Young. Secretary Ford, I was a lead Republican on 
some legislation dropped with Senator Van Hollen earlier this 
year that would ensure the U.S. made every effort to engage in 
New START negotiations and ensure whatever limitations were 
reached through those negotiations were adequate. We did 
address the China issue, which I will get to momentarily, in 
our legislation.
    But I think I just heard you, which is consistent with 
everything I read and hear, indicate that Russia is currently 
in compliance with New START, right?
    Dr. Ford. We do, sir, believe that they are in compliance 
with the central treaty limits. We are, both parties, in 
compliance.
    Senator Young. Okay. Is there enough time to negotiate a 
renewal of New START? It is starting to become a real concern 
because we are at the 15-month mark from when New START will 
expire, and we are running out of time. So do you feel the same 
sense of urgency towards renewal?
    Dr. Ford. Well, I think there is, in fact, plenty of time 
to extend, if that decision were to be taken. Extension is not 
something that would be particularly negotiated because it 
could be simply extended on its own terms. That would simply 
take agreement of the two parties. In theory, that could be 
done very quickly, indeed.
    Senator Young. But it sounds as though there are some 
reservations to just pure extension on account of the China 
dynamic, which I think is a fair one, which is why Senator Van 
Hollen and I included that in our resolution.
    So, among other things, the legislation that we put forward 
would require our Director of National Intelligence to assess 
the impact that a renewal or an extension would have on China's 
actions. You know, whether if we stayed in or stayed out what 
might China do, and what would the likelihood of Chinese 
compliance with the parameters of New START, what would the 
likelihood of that be?
    So we would want to consider the dynamic of China under 
this legislation, and so I hope this is something that the 
administration will study and then report back to Members of 
Congress, irrespective of whether or not that legislation 
passes. Is that something that is being studied right now?
    Dr. Ford. We are certainly very mindful of how these 
relationships between Moscow and Washington affect Chinese 
behavior and vice versa. I think one of the challenges that we 
have in trying to build this future for the arms control 
enterprise and make it serve our interests and that of 
international peace and security is precisely to figure out how 
these three-way dynamics work.
    We have conceptual templates from the Cold War that are 
bilateral----
    Senator Young. Sure.
    Dr. Ford. --and those do not make sense in an at least 
trilateral world. We are trying to figure that out right now.
    Senator Young. Understood. So, Secretary Ford, you are 
mindful of it. Are you conducting a formal assessment of 
Chinese response to an extension of New START or a renewal of 
New START?
    Dr. Ford. We are certainly considering those questions. I 
do not know that it would be fair to describe it as a highly 
formal assessment, but that is obviously a very important part 
of our decision-making. And as you quite rightly point out, it 
is a critical question.
    Senator Young. We are dealing with nuclear weapons here and 
important arms control agreements. Would it not be both 
appropriate and right to conduct a formal assessment, working 
with our best intelligence to try and come up with a 
probability of different Chinese responses and the nature of 
those responses, were a renewal or an extension to occur?
    It seems like that would be a responsible action to take as 
you carry out your analysis. Do you agree?
    Dr. Ford. I think making sure that we have a clear 
assessment of those questions is very important, sir.
    Senator Young. Okay. So will it happen?
    Dr. Ford. It is already being considered, and it will, of 
course, happen that we bring all of these questions together 
as----
    Senator Young. So considered. Does that mean a formal 
assessment is occurring?
    Dr. Ford. As I said before, Senator, I do not know how 
formal it would be fair to describe the process, but certainly 
those are precisely the questions, among others, that we are--
--
    Senator Young. Is a written work product being produced as 
it relates to the topic we have been discussing for the last 2 
minutes?
    Dr. Ford. We are working with the intelligence community 
and with all relevant elements of the policy interagency to 
make sure that questions including, but not limited to, that 
are part of what our principals are able to consider as they 
seek to make a decision on not just New START extension, but of 
these broader questions of how best to pursue a trilateral arms 
deal.
    Senator Young. It sounds like at the least, if we can 
elicit from the intelligence community or from the State 
Department a formal assessment, then perhaps a classified 
briefing on this topic would make sense. So we will follow up 
on that.
    What is our country doing to ensure a dialogue is in place 
to negotiate a potential renewal or extension?
    Dr. Ford. Well, we have already had in this administration 
two engagements with the Russians. This is what was described 
as the Strategic Security Dialogue. I actually had the great 
honor and privilege of being able to participate in the first 
of those in 2017 when I was in a different capacity.
    Last summer, Deputy Secretary Sullivan from the Department 
of State led our delegation to engage with Deputy Foreign 
Minister Ryabkov in Geneva for the second of these engagements, 
and we committed to doing another one. It is then simply a 
question of figuring out what the mutually acceptable time is 
to hold that engagement, but I anticipate that it would 
hopefully happen in the very near future.
    These are our principal channel right now for having 
discussions along these sorts of lines, talking about strategic 
and arms control and nuclear weapons related issues. It is an 
important way for us to be in touch with our Russian 
counterparts and to hopefully understand each other better and 
to perhaps lay the groundwork for whatever may come, such as 
potentially at least the New START extension talks.
    Senator Young. In the next 15 months.
    Thank you so much. I am way over time, and I appreciate 
your important service.
    The Chairman. Senator Merkley.
    Senator Merkley. Assistant Secretary Ford, is it correct 
that the U.S. has had more than 500 overflights under Open 
Skies of Russia since 2002?
    Dr. Ford. I must confess I do not know the exact number, 
but I would not be surprised if that were precisely right.
    Senator Merkley. Is it correct that we have done about 
three times more overflights of Russia than they have done over 
the U.S.?
    Dr. Ford. I do not know the ratio. Certainly all parties to 
the treaty exchange their----
    Senator Merkley. Okay, you can just take my word for it 
then.
    Dr. Ford. Okay.
    Senator Merkley. You can check and let me know if I am 
wrong. This is a lot of confidence-building contacts between 
the two countries, and Deputy Secretary Sullivan said that any 
decision to leave Open Skies would require unanimous consent of 
the NATO countries. Do you share that understanding of U.S. 
policy?
    Dr. Ford. I do not have the terms of the treaty at my 
fingertips with respect to withdrawal procedures, but I can 
certainly say that there has been a lot of press speculation on 
our Open Skies policy, not all of which one should believe.
    As Mark Twain, I think, is reputed to have said of his own 
death, ``Reports of its demise are greatly exaggerated.'' We 
are currently complying with----
    Senator Merkley. You believe Open Skies provides a valuable 
contribution to the nuclear security at this point?
    Dr. Ford. It does make contributions to our security and 
that of our partners. What we are doing right now is 
undertaking a thorough review of the merits and demerits of 
continued participation. No decision has been made to get out. 
We are going to some trouble to----
    Senator Merkley. Okay. I will just take that.
    Dr. Ford. --with our allies and partners.
    Senator Merkley. So Secretary Pompeo, in response to a 
question I asked him, said that any extension of New START 
would have to take into account new systems and new actors, 
which we understood by his conversation to mean China. Now the 
new weapons, that is not such a big issue because you have got 
two systems that the Russian foreign minister has said they 
already agree would be covered--the Avangard and the new heavy 
ICBM that they are building. So the hypersonic glide vehicle 
and the new heavy ICBM.
    They are two that would not be deployable until the end of 
the next decade. So those we do not worry about too much. And 
then there is the conversation that has to be worked out over a 
planned air-launched ballistic missile, which if covered from a 
heavy--launched from heavy bomber would be covered, but if 
launched from a fighter would not be. Just like a cruise 
missile, similar distance would not be covered if it was 
launched from a fighter.
    So that seems like a manageable--it comes down to one 
weapons system. The China piece, though, that has been raised 
consistently. So China has approximately how many nuclear 
warheads?
    Dr. Ford. I would refer you to the Intelligence Committee 
on that.
    Senator Merkley. About 300. Would you say that that is in 
the ballpark of reported numbers?
    Dr. Ford. I have certainly seen it much talked about in the 
press on that number.
    Senator Merkley. And how many strategic warheads do we have 
deployed?
    Dr. Ford. At present, I should know that number, I am 
afraid, Senator. But I do not have it at the tip of my tongue.
    Senator Merkley. It is about 1,750. And for Russia, it is 
about 1,600. And how many total warheads do we have if we 
include tactical warheads?
    Dr. Ford. Not much more than that.
    Senator Merkley. Well, quite a lot more, actually. Several 
thousand more. But the point is 300 Chinese warheads with their 
triad in the kind of infant stage of development. We have a 
very sophisticated triad. So does Russia. We have just in 
strategic warheads more than five times their number. That is a 
huge disparity.
    Are we really going to say that we have to resolve the 
architecture between China with this neophyte program and U.S. 
and Russia with the much-larger sophisticated program in order 
to extend New START?
    Dr. Ford. I was not making the point, Senator, that all of 
that needed to be resolved and tied up with a bow before one 
reaches the end of whatever lifetime New START still has. We do 
think it is incredibly important that we be engaged with both 
Russia and China in finding a future that is trilateral for 
arms control. Because if we cannot do that, we will run up 
against the same problems sooner or later.
    Senator Merkley. So as you think about that, do you think 
of the U.S. coming down to the Chinese number of 300 or the 
Chinese being given permission to come up to the U.S. number of 
1,750 deployed strategic warheads? Are you advocating for an 
increase in Chinese weapons?
    Dr. Ford. No. I am actually very keen to try to prevent----
    Senator Merkley. Are you advocating that the U.S. come down 
to the Chinese level?
    Dr. Ford. I am advocating that we find a way to stop what 
is now an incipient arms race from becoming a full-blown and 
very dangerous one, and it is not----
    Senator Merkley. Well, you have to argue for one or the 
other. You either have to argue for us to come down or China to 
come up, or you are arguing that you think they would agree to 
differential numbers, locking them into a much lower number 
than the U.S. Are you arguing for that?
    Dr. Ford. Actually, what the President has directed us to 
do is to pursue a trilateral cap on the arsenals of all three 
powers precisely in order to stop what could be a very 
dangerous emerging arms race and give us all breathing space to 
pursue this over the long term.
    Senator Merkley. Okay. I am disturbed. I really am 
disturbed that in order to take into the vast difference 
between China and the U.S., you have one of three options. You 
either have to argue that we are going to put on a cap that 
China is going to be able to come up to, or a cap closer to 
China that we are going to come down to, or that you think you 
can lock in a differential with China that they would agree to. 
Those are the three options, and you have not said you support 
any of those three.
    And you are saying that, you know, we are just a year out 
from the end of the initial New START, and there have not been 
serious negotiations with China to figure out which of these 
three options you are going to pursue. I do not like any of the 
three of them myself.
    Dr. Ford. Well, I would say, Senator, that those kinds of 
questions are just the kind of thing that we need to be and 
should be talking about with our Russian and Chinese 
counterparts, which is why it is so essential for them to come 
to the table with us to engage on finding a future that manages 
these challenges effectively.
    Senator Merkley. Okay. Well, you have not engaged in those 
serious conversations yet, and I know from the past arms 
negotiations, it can take many, many years to work out details 
when there are actually fairly uniform relationships between 
two powers. And this is not a uniform relationship.
    So I will just close there since I am over time, but I 
think what we do not want to see is this China used as an 
excuse to blow up the existing or potential extension of an 
agreement with Russia that contributes to international 
security and, of course, in the nuclear realm that is very 
important to our survival.
    The Chairman. Thank you, Senator.
    Dr. Ford, for the edification of this committee, 
understanding this is an open setting, regarding the Open Skies 
Treaty, can you talk a little bit about the disparity, the 
issues that Russia has caused as far as not allowing access and 
perhaps enlighten people on why that is causing difficulties 
with where we are?
    Dr. Ford. I will try, Mr. Chairman. We first found Russia 
to be in noncompliance with its Open Skies obligations in the 
summer, I believe, of 2017. But I would stress that was the 
first time at which we found them--we decided to declare them 
in noncompliance. In fact, the things that they had been doing 
at that point and, in many cases, are still doing are things 
that they had been doing pretty much continuously since the 
treaty came into force in 2002.
    We have found them to be in noncompliance with regard to 
certain overflights of the Baltic enclave of Kaliningrad. We 
have found them to be in noncompliance with regard to flights 
in the vicinity of the enclaves that they essentially invaded 
and carved off of the country of Georgia and are maintaining 
there by proxy forces. And we have found them to be selective 
in allowing--not allowing some overflights of Russian military 
exercises.
    All of these things, you know, amount to a situation in 
which Russia has been in chronic noncompliance with some Open 
Skies obligations and a selective non-complier with other of 
their Open Skies obligations. This causes great concern to us 
and to our allies, quite naturally.
    The Chairman. And obviously, un-levels the playing field 
that the treaty is supposed to create. Is that correct?
    Dr. Ford. That is a challenge and a question. We have not--
it has not gotten to the point where we have declared that we 
feel there to be--to have been a material breach, but there 
have clearly been breaches, and they things that we very much 
hope that Russia will turn around. We are looking at the 
situation day by day.
    The Chairman. Thank you very much. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thanks to both of you for your time and testimony today.
    The Russian Federation under Vladimir Putin has invaded its 
neighbors Georgia and Ukraine. It supports the murderous regime 
of Bashar al-Assad, our enemies in Afghanistan, and it has 
engaged in active information warfare against Western 
democracies, including meddling in the United States election 
in 2016.
    Russia is also responsible for heinous actions such as the 
downing of Malaysia Flight 17 over Ukraine in 2014 and the 
chemical attacks in Salisbury, United Kingdom, in 2018. 
Clearly, an adversary. Their malicious interference in the 2016 
elections and continue to intend to do that in 2020, and other 
democratic elections around the world as well.
    I believe Vladimir Putin is a thug. The Russian Federation 
should be designated a state sponsor of terror, to join Syria, 
North Korea, Iran, and Sudan.
    This committee has been working on a number of bills, 
Stopping Malign Activities from Russian Terrorism Act. That is 
1189, a bill that Senator Menendez and I have authored to 
require the State Department to submit a report to Congress 
establishing whether or not Russia fits the criteria to be 
declared a state sponsor of terror under U.S. law.
    The DASKAA is a bill that many on the committee have worked 
to put together that, obviously, creates economic, political, 
and diplomatic pressure on Russia in order to respond to 
Russia's interference in democratic processes, their malign 
influence in Syria, their aggression against Ukraine and in the 
Strait as well. The European Energy, Security, and 
Diversification Act, Senate bill 704, that many of us have 
worked on. Legislation that would authorize $1 billion to help 
finance catalyzing public and private investment in European 
energy projects to help wean their dependence off of Russian 
energy assets.
    So we know that Russia supports terrorist groups. They have 
carried out the actions that we have talked about. We know they 
fund insurgencies and separatist movements around the world. 
They have interfered in democratic elections, and they have 
found it--been found to be responsible for a chemical attack on 
the soil of a NATO ally.
    Secretary Ford, do you believe that Russia is a state 
sponsor of terrorism?
    Dr. Ford. I must confess, Senator, my portfolio does not 
have a lot to do with SST designations, and I am not as 
familiar with the elements that go into that as I probably 
should be. I would defer to others on that question.
    Senator Gardner. Dr. Ford? Excuse me. Dr. Hale? Secretary 
Hale. Dr. Ford. Sorry about that.
    Ambassador Hale. I will answer to any title. The State 
Department has not, at this stage, determined that Russia is a 
state sponsor of terrorism. There is a fairly complex 
deliberative process for doing that, and we look forward to 
sharing information and working with you and other members of 
the committee.
    Senator Gardner. Based on these descriptions, though, do 
you believe that they would fit the criteria?
    Ambassador Hale. Well, I agree with all of your 
characterizations of Russia's malign behavior. I do not 
personally see that, per se, as state sponsorship of terrorism, 
terrorist attacks. But they are supporting, they are getting 
very close to the edge in some places on that.
    We also have to recognize Russia has--itself has been a 
victim of terrorism, too. I think it is safe to say that on the 
record as well.
    Senator Gardner. We have seen, I think in 2016, a series of 
RAND reports, analyses that showed based on Russia's buildup in 
the military that they could sweep the Baltics in less than 60 
hours. Secretary Hale, has that analysis changed to any degree 
with the increases in investments in NATO and other 
developments we have seen in Europe?
    Ambassador Hale. I am not familiar with that RAND study, 
and I am not an expert on these matters, but I can tell you 
that we are very concerned about the defense of all of our NATO 
allies and particularly the vulnerable Baltic States and, 
therefore, have done a great deal to bolster their defenses and 
to increase NATO's true presence and other instruments on their 
soil.
    Senator Gardner. When it comes to Europe and the actions of 
our European allies, what action is the United States taking to 
press--what are we actually pressing our European allies to do 
more when it comes to Russia's continued aggression?
    Ambassador Hale. Well, I think job number one is to 
increase their defense spending in line with the Wales pledge 
of 2 percent and also to realign the burden-sharing in a NATO 
common fund. These are topics under discussion as we speak in 
the NATO summit.
    We also are very focused on the vulnerabilities of the 
eastern flank of NATO, if I can put it that way. These are 
relatively new democracies, and they are very--very vulnerable 
to Russian intimidation, Russian tactics to use corruption, use 
access to media, to undermine those societies from within. We 
have seen cyberattacks and other types of interference that 
have been really quite dramatic.
    And so we want to boost those defenses as well, which is 
more complex than just a military response. We have to use all 
the tools we have talked about in other questions.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you 
both for being here.
    Dr. Ford, in your opening statement, you talked about 
progress that has been made in reducing nuclear tensions, and I 
have listened to the back-and-forth around the New START 
Treaty. Do you support an extension of the New START Treaty?
    Dr. Ford. Senator, I would support it if I concluded that 
that were the most effective way to contribute to our goal of 
bringing both China and Russia into some kind of an arms 
control framework, and that is just the question that we are 
all considering right now.
    Senator Shaheen. And did I understand you to say that we 
look for opportunities and areas of mutual agreement where we 
can work with Russia on some things?
    Dr. Ford. Yes, indeed. We try to keep channels of 
communication open and find ways to work together on shared 
interests.
    Senator Shaheen. And has Vladimir Putin not actually 
suggested that this is one area that he would like to see 
negotiations resume?
    Dr. Ford. I believe the Russians have made that clear. They 
also by their actions, rather than by their words, have made it 
clear that they would like to continue an uninterrupted 
military buildup and a nuclear buildup----
    Senator Shaheen. Yes, I am not asking you about that. I 
appreciate the uninterrupted military buildup. I think we would 
all agree that that is not something that we want to allow to 
continue to happen, and we need to look for ways to prevent 
that. But I am asking you about New START only.
    When--is it not possible that we could move forward with an 
extension of New START at the same time we are looking to 
negotiate other issues and include China and other nations that 
may be a concern in terms of nuclear weapons?
    Dr. Ford. That is, indeed, one of the possibilities that we 
are considering right now, ma'am.
    Senator Shaheen. Why would we not want to do that?
    Dr. Ford. Well, I think we would want to do that if we 
determined that that was the best way forward to meet the 
longer-term objective of bringing these troublesome arms race 
dynamics under control.
    Senator Shaheen. So what is the long-term concern about 
doing that? Because that would give us more time to actually 
negotiate a broader agreement that would include China and 
could potentially look at other areas where there are weapons 
that we might want to include in a treaty. So why would we not 
want to continue an extension of New START?
    Dr. Ford. As I indicated, that is precisely one of the 
questions we are considering and the alternatives that we are 
mulling over right now. We do not have a decision from our 
interagency and our principals as yet, but that is certainly 
one of the things that is before them.
    Senator Shaheen. I would suggest that--well, I would align 
myself with the comments of Senator Merkley that I think this 
is a red herring to suggest that we cannot do anything about 
New START without including China and some of the other issues. 
So I would hope that we would look at how we can best move 
forward and continue the progress that has been made under New 
START while we look at other ways we can negotiate a broader 
agreement.
    Ambassador Hale, I continue to be very concerned about the 
repercussions of the decision in Syria to withdraw our troops 
and what that means in terms of increasing Russia's influence 
in Syria and the Middle East. Can you talk about what our 
withdrawal has done to strengthen Russia's position in Syria?
    Ambassador Hale. Well, we do still have troops, of course, 
present. There has been an adjustment in line with all the news 
that we have seen and the agreement that was reached in 
October.
    We have had a dialogue and continue to have a dialogue with 
Russia on Syria.
    Senator Shaheen. Do we have any potential to influence 
their bombing of Idlib and what is happening in that part of 
Syria? Have we tried to do that?
    Ambassador Hale. Yes, we have. Ambassador Jim Jeffrey, who 
is our envoy handling these matters, has had intensive 
discussions with his Russian counterpart. I have as well with 
my counterparts, and I am sure the Secretary has engaged as 
well. We believe these kinds of bombardments absolutely must 
stop, and we will not be able to really cooperate well with the 
Russians unless they do so.
    Senator Shaheen. Is that the only leverage we have? To say 
we are not going to cooperate with you if you do not stop 
bombing?
    Ambassador Hale. When it comes to--I was just talking about 
not cooperating in the case of Syria. No, the Russians know we 
have a wide range of tools. That is part of the benefit of 
having sanctions is that they know that that is a potential 
avenue we may go down.
    Senator Shaheen. But we have not suggested that that would 
be an option in Syria if they continue bombing?
    Ambassador Hale. I have not had that discussion myself, 
Senator.
    Senator Shaheen. So the President was just in Afghanistan, 
and one of the things he suggested was that he was planning to 
resume talks with the Taliban. Do you know if there have been 
any discussions with Russia, either with respect to Syria or 
Afghanistan, about potential role that they could play in 
helping to address the resurgence of ISIS?
    Ambassador Hale. Yes. Ambassador Khalilzad and Ambassador 
Jeffrey, as I mentioned, both talked to their Russian 
counterparts intensively about this. We would like to see 
stronger Russian cooperation not just in defeating the D-ISIS, 
but in helping the political processes that are needed to 
stabilize countries so D-ISIS--excuse me, ISIS does not have 
the opportunity to regroup and to develop. So that is the 
essence of our approach with the Russians.
    Senator Shaheen. And what has their response been?
    Ambassador Hale. Less than ideal. They have not offered the 
kind of support that we would expect from them.
    Senator Shaheen. And when we actually had a presence in 
Syria, they were not--and were engaged full-blown in the fight 
against ISIS, they were also not helpful in that effort 
particularly, were they?
    Ambassador Hale. They were not.
    Senator Shaheen. Again, as we think about restarting talks 
with the Taliban, do you have any sense of what discussions 
there will be around the resurgence of ISIS in Afghanistan? 
Actually, it is not a resurgence, the growing presence of ISIS 
in Afghanistan and what we will be asking the Taliban to do 
with respect to ISIS?
    Ambassador Hale. I do not want to get into classified 
information, so let me just offer generally. This is a growing 
concern, a source of alarm in the administration. I was 
Ambassador to Pakistan as my last assignment. We watched it 
begin then, and we were ringing the alarm bells.
    And I think, effectively, we need to make sure that all 
elements that are prepared to come into a peace process are 
focused on that problem as well.
    Senator Shaheen. Thank you, Mr. Chairman and Ranking 
Member. I would hope that you would consider a classified 
hearing to discuss the potential for ISIS to be a problem in 
any negotiations with the Taliban in Afghanistan. I think that 
is a huge threat, and we need to be concerned about it.
    Thank you.
    The Chairman. I agree with that, and we will talk about 
having a briefing in that regard. Thank you so much.
    Senator Paul, you are next.
    Senator Paul. Ambassador Hale, sanctions are intended to 
change behavior. For years, we have been adding sanctions to 
Russia. Can you name some specific changes that Russia has 
undertaken with regard to and because of our sanctions?
    Ambassador Hale. Well, this is a work in process. I mean, 
we have not achieved our overriding objectives in terms of 
having Russia withdraw from Ukraine. Certainly, they continue 
to violate human rights, and we continue to see interference in 
our elections. So we will continue----
    Senator Paul. So no specific changes from Russia that you 
can name?
    Ambassador Hale. Well, there may be a deterrence effect, 
but it is hard to measure, and we want to continue. It is going 
to take time, as we know, when it comes to sanctions regimes, 
for them to have----
    Senator Paul. So we have put on sanctions for some specific 
behaviors we do not like, and there is not any indication that 
there has been any change in Russia's behavior. Are there 
discussions with Russia, specific discussions saying if you do 
X, we will remove these particular sanctions? Are there that 
level of particular discussions with Russia?
    Ambassador Hale. I think the Russians are well aware of 
what they need to do in order to get sanctions relief.
    Senator Paul. But no specific discussions on, you know, we 
will remove sanctions on your members of the Duma coming here 
if you do X?
    Ambassador Hale. I think in various conversations that that 
may have been touched upon.
    Senator Paul. Well, I think this sort of illustrates sort 
of the problem. It is easy to put sanctions on. It is easy to 
say we want to change behavior, but it does not seem to really 
be working. And if it is not working, maybe we need to 
reconsider exactly, you know, what we are doing.
    We have also put sanctions on. The Congress decides that we 
know better than the President, so we are going to put 
sanctions on, and then the President cannot take them off. Do 
you think that makes it easier or harder to negotiate 
behavioral changes if Congress puts on sanctions that the 
President does not have the means or the power to remove?
    Ambassador Hale. I think it makes it harder in most 
instances. I think you put your thumb on a very important 
point, which is the need for reversibility and flexibility. 
Often the threat can be more effective than the actual 
imposition of a sanction.
    Senator Paul. Probably the only time I can think of in 
recent times where sanctions actually appeared to work and it 
was very obvious was the President either putting on or 
threatening sanctions on Erdogan recently in Turkey. And then 
immediately, when the behavior changed, removing the sanctions.
    So I would argue that the threat of sanctions actually has 
leverage, but once we place them on, they almost have no 
leverage. And we leave them on for decades, and it does not 
appear that anything is changing.
    And in fact, contrary to what people think, we may actually 
get the opposite. It may actually solidify bad behavior because 
countries have their own sort of national pride, and once they 
get their back up, they are like, ``Well, we are not changing. 
You know, we are never going to do that in result of it.''
    Some would say the sanctions worked in bringing Iran to the 
table for the Iranian Agreement, but the contrary argument also 
might be that it finally came because we engaged Iran, and we 
offered them something. They actually signed the agreement 
because they got something in exchange. And so I think, as we 
look at the world, we can think that we can tell the world what 
to do, but it does not seem to--there does not seem to be a lot 
of evidence of it working.
    There may also be the evidence that--or at least the 
argument can be made that sanctions or embargos, such as the 
longstanding embargo with Cuba, may actually have the opposite 
of the intended effect. And it seems like we would want to 
study these things because the Castro's for decades said, 
basically, your economy sucks and you have no food because of 
the Americans and because of the embargo.
    So I think we ought to at least be open to the argument of 
whether sanctions work. We ought to try to study whether they 
work. If we believe that sanctions are the way to go, we should 
also have an additional effort saying we want to have this talk 
with you about if you will do X, we will do X. You know, that 
there is some kind of exchange.
    The problem is, is it is like so many things that we have. 
We start out with unrealistic proposition. So like our 
proposition with Russia is when you leave Crimea, you know, 
then we will consider relieving your sanctions. I think from a 
practical point of view, I think it was wrong that they invaded 
Crimea, and I do not agree with the policy. I think it is also 
very, very unlikely that they ever leave Crimea, short of 
someone pushing them out of Crimea.
    And so if that is our point, the sanctions will stay on 
forever, and eventually, the Russians will say, you know, and 
they simply will have no effect. So I think we do need to look 
at if we believe that sanctions work, we need to have 
negotiations with our adversaries and say, all right, if you do 
X, we will do X.
    One very minor thing I proposed and got virtually--well, 
really no support. I had the vote in this committee to try to 
relieve sanctions on Russian members of the legislature to 
travel here, and it is like we are sanctioning diplomacy. And I 
was the only vote for allowing Russian members to come here, 
but that is a very small sanction that could be exchanged for 
something.
    There are things that the Russians want that we could at 
least exchange little things for little things, as opposed to 
saying you have to do everything for everything because I 
think, as a consequence, nothing ever happens. Because our 
goals are too large and too unreasonable.
    Your response?
    Ambassador Hale. I agree, Senator, that we should be very 
thoughtful about how we impose sanctions. The more that they 
are targeted and specific in nature, the better off we are. We 
agree about the need to maintain flexibility and reversibility 
so we can incentivize the target to behave the way we want.
    Senator Paul. That is the key, the reversibility.
    Ambassador Hale. Yes.
    Senator Paul. We have to be negotiating how to unwind them, 
or they are of no value.
    Ambassador Hale. I agree, sir. And I would just make the 
general point that we should not look at sanctions in isolation 
of our overall diplomatic strategy.
    The Chairman. Thank you, Senator.
    There are certainly some valid points that Senator Paul has 
made regarding sanctions. I think we have a tendency to reach 
for those quickly without the thought process sometimes that 
you need to go into them. Having said that, I think it 
stretches a little bit to ask how effective have they been. 
Because you cannot measure something they did not do in light 
of the fact that they were facing sanctions.
    So that is hard to do. But on the other hand, I think the 
more pointed they are and particularly the ability of the 
administration to be able to remove them when they want to is 
important. And I know you consider that whenever we are working 
with these. So thank you very much.
    Senator Coons.
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez.
    And I would like to thank both of you, Under Secretary Hale 
and Assistant Secretary Ford, for your long service to our 
country and for your testimony here today.
    Under Secretary Hale, Russia undeniably attacked our 
elections in 2016 and has every intention of doing so again, 
according to the Director of the FBI and the Director of 
National Intelligence. And as you confirmed in response to 
earlier questions from Senator Menendez, as you yourself said 
in your opening testimony, Moscow engages in election meddling 
and complex, well-resourced influence operations directed by 
the highest levels of the Russian government. I agree. You went 
on to say understanding this threat is essential for developing 
a long-term response.
    Two weeks ago, Dr. Fiona Hill of the National Security 
Council testified before the House Intelligence Committee that 
the Russian intelligence services have, in fact, been promoting 
a false narrative that Ukraine interfered in our 2016 election. 
And you previously told Senator Menendez in response to his 
questioning that you are not aware of any credible evidence 
that Ukraine interfered in our 2016 elections.
    Would you agree, as you said in your own opening, that 
understanding the Russian threat requires our also being clear 
that there is no evidence of Ukraine having interfered in our 
2016 elections?
    Ambassador Hale. Yes, I do, Senator.
    Senator Coons. Have you seen any intelligence assessment or 
any open source reporting that would support the idea that 
Ukraine interfered in our 2016 election?
    Ambassador Hale. I have seen nothing that is credible along 
those lines, sir.
    Senator Coons. Are you aware of any U.S. diplomat or 
executive branch official who is asserting publicly that 
Ukraine interfered in our 2016 elections?
    Ambassador Hale. Any diplomat?
    Senator Coons. Anyone other than President Trump?
    Ambassador Hale. That is correct, sir.
    Senator Coons. So if an American politician of either 
branch repeats this Russian disinformation effort, says falsely 
that Ukraine, not Russia, interfered in our 2016 election, does 
that promote our diplomatic interests or our national security?
    Ambassador Hale. Well, it is a free country. People can 
debate any ideas that they want. But our focus at the State 
Department has been, and as it should be, on the proven Russian 
interference in the 2016 elections and plans to do so in 2020.
    Senator Coons. Would it be in the interests of securing our 
2020 election to continue distracting the American public, 
American legislators from that demonstrated Russian intent to 
interfere?
    Ambassador Hale. Well, again, I said that I have seen no 
credible evidence about these allegations of Ukraine. So, 
again, as foreign policy practitioners, our focus is not there. 
It is on the Russian problem.
    Senator Coons. Well, on the Appropriations Committee, I 
worked with Senator Leahy and colleagues from both parties to 
secure an additional $250 million this year in election 
security funding in an appropriations bill that has not yet 
passed the House and Senate. This would prevent future 
cyberattacks against our election machinery.
    Do you think that is a wise domestic investment in our own 
election security? And do you think we should be doing not just 
that, but more to secure democracy here and in Europe against 
Russian aggression?
    Ambassador Hale. I am not familiar with the details of the 
legislation, but in principle, I believe firmly that we need to 
do everything we can to deter and necessarily defend against 
these attacks here at home and with our allies.
    Senator Coons. Well, thank you, Ambassador. As you have 
heard from many Senators today, we agree Russia needs to pay a 
price for attacking our elections, for their annexation of 
Crimea, their ongoing support for separatists in Ukraine, their 
undermining democracy in Europe and separating the United 
States from NATO, their support for the murderous regime of 
Bashar al-Assad, and the list goes on.
    One area of real interest to me where Russia has recently 
stepped up their brazen and exploitive activities is in Africa. 
Strengthening ties with African countries is one of Putin's top 
foreign policy goals. In October, he convened more than 40 
African heads of state for a Russian-led conference in Sochi, 
and they have demonstrated their influence or attempted to 
influence recent elections in Madagascar, in Guinea, in Congo, 
in Zimbabwe, and in the Central African Republic.
    Last month, I introduced the bipartisan Libya Stabilization 
Act, which would include sanctions on those involved in the 
Russian intervention there and would require an administration 
strategy to push back against Russian actions there in Libya. 
And according to recent public reports, there are literally 
hundreds of Russian mercenaries now in Libya.
    What is the State Department doing to address or limit 
Russian influence in Africa, in Libya and in some of the other 
countries I just mentioned?
    Ambassador Hale. Well, again, it is a topic in our 
conversations with Russian officials. I do not think that that 
dialogue is producing or yielding results that are necessary 
for our national security. I think more significantly is to 
point to our policy toward Africa and toward African states. We 
are trying our best to make sure that our relationships with 
Africa are well maintained, that we are promoting U.S. business 
there.
    We are also increasing our assistance levels so that U.S. 
business can be participating in the economic growth and 
development of those countries. I think that is a very 
important area. Also our cooperation in areas of security in 
the Sahel. That is very important.
    In the matter of Libya, I would say our strategy there is, 
of course, to try to do what we can to bring about a ceasefire 
and compliance with various U.N. Security Council resolutions 
so that the situation is stabilized. Meanwhile, we have thrown 
a spotlight on Russian--the Russian presence there in various 
statements, but it is most unsatisfactory.
    Senator Coons. Well, I see my time has expired. Thank you, 
Mr. Under Secretary and Ambassador, for your testimony today, 
and I look forward to our working to keep an open line of 
communication between the administration and the Senate because 
I think continuing to cooperate in standing up to Putin's 
aggression against our upcoming elections is very important for 
the future of our republic.
    Thank you.
    The Chairman. Thank you, Senator. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony today.
    Secretary Hale, you just said a moment ago, in response to 
Senator Coons, that our focus is on the Russia problem. I agree 
with that sentiment. I think the administration needs far more 
of a focus on the Russia problem. Russia is not our friend. 
Putin is not our friend.
    I want to focus right now on two areas where the 
administration can do better. Let us start with Nord Stream 2. 
In your judgment, if Russia completes the Nord Stream 2 
pipeline, what would the effect be for Russia, for Europe, and 
for the United States?
    Ambassador Hale. Very negative. It would create another 
tool for the Kremlin to use Russia's energy resources to divide 
Europe and undermine and destabilize Ukraine.
    Senator Cruz. As you know, we are at the precipice of Nord 
Stream 2 being completed. Last month, the last regulatory 
barrier that stood in place, Denmark gave the final 
environmental approvals to complete the final portion of Nord 
Stream 2. My understanding is we are roughly 60 days away from 
the completion of that pipeline. It is now or never.
    As you know, I authored bipartisan legislation in this 
committee that passed this committee by an overwhelming 
bipartisan vote, a vote of 20 to 2, to stop the Nord Stream 2 
pipeline. It is narrow, targeted sanctions, like a scalpel, 
designed specifically to prevent the only ships that can lay 
the pipeline from laying the pipeline and completing that 
pipeline.
    Now there is some hope that the Senate, even in this 
bizarre partisan time, will manage to work together. There has 
been considerable progress. Perhaps passing that Nord Stream 2 
legislation as part of the National Defense Authorization Act, 
I am hopeful that will happen. I am grateful for the assistance 
of Chairman Risch and Ranking Member Menendez to try to make 
that happen. I think that would be an enormous bipartisan 
victory for the Senate and for the United States.
    But that being said, at the end of the day, we do not need 
to pass that legislation to stop this pipeline. The 
administration has full authority under CAATSA right now, 
today, to impose those same targeted sanctions. Those sanctions 
that would result in shutting down the ships that are laying 
the pipeline and stopping it right now, today. Why has the 
administration not yet acted?
    Ambassador Hale. Well, we have been using our diplomatic 
tools to seek our goal of stopping this project, which I think 
you and I share, the administration shares your concern.
    Senator Cruz. Has that succeeded?
    Ambassador Hale. At this stage, we have slowed it down, but 
we have not stopped it.
    Senator Cruz. Is there any prospect, is there a snowball's 
chance in hell that talking to the German Ambassador is 
suddenly going to magically stop the Nord Stream 2 pipeline?
    Ambassador Hale. Certainly not talking to the German 
Ambassador. But we have a range of leadership engagements on 
this which are still unfolding. We do have some time. There is 
a deliberative process about what our options are if we clearly 
come to the conclusion our diplomacy has not achieved our goal, 
and sanctions are among them.
    Senator Cruz. So, Secretary Hale, let me give you a very 
clear message to take back to your colleagues. I have had 
multiple conversations with Secretary Pompeo, with Secretary 
Mnuchin, with the White House on this topic. Time is of the 
essence.
    A strategy that is let us pursue our diplomatic options at 
this point is a strategy to do nothing. It is a strategy that 
will result with 100 percent certainty in the pipeline being 
completed and Putin getting billions of dollars and Europe 
being made energy dependent more so on Russia and in weakening 
the United States position in the world.
    The administration can stop it. It is only inertia. There 
have been principal meetings. There have been, sadly, some 
bureaucratic intransigence, I think particularly from the 
Treasury Department, pushing back against exercising clear 
statutory authorization to stop this pipeline.
    I want this to be very clear. If the pipeline is completed, 
it will be the fault of the members of this administration who 
sat on their rear ends and did not exercise the clear power. 
You have an overwhelming bipartisan mandate from Congress to 
stop this pipeline. It is clear. It is achievable. It is a 
major foreign policy victory. And the only thing that would 
allow this pipeline to be built is bureaucratic inertia and 
dithering within the administration.
    So I very much hope that dithering ends, and you exercise 
the clear authority and stop this pipeline before it is 
completed next month.
    Ambassador Hale. Thank you for your message, sir.
    Senator Cruz. I want to turn to a second topic on Russia, 
which is, Dr. Ford, we were talking about the Open Skies 
Treaty, and you said something there that I wrote down because 
it startled me. You said, and I think this is verbatim, ``It 
does make contributions to our security and those of our 
partners.''
    Dr. Ford, it is my understanding that that statement is 
directly contrary to the assessment of the Department of 
Defense and the intelligence community. And in fact, I will 
give you some specifics. In 2015, then the Director of the 
Intelligence--Defense Intelligence Agency under President 
Obama, General Vincent Stewart, told Congress, ``The Open Skies 
construct was designed for a different era.'' It ``allows 
Russia to get incredible foundational intelligence on critical 
infrastructure, bases and ports, all of our facilities, and it 
gives Putin 'a significant advantage.'"
    The STRATCOM, the head of STRATCOM in 2016, commander of 
STRATCOM said it gives Russia ``a capability to be able to 
reconnoiter parts of our country and other nations.''
    2017, the Chairman of the Joint Chiefs of Staff, General 
Dunford, told Congress, ``We don't believe the treaty should be 
in place if the Russians aren't complying.''
    You told this committee, ``Russia is in chronic 
noncompliance.'' We are allowing Russia to fly over the United 
States to engage in reconnaissance on our major cities, our 
defense infrastructure, New York City, Washington, D.C. We are 
making ourselves more vulnerable. And we are gaining, as I 
understand it, little to nothing. Because everything we would 
gain from the overflights we gain from our satellite 
technology, and Russia is not complying with the treaty.
    How is it possibly in our interest to benefit the Russian 
military by exposing our defenses while not gaining serious 
actionable intelligence on the other side?
    Dr. Ford. Well, Senator, those are some of the very 
questions that we are, in fact, considering right now in the 
course of our Open Skies review. When I said that there are 
some--that the treaty provides some benefits, I think that is 
true. There are also clearly, as you quite correctly point out, 
some problems and some concerns.
    I think the relevant question is what sort of the net is 
between benefits that it offers and the challenges that it 
presents, and it is evaluating the relative weight of each of 
those elements on a scale that is precisely the policy question 
that we are trying to assess.
    On the positive, our allies and partners, many of them 
feel--seem to feel strongly that there are confidence-building 
benefits and diplomatic benefits that they feel strongly about. 
We need to take that into consideration, and we are carefully 
consulting with them.
    But at the end of the day, we do need to make a call as to 
how that--what that net equation looks like, and there are 
elements on both sides.
    Senator Cruz. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. And thanks to both of 
you for coming.
    Secretary Hale, good to see you again. I have seen you in a 
lot of real estate around the world over the years. I want to 
begin with you.
    The title of this hearing is ``The Future of U.S. Policy 
Toward Russia.'' Your testimony has a number of references to 
NATO in your testimony, both written and verbal. So how about 
just start with the direct question. How important is it to the 
future of U.S. policy toward Russia that NATO remain strong?
    Ambassador Hale. I would say it is absolutely essential. 
The strength of NATO has been a cornerstone--well, NATO has 
been a cornerstone of our National Security Strategy since the 
1940s, and it is inconceivable what the world would be like if 
we had not developed that concept and continued to support it 
until today.
    Senator Kaine. NATO has many priorities. NATO has been very 
helpful to the United States in the battle against terrorism, 
for example. So it is not as if Russia is the only priority. 
But I take your testimony that NATO remains very important, and 
it remains an important element of U.S. policy toward Russia.
    Would our NATO allies say the same thing? That a strong, 
vibrant, continuous NATO is important in their own faceoff vis-
a-vis Russia?
    Ambassador Hale. I believe so. There may be variations of 
intensity of view on that point.
    Senator Kaine. Right.
    Ambassador Hale. But certainly the closer you get to 
Russia, the more ardent that view is. But I would support that.
    Senator Kaine. I have no quarrel with the administration 
pressing NATO allies to not only, you know, feel the commitment 
and benefit from NATO, but also to contribute proportionally. I 
think that is a smart thing to do.
    I have a piece of legislation pending before the committee 
and a few months ago offered it as an amendment to an energy-
related bill and, at the chair's request, pulled it aside, and 
I hope that we may take it up in our next business meeting. The 
piece of legislation would basically say this. Sort of in honor 
of NATO's 70th anniversary, it would clarify that no President 
could unilaterally withdraw from NATO, but that any withdrawal 
of the United States from NATO would have to be accomplished 
either by a Senate ratification--the Senate ratified the NATO 
treaty--or through an act of Congress.
    Would something like that provide assurance to our NATO 
allies that the United States intends to stay in NATO and be a 
partner as we use that alliance structure to benefit not only 
the United States, but other nations in the world?
    Ambassador Hale. Well, Senator, I do not want to address 
the specifics of your legislation. There may be other 
dimensions to the legal authorities and privileges for the 
executive branch in play there.
    But I would say that in my meetings, at any rate, with NATO 
allies there is no alarm over the U.S. position. They are 
focused on appropriate burden-sharing. Our conversations----
    Senator Kaine. How about the French president saying that 
he viewed NATO as being on brain death because of concerns 
among European allies that the United States was backing away 
from NATO?
    Ambassador Hale. I do not want to characterize the French 
president's comments. I mean, that is up to him----
    Senator Kaine. You would not characterize that as an 
expression of alarm?
    Ambassador Hale. I would say he has legitimate concerns. We 
all need to focus on NATO's future and make sure that it is 
relevant to the challenges----
    Senator Kaine. And be clear in our commitment to them.
    Ambassador Hale. And clear in our commitments. Absolutely, 
sir.
    Senator Kaine. Well, my hope is this piece of legislation, 
which is bipartisan, I think it would send a strong message 
that the United States, under any administration, under 
Congress of whichever party's dominance, would be very, very 
committed to NATO.
    There is a legal question that has been raised. It takes 
the Senate, a two-thirds vote of the Senate to ratify a treaty. 
NATO was ratified by the Senate in that way. The Constitution 
is silent about exiting from treaties.
    The relevant case law from the Supreme Court makes pretty 
plain when the Constitution is silent on something like that, 
Congress is free to legislate. There is no barrier to Congress 
legislating. So right now, the situation without legislation is 
an ambiguity. But Congress can legislate and remove the 
ambiguity and provide reassurance to our NATO allies.
    At this 70th anniversary of this very, very important--to 
your own testimony, and I think others would agree--alliance, 
it is my hope that we would send that signal. That a treaty 
that was entered into by the Senate cannot be unilaterally 
discarded by any President but would require some congressional 
action prior to it being withdrawn or the U.S. presence in it 
being withdrawn.
    So just to my colleagues, I hope that we might be able to 
take that up, and I think at the 70th anniversary, we could 
send some strong messages of the importance of the alliance 
that you continue to attest to, to our allies.
    So, with that, Mr. Chair, I yield back.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you. Thank you both for being here.
    I find it--first of all, I have been consistently and 
aggressively outspoken about the threats posed by Russia I 
believe going back to October of 2016. I was a candidate on the 
ballot, and I would not comment on the leaks and things that 
were coming out. I said it was the work of a foreign power 
then.
    But I also am fascinated how a nation--I understand there 
are tactical nuclear weapons, and I understand there are 
strategic nuclear stockpile and so forth, but I find it 
fascinating, if we just take a deep breath here, how totally 
consumed American politics has become by a nation whose GDP is 
equivalent to Italy's and the State of New York, whose GDP is 
less than the State of Texas and Brazil's, and whose GDP is 
half the size of the State of California.
    And I thought there was a really important question today. 
Earlier, I was watching on the broadcast. Senator Romney asked 
what their goal is, and I want you both to comment on this. One 
of the things I think Americans do not fully appreciate or 
understand is there are a lot of different ethnic groups within 
the Russian Federation, and they have always had friction 
internally, domestically.
    You combine that with the rising prices, a growing sense of 
injustice and inequality, and what you have is, in many ways, a 
lot of what we see around the world and even here what they try 
to do in the U.S. is about Vladimir Putin and trying to 
position himself as this great historic unifier of all of these 
different groups.
    You go back to 2014. They invaded Crimea. It was a high 
point in the public polling on his behalf because he built a 
sense of national unity around that, right? The argument to all 
these different groups within Russia that he was the one that 
they all faced the same threat from the West, and he was the 
one that was bringing them together.
    And you even see now in many of the things he is doing 
around the world that much of these policies and much of what 
he is doing is designed to remind people of the time when the 
Soviet Union vis-a-vis Russia were a great global power, and 
much of this is, as much as anything else, about distracting 
from the domestic problems that they face internally.
    Is that not a big, if not a significant, the significant 
driver of a lot of these things at the end of the day is a 
desire to address these internal things and rally everyone 
around this nationalistic sense of pride by distracting from 
the domestic policies and to portraying himself as an 
indispensable leader and Russia as a great power? Which they 
are not economically, but they can project power militarily and 
in smart and creative ways that allow him to pull off this 
charade.
    Ambassador Hale. Yes, Senator. You have said more 
eloquently what I tried to say in response to Senator Romney's 
question that precisely that, that this is a matter of Russia 
and Russia's leader trying to live up to a self-image as a 
global power and that much of that is in order to distract from 
the internal problems within Russia that they are experiencing.
    Senator Rubio. In that sense, I would imagine he deeply 
enjoys--not that we should not look into things or talk about 
and so forth. But it would be my sense that he greatly enjoys 
watching so much of American politics be about Vladimir Putin 
and consumed by it for the last 2 1/2 years. I mean, that 
certainly makes the argument, does it not?
    Ambassador Hale. It is consistent with what we know the 
Russians are trying to do through social media and other tools 
to divide our Nation.
    Senator Rubio. And the reason why I say that is not because 
I do not want us to focus on those issues. I am a member of the 
Intelligence Committee. We spent 2 years looking at it and 
talking about issues of what I thought was a very good 
bipartisan report, but I think we somehow have to figure out in 
this country how to do two things.
    On the one hand address these threats. I believe one of the 
things we need to do is pass the DETER Act, which would 
actually put in place sanctions that would kick in, if and when 
Russia were to do this again, because I do think Putin is a 
cost-benefit analyzer. He looks at the--cost-benefit player, 
and if the costs outweigh the benefits, it would most certainly 
affect him.
    But I also think we need to be conscious about or at least 
aware of these ongoing efforts. This is not a one-off effort on 
the part of the Russians via the efforts that Putin has put in. 
For example, this whole impeachment situation that is playing 
out nationally, and I do not expect you opine on it. But I will 
tell you that you can see, you can just stand back and watch 
how they are even using this as a way to sort of--the first 
thing they say is America is completely dysfunctional.
    The second argument is they are eroding trust in democracy, 
that it does not work, that I think they also view it as an 
opportunity to damage our relationship with Ukraine. And I 
think the goal ultimately, as I said, is to portray the U.S. as 
dysfunctional, to exacerbate our domestic tensions, which adds 
to that portrayal of dysfunctional, and also to argue that our 
system is corrupt.
    And I think it is as important as anything else. I think 
sometimes we get tunnel vision, and we think that this is about 
supporting one singular individual or what have you. This is 
much bigger than that, and this is going to be here long after 
any of us are gone.
    It is this effort to weaken us from the inside, get us to 
fight one another, and to point to us as dysfunctional, not 
working, coming apart at the seams. Because it also elevates 
him as a person who, in some ways, has this sly smile on his 
face every time he is blamed for it because it sort strengthens 
the argument that he is this big global player.
    That is my comment.
    The Chairman. Thank you, Senator Rubio. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Just a couple of things. I agree with my colleague and 
friend. The only thing I would say is that we harm ourselves 
more when we internally ultimately espouse the very essence of 
the Russia propaganda. That is, to me, one of the most 
detrimental elements of what has been happening.
    But Secretary Hale, on a different matter for the moment, I 
am alarmed to have learned today that Secretary Pompeo may be 
considering changing the way in which the State Operations 
Center places and participates in calls with foreign leaders. I 
am concerned about the lack of transparency and lack of 
recordkeeping that such a change may entail, in effect keeping 
the American public and Congress in the dark at a time when we 
know that the President, senior State Department officials, and 
others appear to be carrying out official U.S. Government 
foreign policy on personal cell phones.
    I am not looking for an answer from you today, but this 
committee needs to understand what changes are being proposed, 
how the Department will maintain full and complete records, and 
what the intent is behind what appears to be an effort to keep 
the American public, Congress, and others from knowing about or 
understanding our Government's communications with foreign 
leaders. And I urge you to bring this back to the Secretary 
because if there was ever a time that such an action would be 
disconcerting, it certainly is right now.
    Ambassador Hale. I am not aware of any proposed change to 
our policy. The Secretary is in London today, but I understand 
your concerns and questions. I will take it back to the 
Secretary of State, and we will get back to the committee.
    Senator Menendez. I appreciate that. Now very briefly, 
Secretary Ford, you know, you repeated something earlier in 
response to the chairman's first rounds of questions that 
detractors of New START repeatedly bring up, that Russia's new 
exotic nuclear systems and how the treaty may not constrain 
these systems are an issue.
    But you must be aware that Russia has already stated that 
two systems, the Sarmat ICBM and Avangard hypersonic glide 
vehicle, will fall under New START. Is that not true?
    Dr. Ford. I believe the Russians have said that, and 
hopefully, that, indeed, turns out to be the case. There would 
still be three systems then--the Burevestnik, the Poseidon, and 
I believe the Kinzhal--that would, of course, not be covered in 
that respect.
    Senator Menendez. Well, here is the thing. When we say 
that, in fact, you know, we cannot imagine that these new 
systems would not be covered, well, here is two already that 
the Russians themselves have agreed to cover. And if you do not 
explore in a negotiation what is willing to be covered, then I 
do not think you can dismiss it out of hand.
    Other, further reports indicate that other systems of 
concerns likely will not even reach deployment during the 
lifespan of New START, even if it is extended. So I join the 
echoes of concerns that several of my colleagues have said. 
First, on the China angle, China is dramatically under the U.S. 
ability in the nuclear arsenal. So seeking to include them 
creates a real dilemma in terms of what Senator Merkley 
obviously pointed out.
    And secondly, suggesting that Russian systems are a reason 
not to continue New START is also alarming, when we have seen 
that they have agreed to two and maybe, when pursued, might 
agree to others. So I would urge the administration looking at 
New START in a totally different way, and I think that even 
our--some of our allies have urged us to do so.
    Let me ask you something else. Egypt is reportedly planning 
to purchase Russian Sukhoi jets. Have you had meetings with the 
Egyptians to dissuade them from making this purchase?
    Dr. Ford. Well, Senator, I am not in a position to speak 
about any specific information we may or may not have about any 
particular potential Russian arms transactions. I can say that 
we have been very active----
    Senator Menendez. Well, I know about it. So I do not know 
why we are not talking about it. What is this big hush? It is 
out there in the public realm.
    Dr. Ford. But what I can say, sir, is that we have been 
very active around the world, including with partners, amongst 
them Egypt, making very clear that they--helping them 
understand the potential for CAATSA Section 231 sanctions 
exposure. I, myself, have had conversations making those points 
about the importance of the law and avoiding that exposure 
personally in Cairo, as well as elsewhere.
    These are the kinds of engagements that we have been, I 
think, very successful in having around the world and have been 
essential in our CAATSA diplomacy to turning off or dissuading 
billions of dollars' worth of already.
    Senator Menendez. I would like to get a--I would like to 
get a classified briefing if you are not going to answer in 
public on this and other items as to where it is that we are 
pursuing other entities in the world.
    Finally, my understanding is you have been given all the 
authorities of the Under Secretary for Arms Control and 
International Security. Is that correct?
    Dr. Ford. On the 21st of October, Secretary Pompeo 
delegated to me the authorities and responsibilities of that 
office, sir. Yes.
    Senator Menendez. Okay. Now here is an example. While you 
may be very capable of doing that, you have not been nominated 
for such a position. This appears to be another case of the 
State Department playing fast and loose with the rules in hopes 
that no one will notice.
    In order to do that, you should be nominated for the 
position. And if you were nominated, under the law, you would 
be allowed to serve in that role for only 210 days. So this is 
another concern I have for the State Department, acting in ways 
that seeks to circumvent the oversight and jurisdiction of this 
committee. It is not acceptable. It is not acceptable.
    Dr. Ford. I would say, Senator, that there is, of course, 
no intent to circumvent anything. What there is, is recognition 
of the importance of not having those important duties be 
gapped. I am filling in until----
    Senator Menendez. Oh, I agree with you. Nominate somebody. 
Nominate somebody. But at the end of the day, do not circumvent 
the committee.
    I mean, you all think that we are asleep at the switch 
here. We are not. We are not.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. We have a couple of minutes left 
on the vote, but Senator Cardin, did you want another?
    Senator Cardin. Yes, thank you very much. That is right. We 
did start a vote.
    Fortunately, the floor tolerance on votes seems to be 
pretty extensive. As long as the chairman stays here, I know I 
am safe.
    The Chairman. We have another important matter. That is the 
picture of the committee.
    Senator Cardin. Yes. I will try to make this as quick as I 
can. I want to get to Russia's intentions in regards to 
Ukraine. We know the occupation of Crimea, what is happening in 
Eastern Ukraine falls into Russia's playbook to seed disunity 
in Europe, to prevent Ukraine from fully integrating or even 
applying for NATO membership. We know that.
    We also know that--and we have had many questions on this 
during this hearing--that the press accounts of Ukraine being 
involved in our election, which has been stoked by some 
individuals, works into Russia's playbook, even though there 
are no facts at all from any of the security people, the 
Intelligence Committee, diplomacy, that Ukraine was involved at 
all in the 2016 elections.
    I want to get to how we are proceeding with the peace 
talks. We first had Minsk, the Minsk Protocols, and Russia was 
very excited about that but just never complied with it. So I 
am not sure exactly what their intentions are.
    We now have the Steinmeyer formation, and I would like to 
get from Secretary Hale your thoughts about how we are 
proceeding. Is Russia winning this debate on how we are going 
to resolve the conflict in Ukraine by developing a formula that 
will ignore the occupation of Crimea and establish semi-
autonomy for Eastern Ukraine, but still keeping Ukraine a 
divided country? Is that where we are heading? What is going on 
in this process?
    Ambassador Hale. We are united with our allies in Europe 
and, of course, with the leadership in Ukraine to get the 
Russians out of Ukraine. Crimea is part of Ukraine. Eastern 
Ukraine is part of Ukraine. So that is the objective, and we 
call for the immediate end to this occupation.
    Now our focus--there are several initiatives, as you have 
said, and it is good that the Normandy process is resuming 
after a long period where there was really nothing happening. 
We will see what comes of that meeting on the 9th of December. 
I do not want to predict something that has not fully formed 
yet.
    But we have also seen that President Zelensky has, with 
some success, been able to engage in dialogue with the Russians 
to at least reduce the tension. But we need to see much more on 
the security front prior to any political activities related to 
Minsk, and that gets to the heart of the issue of the 
occupation.
    Senator Cardin. And as it relates to the Steinmeyer 
formulation that was recently released, it looks like Ukraine 
is following that. Russia seems to be excited about it, at 
least from what we have been told. Are we assured that we are 
not going to end up with some type of legitimacy of Russia and 
Crimea?
    Ambassador Hale. We will never accept that.
    Senator Cardin. Well, that is pretty definitive. I 
appreciate that. I think you have a lot of support here in 
Congress for that position. Obviously, we would like to ease 
the tensions wherever we can. So that is certainly a positive 
step.
    But as we have seen, Russia does not play by any organized 
playbook of fairness on each side. Their objective is to keep 
us divided. So it is hard for us to imagine that they are going 
to follow any process that does not extend the division of 
Ukraine.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Thank you to both of our witnesses. We sincerely appreciate 
your service to the country and appreciate your testimony here 
today.
    I will be entering some supplemental materials for the 
record as well for the information of the members. The record 
will remain open until the close of business Friday. If the 
witnesses could respond rapidly to questions, we would greatly 
appreciate it.
    [The information referred to is located at the end of the 
hearing]
    With that, the committee is adjourned.
    [Whereupon, AT 12:04 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Responses of Hon. David Hale to Questions 
                  Submitted by Senator Robert Menendez


                         NORMANDY FORMAT TALKS

    Question. The next round of Normandy negotiations will take 
place next week. Who is the lead within our government on 
ensuring full implementation of the Minsk agreements? In the 
past, we have had senior officials from Assistant Secretary 
Victoria Nuland to Ambassador Kurt Volker fulfill that role. 
How many trips has that lead made to Paris, Berlin, Kyiv or 
Moscow to implement the agreement? How many times has that lead 
met or communicated with Russian negotiator Vladislav Surkov? 
How many times has that lead met with Russian negotiator Dmitry 
Kozak?

    Answer. EUR Acting Assistant Secretary of State Reeker 
visited Kyiv on December 4 and spoke with Ukrainian, French, 
and German officials in the days prior to the Normandy format 
Summit in Paris on December 9. Under Secretary Hale and Acting 
Assistant Secretary Reeker also spoke with Ukrainian, French, 
and German officials after the summit.
    Our engagement with Russia depends on Moscow's readiness to 
engage constructively and fully uphold its Minsk agreements 
obligations. AA/S Reeker met with Russian officials in Moscow 
in September, including Deputy FM Ryabkov. We look forward to 
the arrival of former Deputy Secretary Sullivan in Moscow later 
this month to begin his tenure as U.S. ambassador to Russia.

                     BORIS NEMTSOV'S ASSASSINATION

    On February 27, 2015, Russian opposition leader Boris 
Nemtsov was gunned down on a bridge in front of the Kremlin. 
Nearly 5 years on, the organizers and masterminds of his 
assassination remain unidentified and unindicted. In June, the 
Senate unanimously passed S. Res. 81 that ``condemns Vladimir 
Putin and his regime for targeting political opponents and 
working to cover up the assassination of Boris Nemtsov'' and 
``urges the United States Government, in all its interactions 
with the Government of the Russian Federation, to raise the 
case of the assassination of Boris Nemtsov and underscore the 
necessity of bringing the organizers and masterminds to 
justice:"

    Question. What is the U.S. Government currently doing to 
advance this goal?

    Answer. Since Boris Nemtsov's assassination, the Department 
has been outspoken in calling for justice, both in public and 
in private, bilaterally and in multilateral settings. We 
continue to make statements commemorating his tragic death and 
honoring his legacy. Department officials took part in the 2018 
dedication ceremony of Boris Nemtsov Plaza in Washington, make 
visits to the site of his murder to lay flowers, and continue 
to meet with his family and colleagues to express our support 
and commitment to the ideals to which Nemtsov dedicated his 
life.
    Unfortunately, despite international pressure, the Russian 
government has failed to conduct an objective investigation 
into the killing. As we made clear at the time that Russia 
convicted five low-level operatives for carrying out the crime, 
we will not consider justice to be done until all those who are 
responsible for it, including those who organized and ordered 
it, are identified and held to account. In May 2019, the U.S. 
government imposed sanctions under the Russia Magnitsky program 
on Ruslan Geremeyev, an officer in the Chechen Ministry of 
Interior, for his role in organizing Nemtsov's murder. We were 
saddened to use the very law for which Nemtsov lobbied so 
strongly in life to impose sanctions on those responsible for 
his death, but believe this step sent a strong message to 
Russia about the need for justice.

                     POLITICAL PRISONERS IN RUSSIA

    According to the Memorial Human Rights Center, Russia's 
most respected human rights organization, there are currently 
318 political prisoners in the Russian Federation. They include 
journalists, opposition activists, peaceful demonstrators, 
adherents of prohibited religious groups such as Jehovah's 
Witnesses, and members of ``undesirable'' political 
organizations such as Open Russia. According to Memorial, in 
the last 4 years the number of political prisoners in Russia 
has increased five-fold. Politically motivated incarceration 
violates Russia's obligations under the OSCE, and is thus of 
legitimate concern to the United States as a fellow OSCE 
member:

    Question. What is the U.S. Government doing to advocate for 
Russia's political prisoners and push for their release?

    Answer. The Department fully shares your concern about the 
troubling growth in the number of political prisoners in the 
Russian Federation. We routinely highlight this problem in 
public messaging and in multilateral fora, including at the 
OSCE. We engage bilaterally with the Russian government to urge 
the release of individual prisoners of concern, and frequently 
highlight such cases on social media. We have been supportive 
of the diplomatic efforts that have led to the release of 
Ukrainian political prisoners held by Russia through prisoner 
exchanges. Whenever feasible, Embassy Moscow observes the 
trials of political prisoners. When legal thresholds are met, 
we have used sanctions to respond to reports of abuses against 
political prisoners. For example, in May 2019, the Treasury 
Department imposed sanctions under the Russia Magnitsky program 
on the head of a prison colony for his role in the torture of 
Ildar Dadin, an activist jailed for participation in peaceful 
demonstrations.
    Approximately 75% of those on Memorial's list have been 
jailed for their exercise of religious freedom. This was one 
weighty factor that led the Department to place Russia on the 
``Special Watch List'' of severe violators of religious freedom 
in both 2018 and 2019.

               SOLICITING INVESTIGATIONS BY FOREIGN POWER

    Question. Is it ever appropriate for the President to use 
his office to solicit investigations by a foreign power into a 
domestic political opponent?

    Answer. That is not what I would advise.

              AMBASSADOR YOVANOVITCH/SUPPORT FOR PERSONNEL

    Earlier this year, a respected Ambassador--one who you said 
was doing an ``exceptional job,'' was subjected to a baseless 
smear campaign, and asked for her Department's help in 
defending her. It did nothing, and she was recalled (even after 
you personally asked her to extend her stay in Ukraine). When 
the President referred to her as ``bad news,'' the Department 
still did nothing. Before that, multiple employees from a 
bureau--one that you oversee--reported that they had been 
targeted for perceived political beliefs and ethnicity. Yet, 
the Department took no action. In recent weeks, a number of 
Department officials, yourself included, have testified before 
the House. Many have faced bullying, smears, and worse, 
including by the President. Yet, the Department has said 
nothing:

    Question. Has the Department done enough to stand up for 
career Department personnel?

    Answer. The Department has no greater resource than our 
people, the more than 75,000 career employees, Foreign Service, 
Civil Service, and Locally Employed Staff who work domestically 
and abroad to advance America's foreign policy goals. The 
Department takes seriously any allegations of mistreatment of 
Department employees and provides a range of resources to 
address such misconduct.

    Question. How do you explain the Department's silence to 
date in defending Ambassador Yovanovitch?

    Answer. I, along with other senior Department officials, 
have publically supported Ambassador Yovanovitch.

    Question. Does the Department's failure to issue a public 
statement of support for Ambassador Yovanovitch trouble you?

    Answer. I, along with other senior Department officials, 
have publically supported Ambassador Yovanovitch.

    Question. In your personal opinion, how have the attacks on 
Department personnel affected morale?

    Answer. The Department is a large organization and as has 
been consistent since the Department's establishment, there are 
a range of views that represent the diversity of our employees. 
I am continually impressed and inspired by the men and women of 
the State Department who come to work every day in Washington 
and across the world and apolitically carry out America's 
foreign policy and advance our national security objectives. As 
always, we are focused on our work and getting the job done.

    Question. What message does the Department's failure to 
hold perpetrators of political retaliation and targeting fully 
accountable send to employees?

    Answer. The events that occurred in the Bureau of 
International Organizations (IO) were completely unacceptable 
and negatively affected the morale in a vital bureau. Bureau 
leaders cited by the OIG report have since left, and we are 
working to reestablish trust and accountability within IO. I 
have held several meetings with IO employees to hear their 
concerns, solicit their feedback, and preview our corrective 
action plan. That action plan is being implemented. I am 
personally exercising greater oversight over IO's work and 
personnel selections until that trust and accountability has 
been restored.

    Question. As you know, I wrote Secretary Sullivan and Under 
Secretary Bulatao expressing my concern about retaliation 
against Department employees who have testified before Congress 
as part of the House impeachment inquiry. What are you doing, 
personally, to ensure that employees are not subject to any 
adverse action? (I am aware of Undersecretary Bulatao's 
response; I would like to hear what you will do).

    Answer. I have provided the text of Under Secretary 
Bulatao's letter to the regional Assistant Secretaries under my 
chain of command and instructed them to ensure that all the 
employees are aware of the laws and policies regarding 
prohibited personnel practices and that they understand how to 
report suspected violations.

                         SHADOW UKRAINE POLICY

    Question. Sondland testified that as late as September 24, 
2019, Secretary Pompeo was directing Kurt Volker to speak with 
Giuliani. Did you think this was appropriate?

    Answer. I had no knowledge of these activities, and 
therefore no basis to judge.

    Question. Sondland testified that he kept the senior 
leadership of the State Department and the NSC about his 
communications and dealings with Giuliani, which included 
specific mentions of the 206 election and Burisma as ``topics 
of importance to the President.'' What did you know about a 
shadow Ukraine policy being carried out Rudy Giuliani? Did it 
concern you? Did you think it was appropriate? What did you do 
to stop it?

    Answer. I had no knowledge of these activities.

    Question. Are you aware of Rudy Giuliani playing any role 
in any other area of U.S. foreign policy beyond Ukraine?

    Answer. I have no personal knowledge of any such role.

    Question. Are you aware of any ``unofficial'' diplomatic 
channels beyond Ukraine? If so, what?

    Answer. I have no personal knowledge of any such channels.

                              RETALIATION

    In August 2019, the State Department Inspector General 
found that Ambassador Moley made ``inappropriate accusations of 
disloyalty'' to career employees. Ambassador McKinley testified 
that the Department's failure to remove Assistant Secretary 
Moley after those findings had an adverse impact on morale at 
the Department:

    Question. Do you agree with Ambassador McKinely's 
assessment that the Department's failure to take any action 
against Ambassador Moley had a negative effect on morale?

    Answer. The events that occurred in the Bureau of 
International Organizations (IO) were unacceptable and 
negatively affected morale in the bureau. Bureau leaders cited 
by the OIG report have since left the Department, and we are 
working hard to reestablish trust and accountability in the 
bureau.

    Question. What do you think the Department could have done 
differently or better?

    Answer. I have held several meetings with IO employees to 
hear their concerns, solicit feedback, and discuss our 
corrective action plan. That plan aims to prevent a similar 
situation in the future by improving communication within the 
bureau, training staff on available resources to report poor 
behavior, and increasing engagement with my office. The plan is 
being implemented, and I am personally exercising greater 
oversight over IO's work and personnel selections until that 
trust and accountability can be restored.

    Question. What steps are you personally taking to ensure 
that political retaliation does not take place in the future?

    Answer. The Department takes allegations of retaliation 
seriously. I have communicated the Department's policies on 
retaliation to the leadership of the bureaus under my chain of 
command to ensure all employees fully understand the laws and 
policies on prohibited personnel practices and that they know 
where to report suspected violations.

    Question. What additional steps can the Department take to 
ensure employees remain free from any political retaliation?

    Answer. The Department, in coordination with the Office of 
the Inspector General's Whistleblower Protection Coordinator, 
works diligently to ensure employees are aware of their rights 
under the Whistleblower Protection Act, as well as to ensure 
accountability for any documented retaliation. The Under 
Secretary for Management, Director General, and others are 
examining additional avenues to educate and inform employees 
about their rights and to ensure managers are equipped to 
address any suspected violations.

    Question. How would you characterize the morale in IO and 
the Department at large after the publication of the IG's 
August 2019 report? Has the morale improved?

    Answer. As in any large organization, Department of State 
employees reflect a variety of views and opinions about the 
state of the organization. Department leadership is committed 
to maintaining employee satisfaction, and we take seriously any 
allegations of prohibited personnel practices, including 
politically-motivated retaliation against Department employees. 
The events that occurred in IO negatively affected morale in 
that bureau, and we are taking steps to rectify the situation. 
Our corrective action plan aims to improve communication within 
the bureau, train staff on available resources to report poor 
behavior, and increase engagement with my office.

    Question. What are you doing to ensure that employees in IO 
are treated properly and feel free to raise concerns with 
senior officials?

    Answer. Bureau leaders cited by the OIG report have since 
left the Department, and we continue to reestablish trust and 
accountability within the bureau. I have held several meetings 
with IO employees to hear their concerns, solicit their 
feedback, and discuss our corrective action plan. I have also 
invited employees to meet me individually to discuss any 
concerns privately. I am personally exercising greater 
oversight over IO's work and personnel selections until that 
trust and accountability have been restored.
                              ----------                              


             Responses of Christopher A. Ford to Questions 
                  Submitted by Senator Robert Menendez


                  SERBIAN PURCHASES OF RUSSIAN WEAPONS

    Question. Serbia has reportedly purchased a Russian Pantsir 
system, and I understand that the State Department sent a team 
to Belgrade to discuss this purchase. Can you please share the 
details of those conversations? Is this purchase a significant 
transaction?

    Answer. On November 8, 2019, the Department of State sent 
the Director of the Bureau of International Security and 
Nonproliferation's Task Force 231, which leads U.S. 
implementation of Section 231 of the Countering America's 
Adversaries Through Sanctions Act (CAATSA 231), to meet with 
senior officials from the Serbian government, including the 
Ministers of Foreign Affairs, Defense, and Finance. The visit 
is an example of the consultations the Department conducts with 
U.S. partner and allied governments around the world regarding 
the implementation of CAATSA Section 231. The discussions were 
intended to ensure clarity about the need for full 
implementation of CAATSA 231 with respect to any Serbian 
transactions with Russia's defense or intelligence sectors. The 
United States welcomes the Serbian government's pledge of 
increased transparency and looks forward to close cooperation 
with regard to Serbia's intentions and activities.
    The Secretary of State has made no determination pursuant 
to CAATSA Section 231 with respect to any transaction between 
Serbian entities or individuals and Russia's defense or 
intelligence sectors, and we cannot pre-judge sanctions 
determinations.

    Question. I also understand that earlier this month the 
Serbian military took delivery of four Mi-35Ma multi-role 
combat helicopters from Russia. What conversations has State 
had with the Serbians regarding this transaction? How much did 
Serbia pay for these helicopters? Is this delivery a 
significant transaction?

    Answer. The United States has encouraged all its partners 
and allies, including Serbia, to avoid transactions for new 
weapons systems, such as combat helicopters, from Russia's 
defense sector, due to the risk of possible sanctions under 
Section 231 of the Countering America's Adversaries Through 
Sanctions Act (CAATSA 231).
    The Secretary of State has made no determination pursuant 
to CAATSA Section 231 with respect to any transaction between 
Serbian entities or individuals and Russia's defense or 
intelligence sectors, and we cannot pre-judge sanctions 
determinations. Serbia has not publicly confirmed the financial 
or other terms of the procurement deal for the Mi-35s.

    Question. If sanctions are not imposed over these 
purchases, aren't you concerned that Russia will only deepen 
its ties in Serbia?

    Answer. The Department of State has encouraged all its 
partners and allies to avoid transactions for new weapons 
systems with Russia, due to the risk of possible sanctions 
under CAATSA Section 231 and the increased dependency upon 
Russia that such transactions foster. Our goal in fully 
implementing the law is to deter transactions that would 
otherwise generate revenue, access, and influence for the 
Russian government. As a result of our engagements, we have 
deterred or delayed billions of dollars in potential Russian 
arms sales worldwide while thus far only imposing CAATSA 
Section 231 sanctions once--on China's main military 
procurement entity, the Equipment Development Department, and 
its director, Li Shangfu, in September 2018.
    We encourage the Government of Serbia to acknowledge the 
value of its partnerships with both NATO and the United States, 
and note that on December 3, 2019, Serbian President Vucic 
publicly stated that Serbia's armed forces would ``stop buying 
weapons'' from any supplier.

    Question. According to the administration, what is the 
current status of the Open Skies Treaty?

    Answer. The United States continues to implement the Treaty 
on Open Skies, and we are in full compliance with our 
obligations under the treaty, unlike Russia. The United States 
remains committed to effective arms control that advances U.S., 
allied, and partner security; is verifiable and enforceable; 
and includes partners the comply responsibly with their 
obligations. We will continue to approach the Treaty on Open 
Skies from that perspective.

    Question. Have you consulted with our allies about the 
future of the Open Skies Treaty? Do our allies believe they 
gain militarily valuable information from Open Skies flights?

    Answer. The United States regularly consults with Allies on 
the Treaty on Open Skies. A number of Allies have told us they 
value the Treaty and view it as a key confidence-building 
instrument, including for gathering information on Russian 
military formations and troop deployments. We continue to work 
with our Allies and partners on all compliance and 
implementation issues related to the Treaty on Open Skies.

    Question. Is it true that the sensors of Open Skies 
aircraft are carefully limited in the resolution of the visual 
information they can acquire? And that the United States 
certifies every sensor Russia uses on its Open Skies flights? 
Is it true that Russia has satellites with higher degrees of 
resolutions that Open Skies aircraft?

    Answer. Article IV, paragraph 1 of the Treaty on Open Skies 
provides for four different categories of sensors (optical 
panoramic and framing cameras, video cameras with real-time 
display, infrared line-scanning devices, and synthetic aperture 
radar). However, in accordance with Article IV, paragraph 11, 
no sensor may be used on an Open Skies observation mission 
without first being certified. The certification process, in 
which every State Party has a right to participate, is 
described in Annex D to the Treaty. To date, only optical 
panoramic and framing cameras and video cameras with real-time 
display have ever been certified for use on Open Skies 
missions.
    Article IV, paragraph 2 of the Treaty limits the ground 
resolution for optical and video cameras to no better than 30 
centimeters. An important purpose of the certification process 
is verification that the sensor complies with the Treaty-
mandated resolution limit. Once a sensor has been certified, it 
may be used on Open Skies missions, subject to pre-flight 
inspections before each mission to confirm that the observation 
aircraft, its sensors, and associated equipment correspond to 
those certified.

    Question. Is it true that Russia has to share all of the 
information they gather on Open Skies flights with the United 
States and all other treaty parties?

    Answer. Yes. Article IX, Section IV of the Treaty on Open 
Skies requires that imagery collected by sensors during Open 
Skies observation flights be made available to all States Party 
upon request.

    Question. During our Open Skies flights over Russia, do the 
United States and our allies gather information on Russia's 
military infrastructure, nuclear testing facilities, military 
bases, conventional and nuclear forces?

    Answer. The Department of State refers all questions on 
imagery collection to the Intelligence Community.

    Question. How many missions over Russia did the United 
States and our allies conduct in 2019? How many flights did 
Russia conduct over the United States in 2019?

    Answer. The United States, alone or with a partner, 
conducted 15 Open Skies observation missions over Russia in 
2019. Our Allies and partners overflew Russia an additional 15 
times. Russia overflew the United States eight times in 2019.

    Question. Do you believe it is in the security interests of 
the United States to remain party to the Open Skies Treaty?

    Answer. The United States has not withdrawn from the Treaty 
on Open Skies; we are in full compliance with our obligations 
under the Treaty, unlike Russia. The United States remains 
committed to arms control efforts that advance U.S., Allied, 
and partner security, are verifiable and enforceable, and 
include partners that comply responsibly with their 
obligations.
                              ----------                              


                 Responses of David Hale to Questions 
                Submitted by Senator Benjamin L. Cardin


                           ELECTION SECURITY

    In July 2019, FBI Director Christopher Wray told the Senate 
Judiciary Committee that ``the Russians are absolutely intent 
on trying to interfere with our elections,'' and in October 
2019, Facebook reported that it removed a Russia-based network 
of Facebook and Instagram accounts (together with three Iran-
based networks) engaged in a disinformation campaign targeting 
U.S. presidential candidates. Former DNI Dan Coats said that 
Russia, among other nations, is ``increasingly using 
cyberoperations to threaten both minds and machine in an 
expanding number of ways--to steal information and to influence 
our citizens.'' Former Special Counsel Robert Mueller found in 
his recent report that Russia interfered in a ``sweeping and 
systematic fashion'' in our 2016 presidential election:

    Question. Do you agree with these assessments from the FBI, 
DNI, and Special Counsel?

    Answer. I agree with the intelligence community's 
assessment that Putin ordered an influence campaign in 2016 
aimed at the U.S. presidential election; one of the objectives 
of Russia's influence campaign was to erode faith in U.S. 
democratic institutions. I also agree with the DNI statement in 
December 2018 that while there was no evidence that U.S. 
election infrastructure was targeted in the 2018 midterms, the 
intelligence community saw Russia conduct influence activities 
and messaging campaigns targeted at the United States to 
promote their strategic interests. I anticipate that Russia 
will continue to try to promote Moscow's strategic interests, 
stoke internal division, and erode faith in U.S. democratic 
institutions in the lead up to the 2020 elections.

    Question. Is the United States government doing enough to 
deter and prevent Russian election interference in the United 
States or elsewhere? What specific steps would you additionally 
take to deter Russian interference?

    Answer. The administration is working on a whole-of-
government basis--together with an integrated public-private 
coalition--to ensure the security of America's elections. This 
administration has imposed serious sanctions on Russia for 
prior attempts at election interference, including a new round 
of sanctions in September 2019. I have been clear with Russian 
officials that there will be serious consequences should Russia 
or its proxies attempt to interfere in our electoral processes 
again. The Department will continue to emphasize to Moscow that 
Russia will meet swift costs for attempts to interfere in 
democratic processes.

    Question. What are Russia's objectives in seeking to 
interfere in the 2020 U.S. presidential election?

    Answer. I anticipate that Russia will continue to try to 
promote Moscow's strategic interests, stoke internal division, 
and erode faith in U.S. democratic institutions in the lead up 
to the 2020 elections.

                   ELECTION SECURITY AND LEGISLATION

    Last summer, we became aware that a Russian oligarch close 
to Vladimir Putin became the largest investor in a fund tied to 
the company that hosts Maryland's statewide voter registration, 
candidacy, and election management system; the online voter 
registration system; online ballot delivery system; and the 
unofficial election night results website. The disclosure to 
state officials of this change in ownership was made by the FBI 
and not the company itself. This is why Senators Klobuchar, Van 
Hollen, and I introduced the Election Systems Integrity Act 
(ESIA) (S. 3572), which would require disclosure of foreign 
ownership of election service providers.
    In 2016, accounts tied to Russia circulated misinformation 
targeted to African American groups. The messages contained 
incorrect information about voting, and were designed to sow 
division. Senator Klobuchar and I have also introduced the 
Deceptive Practices and Voter Intimidation Prevention Act (S. 
1834) which, among other actions, addresses the use of digital 
platforms to disseminate false information regarding federal 
elections to U.S. voters:

    Question. Do you believe this legislation would help 
prevent Russian interference in the 2020 election?

    Answer. The Department appreciates the critical goals of 
protecting U.S. elections from foreign interference and 
deterring malign disinformation campaigns. As a practical 
matter, the administration, with the help of Congress, already 
has ample authorities to address malign Russian behavior, 
including EO 13848 (Imposing Certain Sanctions in the Event of 
Foreign Interference in a United States election), EO 13694, as 
amended by EO 13757, which targets malign cyber-enabled 
activities, and CAATSA, which targets a range of Russian 
conduct. The administration appreciates Congress providing this 
authority.

    Question. Will you commit to review both the ESIA and the 
Deceptive Practices and Voter Intimidation Prevention Act?

    Answer. Yes, I commit to reviewing the ESIA and Deceptive 
Practices and Voter Intimidation Prevention Act.

                               CORRUPTION

    Russia uses transnational corruption networks to influence 
politicians, gain access to elite circles, and produce foreign 
policy outcomes advantageous to both Russia and its 
authoritarian model. This system uses ill-gotten gains to exert 
foreign influence. Sergei Magnitsky's murder is just one 
example of the measures Putin will take to ensure his corrupt 
regime thrives.

    Question. How can the United States combat this 
weaponization of corruption? How can we be more proactive in 
engaging in anti-corruption diplomacy?

    Answer. Our response to Russia's export of corruption to 
achieve its political objectives continues to be rooted in 
democratic principles of transparency, accountability, and 
integrity. We will proactively identify and publicly address 
Russian corruption and speedily impose sanctions on corrupt 
foreign officials and agents working on behalf of or aligned 
with Russia. We will also continue to work with our allies to 
press Russia to uphold its anticorruption obligations and 
defend against attempts by Russia to distort the international 
anticorruption framework. We will use all the tools of 
diplomacy, including foreign assistance, to insulate our 
partners from all avenues of Russia's malign influence.

    Question. Corrupt Russian officials go about conducting all 
manner of malfeasance to protect their interests, twist the 
system of governance to their will, and silence rivals, 
dissidents, activists, journalists, and others who might expose 
their wrongdoing. They achieve this through a combination of 
reputation laundering and transnational repression, such 
abusive red notices at INTERPOL, defamation lawsuits meant to 
bankrupt their target, or plain old assassination. How can the 
United States counter these two aspects of Russian foreign 
policy?

    Answer. As a democratic country that values freedom of 
speech, we must continue to respond quickly and publicly to 
Russian officials' misuse of legitimate institutions to silence 
their political critics. The U.S. government will continue to 
work with allies and partners to quickly identify and address 
these abuses by corrupt Russian officials. We also will 
continue to coordinate with allies and partners to push back 
against Russia's attempts to undermine or abuse the 
international framework to combat corruption. One example of 
progress to this end is INTERPOL's reforms allowing for a legal 
review of red notices prior to publication.

    Question. How can the United States and our allies work to 
diminish our roles as safe havens for Russian illicit wealth? 
How can we cease to be a complicit element of authoritarian 
kleptocracy?

    Answer. The U.S. government will continue its whole-of-
government approach--in addition to its combined efforts with 
allies and partners--to identify Russian individuals and 
corporations who attempt to obfuscate their identity and 
nationality to bring money into the United States illegally and 
take measures to prevent them from doing so.

                        RUSSIAN INFLUENCE ABROAD

    With a GDP slightly smaller than that of the state of New 
York, Russia seeks to play an outsize role in influencing world 
affairs to its strategic and economic advantage. Putin's 
interference since 2015 has permitted Bashar al-Asad's regime 
to maintain its stranglehold on Syria, sought to drive a wedge 
between the United States and its NATO ally Turkey, undermined 
U.S. influence in Latin America, and promulgated an African 
agenda based on weapons sales, securing contracts for energy 
and mineral rights, and helping to conduct disinformation 
campaigns to benefit dictatorial regimes sympathetic to Russian 
priorities.

    Question. What is the U.S. position on current Russian 
activities in Syria?

    Answer. Russia has unique influence over the Asad regime 
due to the political and military support it provides, and 
Russia could do more to promote resolution of the conflict 
pursuant to UNSCR 2254. Many of Russia's activities in Syria 
are destabilizing. Russia continues to provide military support 
for the Asad regime's offensive against the last rebel-held 
enclave of Idlib--which has killed and displaced countless 
civilians--despite international condemnation. Russia also 
provides political support to the regime at the U.N. and other 
venues, which shields the regime from criticism that it is not 
making progress on the political process and prevents it from 
being held accountable for its chemical weapons use.

    Question. How does the withdrawal of U.S. forces from Syria 
affect Russia's military and diplomatic role in Syria and the 
broader Middle East?

    Answer. The United States continues to work with partners 
and allies in the region to counter Russian influence. We have 
used and will continue to use our diplomatic and economic 
leverage to ensure that Russia cannot single-handedly dictate 
Syria's future. We will apply careful diplomacy with the 
Russians, back by economic tools and broadly supported 
international pressure on Assad, to leverage Russian influence 
on the Assad regime to not only seek a lasting negotiated 
political solution through UNSCR 2254, but also to cease its 
indiscriminate bombing of civilian targets in Idlib. At the 
same time, there are limited areas where we can work with 
Russia to advance U.S. priorities. One example is de-
confliction mechanisms, which have enabled both U.S. and 
Russian forces to conduct D-ISIS operations without creating 
unnecessary risk of unintended incidents.

    Question. What is your assessment of Russian objectives in 
expanding its military, economic, and diplomatic activity 
worldwide, including in places like Venezuela, Libya, and the 
Central African Republic?

    Answer. President Putin aims to restore Russia to what he 
views as great power status, by offering an alternative to the 
U.S.-led international order. As part of this effort, Russia 
supports regimes whose sovereignty the Kremlin perceives is 
threatened by the west. In addition, Russia presents itself as 
a geopolitical alternative to the west, unconstrained by 
international norms or values, including human rights. Putin's 
Russia offers military and economic support to beleaguered 
regimes, including the illegitimate Maduro regime in Venezuela. 
Russia also deploys mercenary forces in conflicts around the 
world, including in Libya and the Central African Republic, to 
undermine western efforts toward a political solution, and to 
secure special security and economic privileges for Russia or 
Kremlin-associated oligarchs.

                    NOTIFICATION OF AL-BAGHDADI RAID

    Before the 2011 raid in Pakistan that killed al-Qaida 
leader Osama bin Laden, the Obama administration gave advance 
word to the top two Democrats and Republicans in the House and 
Senate, as well as the four leaders of the congressional 
intelligence committees. Before the raid in October that led to 
the death of ISIS leader Abu Bakr al-Baghdadi, Trump did not 
notify congressional leadership of the impending raid, but did 
alert Russian authorities about a planned operation--U.S. 
military aircraft reportedly overflew parts of Syria under 
Russian operational control en route to the target site. Trump 
later expanded on his decision to alert Russia to the impending 
operation: ``[The Russians] were very cooperative . . . we did 
say it was a mission that they'd like too. Because, you know, 
again, they hate ISIS as much as we do:''

    Question. How are we to interpret remarks by the President 
suggesting that Russia harbors a greater animus toward ISIS 
than do members of the Democratic Party?

    Answer. I refer you to the White House for clarification on 
the President's remarks.

    Question. President Trump's notification to Russia before 
the Baghdadi raid echoes the troubling 2017 incident during 
which he invited the Russian Ambassador and Foreign Minister 
into the oval office with a photographer from a Russian news 
agency. Is the State Department actively pushing back on the 
administration's tendency to grant more permissive access to 
Russian government officials than U.S. elected officials with 
whom he disagrees?

    Answer. The State Department seeks to fully coordinate with 
Congress on matters of foreign policy, when possible and 
appropriate. For questions related to the President's 
communications with Russia, I refer you to the White House.

                                UKRAINE

    On October 1, 2019, the Ukrainian government said that it 
agreed to implement the so-called ``Steinmeier formula,'' a 
refinement of the Minsk Protocols that would provide for 
internationally-monitored and approved elections in Russian-
controlled territories in eastern Ukraine in exchange for 
granting them ``special status.''

    Question. What are Russia's aims in agreeing to the 
Steinmeier formula? What is the U.S. position regarding the 
``Steinmeier formula?''

    Answer. The United States supports efforts to achieve a 
diplomatic solution to the conflict in eastern Ukraine that 
restores Ukrainian sovereignty and territorial integrity. In 
late 2019, President Zelenskyy agreed to the so-called 
Steinmeier formula, one of Russia's preconditions for the 
December meeting of the Normandy Quartet leaders. The 
Steinmeier Formula--named after former German FM Steinmeier who 
first proposed it--stipulates the terms of initiating ``special 
status'' for certain districts in Donetsk and Luhansk oblasts 
currently controlled by Russia-led forces ahead of local 
elections. It also stipulates the ``special status'' would 
become permanent if approved through elections deemed ``free 
and fair'' according to OSCE/ODIHR standards. The Steinmeier 
Formula thus complements, but does not alter, Russia's security 
obligations under the Minsk agreements, which should be met 
prior to local elections taking place.
    As part of the 2014-15 Minsk agreements, Russia must 
withdraw its forces and all heavy weapons, disband and end its 
support to illegal armed formations on Ukraine's territory, and 
reinstate Ukraine's full control of its international border. 
The United States continues to emphasize that the 
implementation of political measures, such as local elections 
and special status, discussed in the Minsk agreements is only 
possible after there is security on the ground.

    Question. With the resignation of U.S. Special 
Representative Kurt Volker, what is the status of U.S. 
engagement in the conflict resolution process?

    Answer. The Department of State is actively engaged in 
finding a diplomatic solution to the conflict in the Donbas. As 
the Secretary reiterated in his January 31 visit to Ukraine, 
the United States' support for Ukraine's sovereignty and 
territorial integrity is ironclad. We will never recognize 
Russia's occupation and attempted annexation of Crimea. EUR 
Acting Assistant Secretary of State Reeker coordinates with 
French and German counterparts to support Ukraine in the 
Normandy Process and maintain pressure on Russia to implement 
the commitments it signed onto in the Minsk agreements. Under 
Secretary Hale also engages key U.S. allies and partners on the 
peace process.

    Question. How do you assess Russia's views of the new 
government in Ukraine and its objectives in Ukraine?

    Answer. Despite some positive developments in the Ukraine-
Russia relationship in 2019, including the first ``Normandy 
Format'' summit since 2016 and two exchanges of prisoners, 
Russia's attempts to undermine Ukraine's sovereignty and 
territorial integrity continue. Five years on, Russia has yet 
to implement any of its security obligations under the Minsk 
agreements and has not reciprocated Ukraine's commitment to 
decrease violence and improve humanitarian conditions for 
persons living on both sides of the Line of Contact. Russia 
continues to militarize the Crimean peninsula, oppress ethnic 
Crimean Tatars and other Crimean residents who remain loyal to 
Ukraine, and refuses to discuss Crimea's return to Ukrainian 
sovereignty.

    Question. How does the withdrawal of U.S. forces from Syria 
affect Russia's military and diplomatic role in Syria and the 
broader Middle East?

    Answer. The United States continues to work with partners 
and allies in the region to counter Russian influence. We have 
used and will continue to use our diplomatic and economic 
leverage to ensure that Russia cannot single-handedly dictate 
Syria's future. We will apply careful diplomacy with the 
Russians, backed by economic tools and international pressure 
on Assad, to leverage Russian influence on the Asad regime to 
not only seek a lasting negotiated political solution through 
UNSCR 2254, but also to cease its indiscriminate bombing of 
civilian targets in Idlib. At the same time, we are limited in 
areas where we can work with Russia to advance U.S. priorities. 
One example is de-confliction mechanisms, which have enabled 
both U.S. and Russian forces to conduct D-ISIS operations 
without creating an unnecessary risk of unintended incidents.

    Question. Congress has appropriated $625 million for the 
Countering Russian Influence Fund, which among other things 
provides support to countries in Europe and Eurasia to protect 
electoral mechanisms against cyberattacks, improve the rule of 
law and combat corruption, and help countries combat 
disinformation:

    Is the Fund an effective mechanism, in your view? How can 
it be improved?

    Answer. The Countering Russian Influence Fund (CRIF) has 
been an effective mechanism to address the specific levers of 
Russian malign activity in the region. Foreign assistance funds 
appropriated under CRIF are an important piece of our overall 
foreign assistance efforts to support the goals of Countering 
America's Adversaries through Sanctions Act, and to counter 
Russian malign influence in Europe and Eurasia. CRIF enables 
the Department and USAID to provide targeted and innovative 
bilateral and regional programs to enhance defense capacity of 
allies and partners; improve cyber and energy security; help 
diversify economies; support rule of law, independent media, 
and civil society; and to counter disinformation in 
coordination with other Department programs, including from the 
Global Engagement Center. The Department appreciates 
legislative improvements Congress made by removing geographic 
restrictions for CRIF.

    Question. Why do you think the Kremlin has resorted, as in 
the Soviet era, to taking more political prisoners, especially 
when many of their cases are widely known and condemned 
internationally? Do you foresee more Russian and Ukrainian 
prisoner exchanges in the future?

    Answer. We share your concern about political prisoners in 
Russia. The number of cases has grown from approximately 40 in 
2014 to approximately 300 now, corresponding with a time period 
in which the government's overall tolerance for dissent in the 
country dramatically decreased. It is clear from the 
composition of the list of political prisoners maintained by 
renowned human rights NGO Memorial that the Kremlin has 
targeted members of a range of social groups for reprisal, 
including Jehovah's Witnesses, Muslims, protesters, 
journalists, human rights defenders, and Crimean Tatars and 
other dissidents from Russia-occupied Crimea.
    We support the diplomatic efforts that led to the release 
of Ukrainian political prisoners held by Russia through 
prisoner exchanges. We call on Russia to immediately release 
all of its political prisoners, including Ukrainians and 
members of the Crimean Tatar community.

    Question. In addition to imposing robust sanctions against 
officials responsible for politically motivated imprisonment, 
how else can the USG continue to push for the release of 
political prisoners and ensure accountability for those 
responsible for human rights abuses?

    Answer. The Department shares your concern about the 
troubling growth in the number of political prisoners in the 
Russian Federation. In addition to imposing sanctions on those 
responsible for abusing political prisoners, we routinely 
highlight this problem in public messaging and in multilateral 
fora. We engage bilaterally with the Russian government to urge 
the release of individual prisoners of acute concern, and 
frequently highlight such cases on social media. We support the 
diplomatic efforts leading to the release of Ukrainian 
political prisoners held by Russia through prisoner exchanges. 
Whenever feasible, Embassy Moscow observes the trials of 
political prisoners. Approximately 75% of Russia's political 
prisoners have been jailed for their exercise of religious 
freedom. This was one weighty factor that led the Department to 
place Russia on the ``Special Watch List'' of severe violators 
of religious freedom in both 2018 and 2019.

    Question. How do you assess the state of religious freedom 
in Russia? How can the United States defend Russian religious 
minorities against the misapplication of ``extremism'' laws?

    Answer. Religious freedom in Russia continues to 
deteriorate as the government engages in and tolerates severe 
violations of religious freedom, including torture, arbitrary 
arrest, and imprisonment. Widespread suppression of religious 
practice has led to the imprisonment of over 250 individuals 
for practicing their faith. Peaceful Jehovah's Witnesses, 
deemed an ``extremist'' organization in 2017, have subsequently 
been targeted. In Russia-occupied Crimea, dozens of Muslim 
Crimean Tatars have been sentenced to long prison sentences 
after being falsely accused of belonging to a ``terrorist'' 
organization. The United States will continue to speak out 
against Russia's misuse of ``extremism'' laws against religious 
minorities.

                  PROTESTS FOR FREE AND FAIR ELECTIONS

    Throughout the summer in Moscow, thousands of protesters 
took to the streets to protest the blocking of registration of 
many independent candidates, as well as general protests 
advocating for free and fair elections and an open society. The 
protests were marked by severe police and security service 
brutality against peaceful protesters. Though charges were 
dropped in many instances, some protestors still face jail time 
or are awaiting trial. The Russian government has since 
declared Alexei Navalny's group Anti-Corruption Foundation 
(also known by its Russian acronym FBK) a ``foreign agent.'' 
Since then, FBK offices all over Russia have been subject to 
destructive searches/ransacking and other official harassment.

    Question. What do you make of the Russian protest movements 
this past summer ahead of the Moscow municipal elections? Are 
they similar to protests we have seen before, or do they 
represent a new movement that could bring about real change?

    Answer. The protest movement in 2019 was significant and 
reflects the Russian people's desire to have their voices heard 
and their votes counted. The Department will continue to call 
on the Russian government to honor its OSCE commitments to hold 
free and fair elections and respect the rights of free 
expression, association, and assembly.

    Question. How can the United States operate in the Russian 
human rights sphere when Russia has cracked down on ``foreign 
agents'' and ``undesirable organizations''? How can we best 
support Russian human rights organizations?

    Answer. Despite pressure on civil society, Russian 
organizations and individuals continue to express a desire to 
engage with the United States. As long as this continues to be 
the case, the United States will support opportunities for 
peer-to-peer, educational, cultural, and other regional 
programs that create opportunities to exchange views and best 
practices. The Department continues to engage in a range of 
ways with human rights defenders in Russia and around the 
world. We would be happy to brief you on these efforts in 
person.

    Question. How can the United States support media freedom 
and the protection of journalists in Russia?

    Answer. The United States is an outspoken proponent of 
media freedom and journalist safety in Russia. We frequently 
voice our concerns about the growth in restrictions on the 
press in Russia and engage directly with the Russian government 
regarding cases of individual journalists who are under acute 
threat. The Department uses a range of other mechanisms to 
support media freedom and protect journalists in Russia and 
around the world. We would be happy to brief you on these 
efforts in person.

    Question. What else can the U.S. do to bring attention to 
the plight of political prisoners in Russia?

    Answer. The United States will continue to advocate 
publicly and privately for the release of political prisoners 
in Russia and support coordination with likeminded allies to 
press for accountability for human rights violations in 
international fora such as the U.N. and OSCE. The United States 
will explore every possible avenue to ensure accountability for 
those responsible for human rights abuses, including the use of 
targeted sanctions and visa ban authorities, in such cases 
where we can demonstrate that an individual's conduct meets the 
legal threshold for such action.

    Question. Does the recent prisoner exchange between Russia 
and Ukraine signal a new era of Russian willingness to 
compromise when it comes to political prisoners, or was it 
simply a one-off event?

    Answer. The Kremlin is willing to use all possible methods 
to silence political opponents, including by detaining more 
political prisoners. We support President Zelenskyy's efforts 
to seek a peaceful resolution to the conflict in eastern 
Ukraine, and call on Russia to release all Ukrainians it has 
unjustly imprisoned, including the dozens of Crimean Tatars 
detained by Russian occupation authorities simply for voicing 
their opposition to Russia's occupation.

    Question. What is the situation surrounding press freedom 
in Russia? How can the U.S. stand up for journalists like Ivan 
Golunov, who was arrested and then released after an 
international outcry?

    Answer. Press freedom in the Russian Federation is 
significantly restricted. The government continues to institute 
new laws restricting press freedom, particularly regarding 
online speech. Authorities routinely use procedural violations 
and restrictive or vague legislation to detain, harass, or 
prosecute journalists who write unfavorably about the 
government or pro-government actors and institutes. Journalists 
have been subjected to physical attack, harassment, and 
intimidation as a result of their reporting. The government 
exercises editorial control over most media, creating a media 
landscape in which most citizens are exposed to predominantly 
government-approved narratives. Significant government pressure 
on independent media constrains coverage of numerous issues, 
including of Ukraine and Syria, LGBTI issues, the environment, 
and elections. Censorship and self-censorship are widespread.
    The United States joined the international community in 
publicly condemning the wrongful arrest, abuse, and framing of 
journalist Ivan Golunov. In the case of Golunov, international 
and domestic outcry appeared to have ensured his release, but 
we remain committed to advocating for the freedom of those less 
fortunate journalists in Russia and other authoritarian states 
who remain jailed in retaliation for their work.

    Question. In your view, how effective have sanctions been 
in response to Russian activities?

    Answer. Our actions have sent a clear message to those who 
engage in malign Russian activity. They are on notice that if 
they continue to support election interference, aggression in 
Eastern Ukraine and Crimea, human rights abuse, support for the 
Assad regime, or other threatening activity, they will suffer 
consequences. There is also evidence that sanctions have indeed 
imposed a cost on Russia, one that will provide us leverage 
when they are prepared to negotiate diplomatic solutions. Any 
new discretionary sanctions will be framed with an eye towards 
our critical transatlantic unity on this vital national 
security issue.

    Question. What is your assessment of the impact of sectoral 
versus targeted sanctions with regard to Russian activities?

    Answer. Both sectoral and targeted sanctions have had 
significant effects on Russian activities. The Russian defense 
sector has suffered with the cancelling of billion-dollar arms 
deals between Russia and foreign actors. Sanctions have also 
targeted Russia's energy sector, deterring foreign firms from 
engaging in Russian arctic offshore, deep water, or shale 
projects.
    Targeted sanctions have shown to be significant at the firm 
level, with research finding firms facing a total asset 
valuation drop of one-half. There is evidence that the 
government shields some sensitive targets via state subsidies. 
We estimate the direct cost to the Russian government of 
shielding strategic firms to be at least $13 billion.

    Question. How does the U.S. plan to respond to Russian 
retaliatory actions such as creating its own payment system 
(via the Mir card) which has adverse impacts on U.S. payment 
providers and Russian citizens?

    Answer. This response contains Sensitive But Unclassified 
(SBU) information and will be sent via secure correspondence.

    Question. Why has the administration not used the full 
range of sanctions authorities Congress established in the 
Countering America's Adversaries Through Sanctions Act 
(CAATSA)?

    Answer. This response contains Sensitive But Unclassified 
(SBU) information and will be sent via secure correspondence.

    Question. Does the administration intend to impose 
sanctions on Turkey for taking the delivery of Russian S-400 
missile systems?

    Answer. I cannot pre-judge a sanctions decision prior to a 
determination by the Secretary of State, nor can I preview a 
timeline for a decision under Section 231 of the Countering 
America's Adversaries Through Sanctions Act (CAATSA). The 
Secretary has made clear he intends to comply with the law.
    The decision to unwind Turkey from the F-35 program--prior 
to the outcome of CAATSA deliberations--makes clear how 
seriously we take this issue. As President Trump told President 
Erdogan during his visit, resolving the S-400 issue is vital to 
achieve progress on other elements of the bilateral 
relationship. We continue to stress to Turkish officials that 
this kind of defense cooperation with Russia is not in Turkey's 
interests and should end.

    Question. Do you support an extension of New START?

    Answer. The administration has not yet made a decision 
about a potential extension of the New START Treaty, which does 
not expire until February 2021. Central to the U.S. review of 
potential New START extension is whether an extension is in the 
U.S. national interest, and how the treaty's expiration would 
affect U.S., Allied, and partner security in an evolving 
security environment. Our arms control policies and agreements 
should be responsive to the threats we face.

    Question. Should future strategic arms reductions with 
Russia be considered? If so, should they cover a wider range of 
weapons and countries?

    Answer. We stand ready to engage with Russia on arms 
control that advances U.S., allied, and partner security; is 
verifiable and enforceable; and includes partners that comply 
responsibly with their obligations. President Trump has charged 
his national security team to think more broadly about arms 
control, both in terms of the countries and the weapon systems 
involved, including Russian non-strategic nuclear weapons, new 
kinds of Russian delivery vehicles that would not count against 
New START's limits, and China's growing nuclear arsenal.

    Question. In your view, what are possible implications of 
the U.S. withdrawal from the INF treaty?

    Answer. On August 2, 2019, the United States terminated the 
INF Treaty because Russia failed to return to compliance after 
developing, flight-testing, and then fielding multiple 
battalions of an intermediate-range missile system, the SSC-8, 
in violation of its obligations. Russia is solely responsible 
for the treaty's demise. Our NATO Allies fully supported the 
United States' determination and withdrawal from the Treaty, 
and we are working closely to ensure NATO's deterrence and 
defense against the full-range of Russia's capabilities, 
including the SSC-8. Arms control is only useful for advancing 
U.S., allied, and partner security if Russia understands that 
the United States will not tolerate non-compliance.
                              ----------                              


                 Responses of David Hale to Questions 
                     Submitted by Senator Tom Udall

    Under Secretary Hale, thank you for taking the time to meet 
today.

    It has been nearly 22 years since this committee held a 
series of 6 hearings to debate the prospect of NATO enlargement 
and its impact on U.S. and Russian relations.

    After years of NATO expansion, multiple restarts in the 
relationship with Russia, the passage of New START, election 
interference, Syria interventions by both nations, and multiple 
sanctions, the relationship with Russia is in very bad shape. 
And this is a major nuclear power with an authoritarian 
government.

    The Doomsday clock maintained by the Bulletin of Atomic 
Scientists is now 2 minutes till midnight. Significantly closer 
to midnight than the 17 minutes 22 years ago. And now with two 
existential threats facing humanity. Nuclear weapons and 
climate change.

    It is well known that Vladimir Putin is engaging in a 
deliberate effort to undermine the United States and Western 
Europe. And we are now caught in tit for tat measures that 
could worsen the current security dilemma with regards to 
Russia.

    Mr. Hale, President Trump attacked Ambassador Yovanovitch 
and other during the House impeachment hearings via twitter . . 
. .as she testified.

    The Russian intelligence agencies and foreign ministry are 
now following how the State Department has failed to stand up 
for her and other diplomats.

    Russia is likely to conclude that they can ignore the State 
Department. They will seek to deal more directly with the 
President, his family, and political staff in the White House.

    When it comes to this part of the world, the President 
seems more inclined to heed advice from people like Rudy 
Giuliani than the trained experts in the State Department. That 
deeply concerns me. Does that concern you when it comes to 
Russia and their sophisticated intelligence agencies?

    In 1990 George Kennan wrote that:

    ``We have never been at war with Russia, should never need 
to be and must not be... The greatest help we can give will be 
of two kinds: understanding and example. The example will of 
course depend upon the quality of our own civilization. It is 
our responsibility to assure that this quality is such as to be 
useful in this respect.''

    It may be uncomfortable to talk about, but our President 
has major foreign business interests, which are not disclosed 
to the American people.

    This is completely unprecedented in our history. You would 
not be allowed to do these things in your position--it's 
against the law which requires divestment for federal officials 
to avoid conflicts of interest. And to reduce the risk of 
corruption.

    Our State Department is rightly critical of very real 
corruption problems in many foreign countries--including but 
not limited to Russia and Ukraine. I am gravely concerned that 
our President is failing to set a good example on corruption in 
the way that George Kennan described:

    Question. The President has publicly talked about 
corruption in Ukraine. Has he ever personally directed any 
actions to combat corruption in Russia, and if so, what were 
those actions?

    Answer. The administration fully shares congressional 
concerns about corruption in Russia. Under a range of sanctions 
authorities, including the Global Magnitsky Act, the 
administration has imposed sanctions and visa bans on some of 
the most notoriously corrupt actors in Russia.

    Question. Follow up: What is the U.S. anti-corruption 
agenda for Russia and what progress are we making?

    You met with Russian officials in Helsinki last year and 
your office put out a short readout of the meetings, stating:

    ``that while the United States seeks to narrow differences 
and foster cooperation with Russia on a number of global 
challenges, Russia's negative actions continue to be a barrier 
for progress in our bilateral relationship.''

    For all of their problematic behavior, Russia remains in 
the Paris agreement on climate and the JCPOA on Iran, and has 
expressed that they wish to renew the New START treaty.

    It is President Trump who has stated that he is not in 
favor of any of these actions. Russia's position on these 
issues strike me as areas where we should have agreement.

    So let's focus for a minute on nuclear issues, and New 
START.

    Answer. Given the gravity of the corruption problem in 
Russia, we remain committed to proactively using sanctions and 
visa ban authorities to identify and respond to corrupt foreign 
officials and agents working on behalf of or aligned with 
Russia. We continue to work with our allies to press Russia to 
uphold its international anticorruption obligations and defend 
against attempts by Russia to distort the international 
anticorruption framework. We use all the tools of diplomacy, 
including foreign assistance, to insulate our partners from all 
avenues of Russia's malign influence, including corruption.

    Question. Historically, the U.S. has not tied nuclear 
agreements to other disagreements. Is that the case today? Are 
we actively pursuing future nuclear arms control agreements 
with Russia and if not, why?

    Answer. The United States remains committed to effective 
arms control that advances U.S., allied, and partner security; 
is verifiable and enforceable; and includes partners that 
comply responsibly with their obligations. We stand ready to 
engage with Russia on arms control that meets these criteria as 
the U.S. Government advances President Trump's priority of 
seeking arms control that includes more countries and 
categories of weapons than past treaties. State Department 
officials regularly meet with Russian officials bilaterally and 
multilaterally to discuss matters relating to arms control and 
risk reduction. We will continue these discussions as 
appropriate in the interest of U.S. national security.

    I sincerely hope that we are not approaching Russia in the 
same way we are approaching Iran, with a ramp up to maximum 
pressure, hoping we can achieve a pipe dream of demands while 
ignoring the need to cooperate on issues of global importance 
such as arms control and climate change.

    Question. Do you agree with former Ambassador Jon 
Huntsman's assessment?
    Mr. Hale, Russia has traditionally been a more European 
leaning nation, but since the Cold War, there seems to be a new 
shift by Russian to look more towards Asia. To countries such 
as China and India.

    Former Ambassador Jon Huntsman wrote this year in a Wall 
Street Journal Op-ed that:

    ``Blithely implementing sanctions without making sure they 
fit into a larger strategy of engagement costs us the ability 
to shape outcomes. Russians have accepted that U.S. sanctions 
will probably remain in place for the long term, inevitably 
distorting the market as Russians create alternative supply 
chains that aren't always conducive to American interests.''

    One of those alternative supply chains is China:

    Answer. Following Western imposition of economic sanctions 
after its aggression in Ukraine, Russia stepped up purchases 
from Chinese producers. But Russia's orientation to the East, 
even in consumer goods, has been overstated by the Russian 
government. While China is now Russia's largest single trading 
partner, it is still dwarfed by the EU.
    Given the importance of trade with the West to the Russian 
economy, there is evidence that sanctions have indeed imposed a 
cost on Russia.
    We estimate the direct cost to the Russian government of 
shielding strategic firms from sanctions is at least $13 
billion. In addition, sanctions have reduced Russia's ability 
to access funding in the financial, energy, and defense 
sectors, as well as limit its access to certain technologies. 
Foreign investment is also down as a result of sanctions, which 
depresses Russia's economic growth.
    We are committed to a policy of consistent cost imposition 
until Russia changes course, and sanctions will remain a key 
part of that.

    I'd like to conclude with a discussion about the future. 
Tolstoy wrote in War and Peace that:

    ``The strongest of all warriors are these two--Time and 
Patience.''

    George Kennan wrote in 1990:

    ``Give them time; let them be Russians; let them work out 
their internal problems in their own manner.''

    Question. What is your takeaway from Russian history and 
culture, and how can you incorporate that for our engagement? 
In other words, how do you reach the current and future leaders 
of Russia to open the door to increased rapprochement?

    Answer. Our public diplomacy efforts in Russia are designed 
to engage, influence, and further U.S. policy in the long term. 
Through creative public diplomacy programs, Mission Russia 
advances key strategic priorities include bolstering Russian 
society to be more resilient and democratic, furthering civil 
society development, and promoting American business and 
entrepreneurship. Our programs also focus on countering Russia 
propaganda. Despite a challenging environment, the Mission has 
had significant success in using public diplomacy tools to 
further U.S. policy interests. Our programs continue to attract 
large audiences and exchange program alumni have become 
prominent citizens, scholars, and officials in Russian society.
                              ----------                              


                 Responses of David Hale to Questions 
                     Submitted by Senator Ted Cruz

    Question. In your assessment, should Sudan's designation on 
the State Sponsor of Terrorism list be rescinded?

    Answer. Considering rescission of Sudan's State Sponsor of 
Terrorism designation requires the Government of Sudan to 
demonstrate to the satisfaction of the United States that it 
meets the statutory and policy criteria for rescission. In line 
with the relevant statutory criteria, when considering 
rescission of a State Sponsor of Terrorism designation, the 
Department of State reviews the relevant government's 
activities to assess whether the government is supporting acts 
of international terrorism and obtains assurances from the 
government that it will not support such acts in the future.

    Question. To what degree does the administration intend to 
meaningfully consult with Congress before coming to any 
decision regarding the potential rescission of Sudan from the 
State Sponsor of Terrorism list?

    Answer. Before the rescission of a State Sponsor of 
Terrorism designation can take effect, the President must 
transmit the statutorily required report and certification to 
Congress.

    Question. Pursuant to the three statutes that underpin the 
State Sponsor of Terrorism designation--the Arms Export Control 
Act, the Foreign Assistance Act, and the Export Controls Act--
there are two paths for removing a foreign government from the 
SST designation. The first path allows for the President to 
certify and report to Congress that (1) there has been a 
fundamental change in the leadership and policies of the 
government of the country concerned; (2) that government is not 
supporting acts of international terrorism; and (3) that 
government has provided assurances that it will not support 
acts of international terrorism in the future:

    If the administration pursues this path, what criteria is 
used to determine a ``fundamental change in the leadership?''

    Answer. Under the first path for considering the rescission 
of a State Sponsor of Terrorism designation, the Department of 
State draws from all available sources and takes into account 
the totality of the situation in assessing whether there has 
been a fundamental change in the leadership and policies of the 
government of the country concerned.

    Question. The second path allows for the President, 45 days 
before a rescission takes effect, to certify to congressional 
leadership that (1) the government concerned has not provided 
any support for acts of international terrorism during the 
preceding 6-month period; and (2) the government concerned has 
provided assurances that it will not support acts of 
international terrorism in the future:

    If the administration pursues this path, can you commit to 
notifying Congress that Sudan's designation is under review, in 
addition to notifying Congress once the 6-month period begins?

    Answer. The required certification that the government 
concerned has not provided any support for acts of 
international terrorism is a review of the preceding 6 months 
before the time that the report is sent to Congress. It is a 
look back on the government of concern's activities over the 
preceding 6 months, not a decision to examine that government's 
activities over a pre-determined 6-month period. We look 
forward to continuing our close coordination with Congress on 
Sudan, as the U.S. government works with the civilian-led 
transitional government.

    Question. Aside from the statutory requirements, what, if 
any, additional conditions is the administration considering 
when evaluating whether to change Sudan's designation?

    Answer. As we finalize a new engagement plan with Sudan, we 
will consult with the Hill and will take into account a number 
of issues important to the bilateral relationship. This 
includes the need for Sudan to address certain terrorism-
related claims and for the new government to establish and 
implement policies that differentiate its conduct on 
counterterrorism issues from that of its predecessor.

    Question. Is the administration seeking to ``de-link'' a 
potential rescission of Sudan from the SST list from the Five 
Track plan, which included conditions ranging from progress on 
human rights and religious freedom to outstanding terrorism-
related claims?

    Answer. The Five Track plan and its ``Phase II'' were plans 
specifically designed to engage the Bashir regime. They were 
suspended in February 2019 and with Bashir's ouster will not be 
resumed. We are in the process of designing a separate 
engagement plan more appropriate for a relationship with a 
civilian-led government. Specifics of that plan have not been 
finalized.
                              ----------                              


             Responses of Christopher A. Ford to Questions 
                     Submitted by Senator Ted Cruz

    Question. Regarding Arak reconversion, how can waivers for 
ongoing modernization be reconciled with Sec. Pompeo's demand 
to close the reactor? Why shouldn't the State Department demand 
that it be closed and authorize work only pursuant to such 
closure?

    Answer. Secretary Pompeo has made clear that ``Iran must 
stop enrichment and never pursue plutonium reprocessing. This 
includes closing its heavy water reactor.'' The work permitted 
under the waiver is intended to redesign the Arak heavy water 
reactor so that it would not produce weapons-grade plutonium 
that could be reprocessed, consistent with the Secretary's 
demand that Iran never pursue plutonium reprocessing and the 
closure of the previously designed reactor.

    Question. Regarding the TRR waiver, do you assess Iran 
entitled to import highly enriched uranium? If so, pursuant to 
what are they entitled to conduct those imports?

    Answer. The waiver covers the return to Iran of increments 
of near-20 percent uranium fuel materials for the Tehran 
Research Reactor on an as-needed basis determined by the 
International Atomic Energy Agency; it does not provide for the 
import of highly enriched uranium. The mechanism to return 
these fuel materials was designed to ensure Iran would have no 
reason to enrich uranium to near-20 percent to fuel the reactor 
and to prevent Iran from readily converting the material for 
use in a potential breakout scenario once irradiated in the 
reactor.

    Question. Also regrading to the TRR waiver, how can waivers 
for such imports be reconciled with demands that Iran 
denuclearize? Is the State Department prepared to accept a 
final agreement that keeps in place robust Iranian civil-
nuclear work involving highly enriched uranium?

    Answer. Absent a mechanism for Iran to continue importing 
uranium fuel materials for the TRR, we expect Iran would argue 
it could resume production of near-20 percent enriched uranium 
to fuel the reactor. Resumed production of such material would 
reduce the breakout timeline for Iran to produce enough fissile 
material for a nuclear weapon, should it choose to do so. 
Secretary Pompeo has made clear that as part of the 
comprehensive deal we are seeking Iran must stop all enrichment 
activity.
                              ----------                              


   Letter to Hon. James E. Risch and Hon. Robert Menendez From Mike 
                                Sommers

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------                              


  U.S. Chamber of Commerce Article Submitted by Senator James E. Risch


                        U.S. CHAMBER OF COMMERCE

       PRINCIPLES FOR SANCTIONS AS A TOOL OF EFFECTIVE STATECRAFT

    Economic sanctions have become a frequently-used tool of 
U.S. foreign policy in the post-war era, and with good reason: 
Policymakers need to have options that lie between diplomacy 
and military action--alternatives that lie between dialogue and 
open warfare--to advance key American interests overseas.
    Too often, though, sanctions are used as a blunt instrument 
when circumstances call for a scalpel. At times, the United 
States has applied sanctions in a sweeping manner without 
sufficient regard for their effectiveness or possible 
collateral harm to other U.S. interests.
    The risk is not only that sanctions will fail to achieve 
their primary foreign policy objectives but that they will 
erode U.S. credibility in the long haul and harm international 
economic ties that sustain economic growth and jobs at home.
    With Congress considering new sanctions legislation 
targeting a range of foreign governments, the Chamber offers 
these principles to maximize the effectiveness of these 
measures and minimize any collateral damage to U.S. interests:

         SANCTIONS SHOULD TARGET SPECIFIC FOREIGN POLICY GOALS

    To be effective, sanctions legislation and executive action 
should be calibrated carefully to achieve specific, clearly 
articulated objectives. Fundamentally, these objectives center 
on altering the future behavior of a foreign government (for 
this reason, sanctions should not be retroactive).
    The aim of sanctions should not be punitive: Sanctions that 
do nothing but impose hardship on the citizens of another 
country will only undermine U.S. interests in the long run, 
erode America's international standing and ``soft power,'' and 
are at odds with America's humanitarian values and support for 
human rights. In addition, close consultation between Congress 
and the executive branch, in the inter-agency process, and 
between government and the private sector will help enhance 
effectiveness and limit collateral harm.

          SANCTIONS MUST BE MULTILATERAL TO ACHIEVE THEIR AIMS

    Success in bringing economic pressure to bear on a given 
country through sanctions increasingly depends on support from 
a broad range of foreign governments, only some of which are 
close U.S. allies. After all, the United States is a minor 
trade and investment partner for most of the countries targeted 
with sanctions in recent years.
    History demonstrates that unilateral sanctions 
uncoordinated with other significant economies immediately 
present opportunities for non-U.S. competitors to ``backfill'' 
commercial opportunities as U.S. firms are forced to exit the 
market. In these circumstances, U.S. governmental action simply 
hands lucrative foreign markets to American companies' 
competitors on a silver platter, with real-world implications 
for jobs, competitiveness, and earnings back home. In the worst 
case scenario, U.S. sanctions may obligate American companies 
to sell foreign assets suddenly at fire-sale prices--an outcome 
that is not just lamentable but often beneficial to bad actors.

        SANCTIONS SHOULD BE CONDUCT-BASED, NOT BROAD OR SECTORAL

    Sanctions should focus on documented malign conduct and 
those who engage in it. Some of the most effective sanctions 
employed by U.S. authorities in recent years have been focused 
on foreign government officials, executives of state-owned or 
state-directed enterprises, and specific foreign firms.
    Targeting foreign individuals and entities and their 
financial holdings and ability to travel has been highly 
motivating in many instances. Given that these sanctions are 
generally applied to undemocratic regimes that tend to be 
unmoved by blunt sanctions that harm their own citizens, this 
targeted approach has added attractiveness.

 SANCTIONS SHOULD ALLOW FLEXIBILITY FOR SWIFTLY CHANGING CIRCUMSTANCES.

    Sanctions legislation must allow a level of discretion for 
the executive branch. Sanctions are often contemplated in a 
context of armed conflict, which can shift rapidly, and 
executive branch officials must be provided the leeway to alter 
course. Failing to provide a degree of discretion for the 
executive branch would constrain its ability to direct U.S. 
foreign policy as provided by the Constitution.
    Discretion should be provided with regard to sanctions-
related decisions involving the initiation of investigations, 
which sanctions on a menu will be imposed, the possible 
issuance of waivers, OFAC licenses, and alteration of 
sanctions. If a sanction or threat of sanction induces a 
behavior change consistent with a foreign policy objective, the 
efficacy of the overall sanctions regime will benefit if the 
executive branch has the ability to remove or adjust a sanction 
swiftly.

   SANCTIONS SHOULD SEEK TO AVOID SPILLOVER TO THIRD-COUNTRY MARKETS

    The application of U.S. sanctions to joint ventures and 
other enterprises in third countries exacerbates the 
``backfill'' problem mentioned above and multiplies the harm to 
U.S. industry without adding in any way to the sanctions' 
effectiveness.
    For instance, the reach of secondary sanctions into third 
countries incites economic, diplomatic, and legal conflicts 
with U.S. allies and frustrates joint action. Indeed, imposing 
sanctions on entities in countries that U.S. officials are 
often attempting to enlist to assist U.S. efforts is inimical 
to the very aims of sanctions.

     SANCTIONS MUST AVOID OVERREACH OR RISK ERODING U.S. INFLUENCE

    U.S. influence and leverage are substantial, but they are 
finite resources that may be exhausted through overuse.
    For example, the United States retains substantial economic 
leverage through its leadership role in the Society for 
Worldwide Interbank Financial Telecommunication (SWIFT) 
financial messaging network that financial institutions use to 
transfer information securely. However, U.S. use of this 
influence in ways that lacked broad support has led allies and 
other countries to begin the development of alternate systems 
that will allow commerce to flow around the barriers raised by 
U.S. sanctions. In the end, sanctions overreach puts at risk 
the country's future ability to impose sanctions.
                              ----------                              


                                  <all>
</pre></body></html>
